<html>
<title> - H.R. 503, A BILL TO AMEND THE HORSE PROTECTION ACT HEARING BEFORE THE SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JULY 25, 2006 Serial No. 109-127 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-795 PDF WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              H.R. 503, A BILL TO AMEND THE HORSE PROTECTION ACT


                                  HEARING

                                 BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE, 

                         AND CONSUMER PROTECTION

                                   OF THE 

                     COMMITTEE ON ENERGY AND COMMERCE 

                         HOUSE OF REPRESENTATIVES


                        ONE HUNDRED NINTH CONGRESS

                              SECOND SESSION


                               JULY 25, 2006

                             Serial No. 109-127

Printed for the use of the Committee on Energy and Commerce

Available via the World Wide Web: http://www.access.gpo.gov/congress/house



                    U.S. GOVERNMENT PRINTING OFFICE

30-795 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON ENERGY AND COMMERCE 
JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas
MICHAEL BILIRAKIS, Florida
  Vice Chairman
FRED UPTON, Michigan
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
NATHAN DEAL, Georgia
ED WHITFIELD, Kentucky
CHARLIE NORWOOD, Georgia
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
JOHN B. SHADEGG, Arizona
CHARLES W. "CHIP" PICKERING,  Mississippi 
  Vice Chairman
VITO FOSSELLA, New York
ROY BLUNT, Missouri 
STEVE BUYER, Indiana
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
C.L. "BUTCH" OTTER, Idaho
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee
JOHN D. DINGELL, Michigan
  Ranking Member
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
TED STRICKLAND, Ohio
DIANA DEGETTE, Colorado
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
TOM ALLEN, Maine
JIM DAVIS, Florida
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas


BUD ALBRIGHT, Staff Director
DAVID CAVICKE, General Counsel
REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION
CLIFF STEARNS, Florida, Chairman
FRED UPTON, Michigan
NATHAN DEAL, Georgia
BARBARA CUBIN, Wyoming
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
C.L. "BUTCH" OTTER, Idaho
SUE MYRICK, North Carolina
TIM MURPHY, Pennsylvania
MARSHA BLACKBURN, Tennessee
JOE BARTON, Texas
  (EX OFFICIO)
JAN SCHAKOWSKY, Illinois
  Ranking Member
MIKE ROSS, Arkansas
EDWARD J. MARKEY, Massachusetts
EDOLPHUS TOWNS, New York
SHERROD BROWN, Ohio
BOBBY L. RUSH, Illinois
GENE GREEN, Texas
TED STRICKLAND, Ohio
DIANA DEGETTE, Colorado
JIM DAVIS, Florida
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
JOHN D. DINGELL, Michigan
  (EX OFFICIO)


                                   CONTENTS 


Page
Testimony of:

Sweeney, Hon. John E., Member of Congress, State of New York 

22 
Goodlatte, Hon. Bob, Chairman, Committee on Agriculture	
31 
Pickens, Boone, Chief Executive Officer, BP Capital	
37 
Beaver, Bonnie V., DVM, Executive Director, American College of 
Veterinary Behaviorists, Texas A&M University	

40 
Hogan, Patricia, VMD, ACVS, New Jersey Equine Clinic	
105 
Corey, Douglas G., President-Elect, American Association of 
Equine Practitioners 
110 
Williams, Russell, Vice Chairman, American Horse Council; Vice 
President, Hanover Shoe Farms	

131 
Koehler, Dick, Beltex Corporation	
134



H.R. 503, A BILL TO AMEND THE HORSE PROTECTION ACT 


TUESDAY, JULY 25, 2006 

HOUSE OF REPRESENTATIVES,
COMMITTEE ON ENERGY AND COMMERCE, 
SUBCOMMITTEE ON COMMERCE, TRADE, 
AND CONSUMER PROTECTION, 
Washington, DC. 


The subcommittee met, pursuant to notice, at 2:11 p.m., in Rooms 
2322 and 2123 of the Rayburn House Office Building, Hon. Cliff 
Stearns (Chairman) presiding. 
	Members present:  Representatives Upton, Cubin, 
Radanovich, Bass, Pitts, Bono, Ferguson, Otter, Murphy, Blackburn, 
Barton [ex officio], Schakowsky, Green, Gonzalez, and Baldwin. 
	Also present: Representative Burton. 
	Staff present: Chris Leahy, Policy Coordinator; Will 
Carty, Professional Staff Member; Jonathon Cordone, Minority 
Counsel; Alec Gerlach, Minority Research and Press Assistant; 
Consuela Washington, Senior Minority Counsel; and Billy Harvard, 
Legislative Clerk. 
	MR. STEARNS.  Good afternoon.  The subcommittee will come 
to order.  Our hearing today on H.R. 503, a bill to amend the Horse 
Protection Act, is surrounded by passionate advocates on both sides, 
and we appreciate that.  What is notable is that all the passionate 
advocates care deeply about the welfare of horses, the humane 
conditions for their care, and have strong opinions about what this 
bill could mean for their livelihood, the horse industry and the 
beloved horses they all care about.  And I would like to thank my 
friend and colleague, Chairman Ed Whitfield, for his hard work in 
bringing this important issue to the fore, his strong commitment 
to the welfare of horses, and his support for a comprehensive and 
objective hearing so Members will be able to better understand the 
issues that are involved and the positions of the various 
stakeholders. 
	This bill amends the Horse Protection Act to prohibit the 
shipping, transporting, moving, delivering, receiving, possessing, 
purchasing, selling or donation of any horse or other equine to be 
slaughtered for human consumption.  Violators of the prohibition 
in the bill would be subject to specific criminal and civil 
penalties and prison terms.  The authorization for administering 
the Horse Protection Act would be increased from $500,000 to $5 
million annually.  The bill is intended to prevent the 
transportation and processing of horses for food and other products 
and the alleged inhumane treatment of those animals in their 
transportation and slaughter in the process.  The bill permits the 
USDA to detain, for examination and evidence, any horse for which 
it has probable cause that the animal will be slaughtered and 
processed for food. 
	My colleagues, I think both sides can agree that the case 
of the abandoned or unwanted horse is one we all want to resolve.  
Supporters of H.R. 503 contend that many of the horses headed for 
the processing facilities suffer injury, severe stress in transport, 
and face an inhumane death under substandard conditions.  They argue 
that the markets for the horse meat products produced at these 
processing facilities, mainly in Europe and Japan, perpetuate these 
inhumane conditions and contribute to the abuse of American horses. 
	Now the opponents of H.R. 503 argue that the unwanted horse 
is one of the main reasons there is a market for these animals at 
these processing facilities, and that better care and euthanasia 
practices would help resolve the issue of poor and underfunded care 
of horses.  The opponents of the legislation also point out that 
eliminating the market for horse products and meat will lead to an 
explosion of horses that require care, and they claim over 80,000, 
and that would overburden the current capacity to provide adequate 
and humane care both in terms of facilities and financial 
resources.  And what cost would be incurred because of this 
overburden?  Would tax payers have to pay for the increased 
resources required?  The supporters of the legislation believe that 
there is an adequate capacity for the care of unwanted horses and 
there is enough financial support to absorb these animals into the 
current care facility. 
	As someone who is from Florida, Ocala, Florida, horse 
country, I can understand the emotions that run deep with an issue 
that not only represents our responsibility to care for animals 
properly and with humanity, but truly captures a culture and a way 
of living that is uniquely American.  I am an animal and horse lover 
and like all of us, want to find ways to avoid the unwanted horse 
scenario.  That said, I am not a horse owner, a racing horse 
breeder, a farmer, or an animal processor.  So I still am a bit 
distant from those perspectives on this issue and understand that 
this problem means much more to those who work and live in the 
American horse industry.  I do, however, think whatever we propose, 
we must have a full understanding of the ultimate effects of the 
American horse population, no matter how we proceed, because there 
are arguments presented on both sides that seem to paint a pretty 
bleak picture for a large number of horses and their caregivers in 
America, in the event legislation is or is not passed.  Therefore, 
I believe our focus today should be on discussing the best way to 
eliminate the unwanted horse problem and how to find more humane 
approaches to that problem, as well as to study the particular 
issues presented by this bill.  I also believe that today presents 
us with an opportunity to better understand what the bill could 
mean for the financial obligations involved in caring for additional 
horses, for choosing plans, or for supporting better and more humane 
ways of euthanizing unwanted and abandoned animals. 
	Again, I want to commend all of you for participating in 
this hearing today and your belief in protecting and treating horses 
humanely.  I would also like to thank in particular Chairman 
Goodlatte and Congressman Sweeney for joining us today.  Both of 
you, I appreciate your time, as well as the distinguished panel 
that we have that follows, and I look forward to their testimony.  
And with that, I recognize the Ranking Member, Ms. Schakowsky. 
	[The prepared statement of Hon. Cliff Stearns follows:] 

PREPARED STATEMENT OF THE HON. CLIFF STEARNS, CHAIRMAN, SUBCOMMITTEE 
ON COMMERCE, TRADE, AND CONSUMER PROTECTION 

Good afternoon.  Our hearing today on H.R. 503, a bill to amend the 
"Horse Protection Act," is surrounded by passionate advocates on 
both sides of the bill.  What is notable is that all the passionate 
advocates care deeply about the welfare of horses, humane conditions 
for their care, and have strong opinions about what this bill could 
mean for their livelihoods, the horse industry, and the beloved 
horses they all care about.  First, I'd like to thank my friend and 
colleague, Chairman Ed Whitfield, for his hard work in bringing 
this important issue to the fore, his strong commitment to the 
welfare of horses, and his support for a comprehensive and objective 
hearing so members will be able to understand better the issues 
involved and the positions of the various stakeholders. 
H.R. 503 amends the "Horse Protection Act" to prohibit the 
"shipping, transporting, moving, delivering, receiving, possessing, 
purchasing, selling, or donation of any horse or other equine to 
be slaughtered for human consumption."  Violators of the 
prohibitions in the bill would be subject to specified criminal and 
civil penalties and prison terms.  The authorization for 
administering the Horse Protection Act would be increased from 
$500,000 to $5 million annually.  The bill is intended to prevent 
the transportation and processing of horses for food and other 
products and the alleged inhumane treatment of those animals in 
their transportation and slaughter in the process.  The bill permits 
the USDA to detain for examination and evidence any horse for which 
it has probable cause that the animal will be slaughter and 
processed for food. 
I think both sides can agree that the case of the abandoned or 
"unwanted" horse is one we all want to resolve.  Supporters of 
H.R. 503 contend that many of the horses headed for the processing 
facilities suffer injury and severe stress in transport and face an 
inhumane death under substandard conditions.  They argue that the 
markets for the horse meat products produced at these processing 
facilities -- mainly in Europe and Japan -- perpetuate these 
inhumane conditions and contribute to abuse of American horses.  
The opponents of H.R. 503 argue that the "unwanted" horse is one 
of the main reasons there is a market for these animals at these 
processing facilities and that better care and euthanasia practices 
would help resolve the issue of poor and under-funded care of 
horses.  The opponents of the legislation also point out that 
eliminating the market for horse products and meat will lead to an 
explosion of horses that require care -- they claim over 80,000 -- 
and that this would overburden the current capacities to provide 
adequate and humane care, both in terms of facilities and financial 
resources, and what cost would be incurred because of this 
overburden?  Would taxpayers have to pay for the increased 
resources required? The supporters of the legislation believe that 
there is adequate capacity for the care of unwanted horses and there 
is enough financial support to absorb those animals into current 
care facilities. 
As someone who is from Florida horse country, I can understand the 
emotion that runs deep with an issue that not only represents our 
responsibility to care for our animals properly and with humanity 
but truly captures a culture and way of living that is uniquely 
American.  I am an animal and horse lover, and like all of us, want 
to find ways to avoid the "unwanted horse" scenario.  That said, 
I'm not a horse owner, a racing horse breeder, a farmer, or an 
animal processor so I still am a bit distanced from those 
perspectives on this issue and understand that this problem means 
much more to those who work and live in the American horse 
industry.  I do, however, think whatever we propose, we must have 
a full understanding of the ultimate effects on the American horse 
population no matter how we proceed because there are arguments 
presented on both sides that seem to paint a pretty bleak picture 
for a large number of horses and their caregivers in America in the 
event legislation is or is not passed.  Therefore, I believe our 
focus today should be on discussing the best way to eliminate the 
"unwanted" horse problem and how to find more humane approaches to 
that problem, as well as to study the particular issues presented 
by H.R. 503.  I also believe that today presents us with an 
opportunity to better understand what the bill could mean for the 
financial obligations involved in caring for additional horses, for 
closing plants, or for supporting better and more humane ways of 
euthanizing unwanted and abandoned animals.  
Again, I want commend all of you before us today for your strong 
beliefs and passion to do what is right and just -- protecting and 
treating horses humanely, ensuring we do what's best for them, and 
for educating the Congress about an issue that means so much to 
American culture and history. I'd also like to thank, in particular, 
Chairman Goodlatte and Representative Sweeney for joining us today, 
as well as the distinguish panel before us.  We look forward to you 
testimony. 

	MS. SCHAKOWSKY.  Thank you, Chairman Stearns, for holding 
today's hearing on the issue of horse slaughter for human 
consumption.  As a strong supporter of animal rights, a horse 
lover, and a former horse owner, I am proud to be a co-sponsor of 
H.R. 503, the American Horse Slaughter Prevention Act, which would 
put an end to this horrible practice.  I would like to welcome 
Representatives Sweeney and Goodlatte, and I look forward to your 
views on this issue. 
	Horses are some of the most beautiful and beloved 
domesticated animals on earth.  Just this summer the story of 
Barbaro, the Kentucky Derby winner that shattered his leg at the 
start of the Preakness, has transfixed millions of Americans.  
Since the injury, the thoroughbred has received an incredible 
outpouring of letters, if he can read, I don't know, flowers, 
homemade signs, apples, and carrots, from Americans around the 
country.  Fans have even made pilgrimages to Barbaro's care 
facility in Pennsylvania to wish him well in his fond recovery.  
Americans are rooting for Barbaro because they have been taken 
with his strength, his beauty, and his strong personality.  
Americans have long appreciated horses for transport on ranches, 
as police mounts, as cherished companions.  The American Horse 
Council reports that 1.9 million Americans currently own horses, 
as I once did.  Another 7.1 million Americans are involved in the 
industry as horse owners, service providers, employees, and 
volunteers, while tens of millions participate in horse events as 
spectators.  These millions of Americans know that horses are 
creatures of splendor and beauty that should be treated with dignity 
and respect in life and death. 
	However, in 2005, over 90,000 horses were slaughtered at 
three American-based foreign-owned plants.  The meat was shipped to 
Europe and Asia for consumption.  Tens of thousands of horses were 
also shipped live to Canada where they were slaughtered for 
consumption abroad.  Horses bound for slaughter must endure 
inhumane conditions on the way to and during slaughter.  Horses 
are shipped frequently for long distances in terrible condition.  
They are crammed together in trucks built for cattle and pigs, and 
because of the crammed conditions, they are often trampled.  Some 
horses arrive at the slaughterhouse seriously injured or dead.  
Once at the slaughterhouse, horses are often not rendered 
unconscious before they are killed, as mandated by Federal law. 
	Most people assume that all or most of the horses bought 
for slaughter are old or injured.  In fact, according to USDA 
guidelines for handling and transporting equines to slaughter, 
92.3 percent of horses that arrive at slaughter plants are in 
"good" condition, meaning they are not injured, lame, overweight, 
or underweight.  Healthy animals, past and former racehorses, all 
are sent to slaughter.  Anyone who has ridden a horse and who has 
been captured by its personality and strength can't support their 
inhumane slaughter.  Not surprisingly, polls from California to 
Virginia show that between 60 and 82 percent of Americans do not 
support horse slaughter.  I received hundreds of letters, and I am 
sure other members of the committee have, from constituents who 
oppose horse slaughter and support H.R. 503. 
	Congress has also expressed its desire to end horse 
slaughter by voting to amend the fiscal year 2006 Agriculture 
Appropriations bill to ban the practice.  That amendment passed 
overwhelmingly by a vote of 269 to 158 in the House, and 69 to 28 
in the Senate.  Unfortunately, the USDA has skirted the law and 
continues to allow horses to be slaughtered in the United States.  
I believe it is time to listen to the American public and finally 
end the barbaric practice of horse slaughter by passing H.R. 503.  
It is long overdue, but I have to say that I also did talk 
yesterday with opponents of this legislation, who described the 
plight of unwanted and abandoned horses and I appreciate that 
recognition by the Chairman and the need to bring that part of the 
debate into consideration today.  So I again thank you for holding 
today's hearing and I look forward to hearing from our witnesses. 
	MR. STEARNS.  I thank the gentlelady.  The distinguished 
Chairman of the full committee, Mr. Barton. 
	CHAIRMAN BARTON.  Thank you, Mr. Chairman.  I am going to 
put my written statement in the record and just speak 
extemporaneously.  I want to thank our witnesses for being here.  
I have gone to some length to make sure, in conjunction with 
Mr. Whitfield and Mr. Stearns, that this be a balanced hearing.  
In our first panel I have my good friend, Congressman Sweeney, who 
is passionately for the bill, and my good friend, Bob Goodlatte, 
who is passionately against the bill.  So that is certainly 
balanced.  On the next panel I have my good friend and long-time 
supporter, Mr. Boone Pickens, and his lovely wife, Madeline, who 
are passionately for the bill.  And I have the past president of 
the Texas Veterinary Association, Dr. Bonnie Beaver, who I have 
talked to about it several times, who is passionately against the 
bill.  So I am kind of like Solomon when he was asked about the 
baby and his answer was to split the baby, this is a tough issue.  
I am, on balance, opposed to the bill.  I did send a letter last 
year to Mr. Whitfield, saying that I would vote for last year's 
bill if it were to come to a vote, but the more I have learned about 
it, the more I think, on balance, it is the best public policy to be 
against it for a number of reasons.  But I have promised that this 
hearing is going to be fair, and I want to commend Mr. Whitfield and 
Mr. Sweeney.  For those of you that are supporters of the bill, you 
couldn't have more passionate, articulate committee-dedicated 
sponsors than those two gentlemen.  They have absolutely done 
everything in a positive sense possible to bring this legislation 
forward, and the result is this hearing.  And Mr. Goodlatte's 
committee, the Agriculture Committee, there is going to be a markup 
of the bill in the very near future.  So I hope we have a balanced 
hearing and that we get the facts on the table and then we will let 
the Congress work its will.  And with that, I yield back. 
	[The prepared statement of Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON 
ENERGY AND COMMERCE 

Thank you Chairman Stearns for holding this hearing.  I know that 
H.R. 503 is an emotional issue for some people, and it is my hope 
that today's hearing will give us a chance to look beyond the 
emotion and explore the facts of this issue and this bill. 
I thank all of today's witnesses for coming.  It is important that 
this discussion be fair and open, and I think we have the best 
witnesses from both sides to make sure that is the case. 
It is no secret that I am opposed to H.R. 503.  And despite what 
has been said, it is not because I dislike horses, or because I had 
some bad experience with them when I was young.  My opposition to 
this bill stems from a realization that this bill comes with some 
negative consequences that I believe are being overlooked. 
Ever since this issue was referred to my Committee, I have been 
bombarded by calls, letters, and meeting requests from people 
inside my own district, and across the country.  I've heard from 
individual ranchers and horse owners as well as the American 
Quarter Horse Association, the American Veterinary Medical 
Association, the American Association of Equine Practitioners, 
American Farm Bureau Federation, National Cattleman's Beef 
Association, the Texas and Southwestern Cattle Raisers Association, 
and the Livestock Marketing Association. 
These are just some of the groups opposed to this bill, and these 
are groups that, frankly, I consider to be representative of rural 
America.  They have all said the same thing.  H.R. 503 will lead to 
a miserable existence for thousands of horses, and is an outright 
strike at animal agriculture. 
The care and the overall health of the animals-and the rights of 
their owners-should always be the primary concerns when taking up 
legislation of this nature.  Processing unmanageable and unwanted 
horses provides a humane alternative to continuing a life of 
discomfort, inadequate care, or abandonment. 
Mandatory USDA inspection, which abides by strict laws monitoring 
the welfare of animals in the processing facility, assures humane 
handling requirements are met.  And I would like to note that since 
last year's Agriculture Appropriations bill was enacted, the three 
equine processing plants pay for those inspectors out of their own 
pockets.  No expense to the taxpayer. 
H.R. 503 provides no alternative for the thousands of horse owners 
for whom continued care of an animal is no longer economical or in 
some cases humane.  We have several veterinarians on the panel 
today, and I look forward to hearing their views on the animal 
welfare side of this issue. 
The other concern that this bill raises for me is one of private 
property rights.  While a majority of my constituents live in 
the Arlington/Fort Worth area, the geography of my district is 
almost entirely rural.  Animal agriculture is a large part of the 
economy for much of rural America, and agriculture is already one 
of the most extensively regulated industries in the United States. 
In the name of animal welfare, the USDA tells producers how they 
can and can't transport their animals.  In the name of consumer 
safety, the USDA tells producers what they can and can't feed 
their animals.  Now we want to tell producers who they can and 
can't sell they're animals to.  As a long-time proponent of 
limited government, I take issue with that. 
The horse owners in question have fed, housed, and cared for their 
animals-for decades in many cases-at great personal expense.  When 
an animal reaches the point when he is no longer productive for the 
owner, and no one else will purchase the animal, who are we to deny 
an owner the opportunity to recover a small portion of their 
investment?  Why should they not be allowed to sell their animal 
to a legal, humane, and closely regulated processing facility? 
Again, I understand that this is an extremely emotional issue 
for many people, but this Congress cannot and must not allow 
itself to govern by emotion.  I'm glad that we have this 
opportunity today to get the facts about equine processing out 
in the open, and I look forward to hearing from our expert 
witnesses.  I would particularly like to thank Dick Koehler 
(KAY-LER) for coming up from Fort Worth.  Mr. Koehler runs one 
of the processing plants we here to discuss, and I'm glad we have 
a good Texan here who knows this process on a firsthand basis. 
Thank you, and I yield back. 

	MR. STEARNS.  I thank the gentleman.  Ms. Baldwin. 
	MS. BALDWIN.  Thank you, Mr. Chairman.  I appreciate 
the fact that you are holding this important hearing and it is 
a timely hearing on H.R. 503, a bill to amend the Horse Protection 
Act to effectively ban the slaughter of horses for human 
consumption.  As one of the nearly 200 co-sponsors of H.R. 503, 
I want to express my strong and longstanding support for the bill, 
and I thankfully look forward to the opportunity to vote for this 
legislation in committee and when it reaches the House floor, 
hopefully in the near future. 
	Over 90,000 horses, many of them young and healthy, are 
slaughtered in the United States annually for the purpose of human 
consumption.  Most horse meat is sold abroad, with the United States 
exporting about 18,000 metric tons of such meat, valued at $61 
million last year.  Many horses slaughtered each year are either 
stolen or obtained through false pretenses by what are known as 
killer buyers at auction houses, hired by foreigners in the horse 
meat industry.  Equally as troubling as the sale of horse meat is 
the way the animals are killed.  Horses are often transported to 
slaughterhouses in crowded trailers, where they may wait for more 
than a day without food or water, an inhumane treatment of horses 
currently allowed under the Department of Agriculture regulations. 
	The conditions at some horse slaughterhouses are notorious, 
and the methods of killing are often cruel and inhumane.  I believe 
that the way we treat our animals is a reflection of our society as 
a whole.  Given the special place that horses occupy in our culture 
and in our history, and most simply because I think it is the right 
thing to do, we must ensure uniform and humane treatment of horses, 
even when they are abandoned.  The current horse slaughtering 
industry is under-regulated and encourages theft, fraud, and 
overbreeding for the purpose of human consumption, and that is why 
I applaud the sponsors of this bill for their effort to amend the 
Horse Protection Act and comprehensively prohibit the slaughtering 
of horses for human consumption. 
	The market demand for horse meat in foreign countries should 
not drive the cruel and unnecessary practice of horse slaughter 
domestically, and I look forward to swift consideration of this bill 
in committee and in the House, and thank you again, Mr. Chairman, 
for holding this vital hearing.  I yield back. 
	[The prepared statement of Hon. Tammy Baldwin follows:] 

PREPARED STATEMENT OF THE HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF WISCONSIN 

Thank you Chairman for holding this important and timely hearing on 
H.R. 503, a bill to amend the Horse Protection Act to effectively 
ban the slaughter of horses for human consumption.  As one of the 
nearly 200 co-sponsors of H.R. 503, I want to express my strong and 
long-standing support for the bill and I look forward to voting for 
the legislation when it reaches the House floor in the near future. 
Over 90,000 horses, many of them young and healthy, are slaughtered 
in the United States annually for the purpose of human consumption. 
 Most horsemeat is sold abroad, with the United States exporting 
about 18,000 metric tons of such meat valued at $61 million last 
year.  
Many horses slaughtered each year are either stolen or obtained 
through false pretenses by "killer-buyers" at auction houses hired 
by French or Belgian owned horsemeat industry. Equally troubling as 
the sale of horsemeat is the way the animals are killed.    Horses 
are often transported to slaughterhouses in crowded trailers, where 
they may wait for more than a day without food and water - an 
inhumane treatment of horses currently allowed under the Department 
of Agriculture regulations.  The conditions at horse slaughterhouses 
are notorious, and the methods of killing are cruel and inhumane.  
Horses are sometimes beat on the neck, head, backs, and legs, and 
stunned with a metal rod into the brain. 
I believe the way we treat our animals is a reflection of our 
society as a whole.  Given the special place horses occupy in our 
culture and history, we must ensure uniform and humane treatment of 
horses, even when they are abandoned.  The current horse 
slaughtering industry is under-regulated and encourages theft, 
fraud, and over-breeding for the purpose of human consumption.  That 
is why I applaud the sponsors of this bill for their effort to amend 
the Horse Protection Act and comprehensively prohibit the 
slaughtering of horses for human consumption.  The market demand 
for horsemeat in foreign countries should not drive the cruel and 
unnecessary practice of horse slaughter domestically.  I look 
forward to the swift passage of this bill through Committee and the 
House, and thank you again Mr. Chairman for holding this hearing. 

	MR. STEARNS.  The gentlelady from California, Ms. Bono. 
	MS. BONO.  Thank you, Mr. Chairman.  I would like to also 
thank you for holding this hearing today.  My good friends, 
Congressman Ed Whitfield and Congressman John Sweeney, have been 
true champions of this bill.  I am thankful for their efforts and 
I am with them 100 percent.  I believe that, for me and for many 
of my colleagues, the story behind the need for this legislation 
has touched us deeply.  I have always enjoyed the thrill and the 
freedom that comes from a great horseback ride.  The animals are 
strong, intelligent creatures that deserve our respect.  However, 
the processes by which they are slaughtered are anything but 
respectful.  I realize many members will concede the point that 
these animals should be treated humanely, but wonder what the 
Federal nexus is.  Simply put, the States are looking to the 
Federal government for guidance.  The State of Texas tried to ban 
commercial slaughter of horses, but the State courts ruled that 
the Federal law preempts State law.  So it is up to Congress to 
decide whether or not the commercial slaughter of horses should 
continue. 
	But let us look at some of the facts.  Currently, there are 
three slaughterhouses in the United States.  All three are foreign 
owned.  The meat goes to foreigners as well, since there is no 
market for horse meat in the United States.  Ending commercial 
slaughter will not lead to increase in abandoned horses, since many 
which are slaughtered are actually stolen from their rightful 
owners and sold under false pretenses.  In my home State of 
California, we have had a ban on horse slaughter for 8 years and 
have seen no increase in abandoned or neglected horses.  This bill 
will not interfere with private property rights, since owners could 
still euthanize a sick horse.  Horses bound for the slaughterhouse 
are crammed into double-decker trailers, as my colleague just said. 
 They are designed for smaller animals like cattle and they cannot 
be segregated, so many do not even survive the trip, as they are 
killed en route. 
	Finally, the slaughter process itself is grossly inhumane.  
It is not quiet or peaceful.  Mr. Chairman, we are not talking 
about undermining a longstanding American industry that is out to 
serve Americans.  Instead, I am asking for you and my colleagues to 
take a close and hard look at the current practice of horse 
slaughter and ask yourselves if this is something our country should 
condone.  It is my opinion that based on the facts before us and 
the States looking to the Federal government for a nationwide 
policy, our answer can and must be against the commercial slaughter 
of horses.  Thank you again.  I look forward to the testimony today, 
I welcome my two colleagues, and I yield back the balance of my 
time. 
	MR. STEARNS.  The gentlelady yields back.  Mr. Green. 
	MR. GREEN.  Thank you, Mr. Chairman.  I would like to ask 
for a full statement to be placed in the record. 
	MR. STEARNS.  By unanimous consent; so ordered. 
	MR. GREEN.  First, I would like to thank you and our Ranking 
Member, Ms. Schakowsky, for holding this hearing and ultimately the 
markup tomorrow.  I want to also thank Congressman Whitfield and 
Congressman Sweeney for their dedication in number of terms.  I 
don't know how many times I have been a co-sponsor of it, but it 
has been a number of years for your dedication to this.  We have 
201 co-sponsors, including myself, who believe horses should not 
be slaughtered for human consumption.  According to the USDA, 
90,000 horses were slaughtered for human consumption in 2005.  Most 
of the horses obviously were raised for other purposes, a majority 
for riding, but no longer wanted by their owners.  They are 
collected by dealers who supply the foreign-owned plants from 
auctions, boarding facilities, and elsewhere.  Unlike cows and pigs 
and other animals, horses are not raised in feedlots for human 
consumption, so horse owners often don't know who they are selling 
their animal to and it may be actually going to human consumption. 
	Since Americans don't eat horse meat, it is shipped 
overseas.  The biggest consumers of horse meat are France, Italy, 
Belgium, and Japan, which consider it a delicacy and often used as 
an alternative to beef.  I think it is ironic that Japan, for 
instance, regulates the amount of American beef that is imported 
into that country, but these regulations are not imposed on 
American horse meat.  Congress has passed several amendments in 
the past to end horse slaughter for consumer consumption, but the 
USDA has not implemented an outright ban.  When Congress cut USDA 
funding for inspections of the horse meat, the plants started paying 
USDA on a fee-for-service basis, continuing inspections.  It is 
time we passed legislation that would permanently ban this practice 
and end horse slaughter for human consumption.  And again, 
Mr. Chairman, I am glad that the panelists are here today, and 
normally from Texas, I would support--but in this case, since two 
of three plants are in Texas, I am going to make an exception for 
my rule, that is why I am a co-sponsor of this bill and I am looking 
forward to the markup tomorrow, Mr. Chairman. 
	MR. STEARNS.  I thank the gentleman.  Mrs. Cubin. 
	MRS. CUBIN.  Thank you, Mr. Chairman.  I would like to make 
it clear right now, at the very beginning, that if you believe in 
the humane treatment of animals, this bill takes us a step 
backwards.  If you believe in preserving a balanced and natural 
ecosystem, this bill moves us in the wrong direction.  If you 
believe in personal property rights, this bill represents an assault 
on that uniquely American ideal. 
	Speaking of an American ideal, there are many here today who 
will say that we are slaughtering young, strong horses, which are 
symbols of the American West.  I am here today to tell you that this 
is not the case.  I am from Wyoming and one of the first memories 
I have in my life is sitting on the back of a horse.  I love horses 
as much as anyone here, but I am here today to tell you that this 
is not the case, that we are not striking out at symbols of the 
American West.  Many of these horses are old, ill, and starving due 
to overpopulation or they have otherwise ceased in their proper 
function.  Ninety thousand horses per year must be adopted if this 
bill is enacted.  When you take into consideration the fact that 
the wild horses that roam the plains of Idaho, Wyoming, Utah, and 
Colorado can't be adopted, how will be able to adopt an additional 
90,000 horses that otherwise will be in the system? 
	 There isn't a practical answer for that if this bill is 
enacted.  But you don't need to take my word for it.  Mr. Chairman, 
I have heard from over 60 reputable horse organizations, animal 
health organizations, and agricultural organizations, such as the 
American Veterinary Medical Association, the American Association 
of Equine Pet Practitioners, the American Quarter Horse 
Association, the American Painted Horse Association, owners, and 
more than a dozen State horse councils and others who are opposed to 
this legislation.  Most importantly, I have heard loud and clearly 
from folks who know and love horses more than anyone in this room, 
Wyoming's ranchers.  They are the ones who breed their horses.  
They help deliver them at birth.  They train them.  They feed them 
every day.  They care for them when they are sick.  Every day of 
their lives they are interacting with the horses that they love.  
Wyoming's ranchers depend on horses for their livelihood.  They know 
all there is to know about caring for a horse in the harsh seasons 
on the high plains and in the Rocky Mountains.  They have to know in 
order for them to survive. 
	Mr. Chairman, these folks know their animals like they 
know themselves, and yet today we were considering a bill that will 
tie their hands, preventing them from making a humane choice for 
their horses.  Today we are considering a bill that will sentence 
innumerable horses to a life of starvation and suffering.  Today we 
are considering a bill that will have untold disastrous effects on 
the ecosystem.  Today we are considering a bill that puts the 
feelings of other animal lovers above the rights of ownership.  
Mr. Chairman, I sincerely admire the motivation of the people who 
are here in support of this bill today.  If only their love of these 
regal creatures could take care of all of the needs these wonderful 
animals have, the problem would be solved, but in practicality, 
that is not the case.  We can't adopt another 90,000 horses a year.  
With that, I yield back the balance of my time. 
	[The prepared statement of Hon. Barbara Cubin follows:] 

PREPARED STATEMENT OF THE HON. BARBARA CUBIN, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF WYOMING 

Thank you Mr. Chairman, I want to make this clear right now  at the 
very beginning - no matter how you look at it, this is poor 
legislation.  If you believe in the humane treatment of animals, 
this bill takes us a step backwards.  If you believe in preserving 
a balanced and natural ecosystem, this bill moves us in the wrong 
direction.  If you believe in personal property rights, this bill 
represents an outright assault on that uniquely American ideal. 
Speaking of an American ideal, there are many here today who will 
say that we are slaughtering young, strong horses, which are symbols 
of the American West.  I am here today to tell you that this not 
the case.  Many of these horses are old, ill, starving due to 
overpopulation or have otherwise ceased their proper function.  
But you don't need to take my word for it. 
Mr. Chairman, I have heard from over 60 reputable horse 
organizations, animal health organizations, and agricultural 
organizations such as the American Veterinarian Medical Association, 
the American Association of Equine Practitioners, the American 
 Quarter Horse Association, the American Painted Horse Association, 
owners, and more than a dozen state horse councils opposed to this 
legislation. 
Most importantly, I have heard loud and clear from folks who know 
and love horses more than anyone in this room - Wyoming's ranchers. 
 Wyoming's ranchers depend on horses for their livelihood.  They 
know all there is to know about caring for a horse because in the 
harsh seasons out on the high plains or up in the Rocky Mountains, 
they have to know in order to survive. 
Mr. Chairman, these folks know their animals like they know 
themselves.  And yet, today, we are considering a bill that will 
tie their hands, preventing them from making the humane choice for 
their horses.  Today we are considering a bill that will sentence 
innumerable horses to a horrific life of pain and suffering.  
Today, we are considering a bill that will have untold disastrous 
effects on the ecosystem.  Today we are considering a bill that 
puts the whims of supposed animal lovers above the rights of 
ownership. 
With that, I yield back the balance of my time. 

	MR. STEARNS.  I thank the gentlelady.  Mr. Gonzalez. 
	MR. GONZALEZ.  Thank you very much, Mr. Chairman, and 
welcome to one and all.  Obviously this is something that many 
people have very strong feelings about.  I think someone earlier 
said that much of this topic is emotional in nature, so let me go 
ahead and defend emotion, human emotion.  I think emotions lead to 
compassion and that is not a bad thing, and maybe our laws should 
reflect some of that compassion.  But in this particular debate, 
before I became a co-sponsor, I did meet with individuals who are 
well versed with the issues and the facts, and I think that our 
emotion and our compassion at the end of this debate will be fully 
buttressed and supported by the facts in this particular piece of 
legislation.  And I want to have a good faith debate, but I just 
don't want individuals to simply say that this is totally 
emotionally based.  And that is not a bad starting place and I think 
it gives us a road map that we can follow and I do truly believe, 
after listening to the proponents and the opponents, that the 
proponents present a more factual case in support of this particular 
piece of legislation.  And I yield back. 
	MR. STEARNS.  I thank the gentleman.  We are going to 
continue the opening statements.  I would like to announce to 
everybody in the audience, we are able to get the downstairs room, 
which is 2123, which is much larger.  And I am sorry that so many 
people have to stand.  We are going to finish the opening statements 
and I urge everybody to keep within the 3 minutes, listen to our 
two distinguished members of Congress, and then before the next 
panel comes up, we will go downstairs and then we have a line 
outside that is waiting.  I want everybody to get in to hear this 
very important hearing.  So we asked for a bigger room and we got 
the bigger room.  So with that, we will continue our opening 
statements.  Mrs. Blackburn. 
	MRS. BLACKBURN.  Mr. Chairman, I am going to waive. 
	MR. STEARNS.  I thank the gentlelady.  Mr. Murphy, 
	MR. MURPHY.  Thank you very much, Mr. Chairman, for holding 
this hearing and I am looking forward to hearing it and getting 
information from all sides here.  I come to this from the 
perspective of my memories as a child.  My first job was mucking 
stalls at my neighbor's farm.  We had one farm with quarter horses 
and one with thoroughbreds.  In exchange, I would get 50 cents an 
hour and I could ride the horses to my heart's content, even though 
I could barely come up to their shoulder.  Now, as a Congressman, 
I represent racetrack and the farmers who own their horses.  I 
represent the owners of the Heinz Hitch, some of those large horses 
that pull that wagon along.  But, I don't represent horses.  I 
represent the farmers who own them.  And I have been listening so 
far to the comments, a number of things have come up here, where 
we are concerned about the care, the transportation, the slaughter, 
and the treatment of horses, all of which are very important.  As 
far as I can tell, there are laws covering how farmers should 
humanely raise horses and cows and pigs and chickens and goats, 
et cetera.  There are laws covering how horses should be 
transported, whether going to the racetracks or going somewhere 
else.  There are laws covering how a horse should be slaughtered.  
There are laws prohibiting farmers from killing their own horse 
when it reaches the end of their life.  There are laws that prohibit 
farmers from burying a horse on their land. 
	When a farmer has a horse that is old or can no longer be 
ridden, raced, or worked, and this includes many Pennsylvania farmers 
who are Amish and Mennonite, the farmer can keep the horse in 
pasture, paying for the care and feeding and health and upkeep.  
That costs them.  There are laws, in fact, that say they have to do 
that, or else they are accused of abusing the animal and treating 
it inhumanely.  Or the farmer can have the horse put down, 
euthanized, shot, or taken away.  If shot, that meat will get used 
for meat in a zoo.  If euthanized, it gets sent off for rendering, 
which is used in products like lipstick.  A horse can be cremated 
and a horse can be buried somewhere, but all of those cost the 
farmer a great deal of money.  But the question comes down to 
whether or not the farmer has the right to decide. 
	Now I, in having ridden many horses in my lifetime and grew 
fond of them too.  But the question is not how I feel about the 
horse.  The question is, does the farmer have a right to decide that 
this is livestock?  So they have a right to decide how what happens 
to that horse at the end of its life.  Similarly, does a farmer 
have a right to decide what happens to his cows, his pigs, his 
goats, his chickens, and other livestock as well?  Or do we 
anthropomorphize them and become emotionally attached and somehow 
say that the rules are different?  Now let us keep in mind the 
examples we are hearing and I am open to hearing these points about 
how horses may be inhumanely treated against the law and how 
they may be transported, slaughtered, or raised.  All of us should 
stand up against that mistreatment.  Those are the laws in place 
and are there for good reason.  I want to know however, if there 
are specifics as relates to when horses are used for human 
consumption, that it is somehow different.  Let us not blend 
them all together.  Let us look at those things in particular. 
	Unless we are going to outlaw all transportation, all 
rendering, all euthanizing, all killing of horses for any reason, 
somehow the irony is not laws.  Last week, as we were arguing stem 
cell research, the issue about embryos, about why some said it was 
okay to discard some embryos was because they were unwanted, and 
so people were saying it is okay, we can use those, and others were 
saying, no, it is not okay.  It was a question in the debates very 
much between those who said even an embryo is life, it should be 
preserved, and those who said, no, it is unwanted.  Do what you 
want with it.  And now the irony is, we have flipped that argument 
the other way.  If a horse is unwanted, you can't have it that way.  
You can't use it in a way that the farmer wants. 
	 Now farmers are businesses across America.  Agriculture is 
the number one business in Pennsylvania.  As I said before, we have 
many Amish and Mennonite farmers out there, who at the end of the 
horse's life see this as livestock, as a means of making some money. 
 And instead, if we say that, no, you can't, you have to raise this 
horse, continue to pay for this horse, where do we get the money 
from to do that?  Or do we say someone has to adopt it.  Who is 
going to adopt the horse?  Or if we say to the farmer, the horse 
will still have to be killed, who is going to pay for that?  
These are all important questions and I am hoping that from some 
we hear from today, that it includes farmers who have to foot the 
bill, for the farmers who refer to this as livestock.  So I am 
looking forward to this hearing and hearing about some details of 
this in answer to some of those questions.  Thank you, 
Mr. Chairman. 
	MR. STEARNS.  I thank the gentleman.  Mr. Ferguson. 
	MR. FERGUSON.  Thank you, Mr. Chairman.  Thanks for 
holding this hearing and thanks to our witnesses, thanks to Chairman 
Goodlatte and Mr. Sweeney for joining us and the other witnesses 
we will hear from today.  I am pleased to express my strong support 
for H.R. 503.  I am a co-sponsor of the American Horse Slaughter 
Prevention Act.  This legislation enjoys broad and bipartisan 
support in this Congress.  It is strongly supported by the 
veterinarians, the horse racing and thoroughbred industries, animal 
welfare groups, and countless Americans across the country. 
	Currently, nearly 100,000 horses are slaughtered in 
American each year, killed not solely because they are old or sick, 
but rather so their meat can be eaten by humans.  Human consumption 
of American horses is rampant in Asia and some European countries.  
Worse, the process of how these horses are killed in American 
slaughterhouses often does not follow United States law.  An 
existing Federal law that governs how horses are transported 
to slaughterhouses only encourages cruel treatment.  For example, 
horses can be transported for up to 28 hours and during that time 
can be denied food and water.  It is clear that in the 1996 
Commercial Transportation of Equines for Slaughter Act, and in 
the 2002 Agriculture Department regulations that enforce that law, 
clearly these are not working and in fact are only serving to 
create additional incentives for ongoing cruelty to horses. 
	H.R. 503 would ban the slaughter of horses in America for 
human consumption abroad.  This is a needed reform and it is long 
overdue.  Federal law should not, as the 1996 law and its 2002 
relations do, should not permit the inhumane treatment of horses as 
they are transported to slaughterhouses where their meat is packaged 
and shipped overseas for human consumption.  The House last year 
voted overwhelmingly in support of an appropriations amendment that 
restricted Federal funds from being used to facilitate the slaughter 
of horses for human consumption, the ideal amendment in the Senate 
won approval with broad and bipartisan support.  Clearly, both 
bodies of Congress have already taken a stand on this issue.  
Slaughtering horses for human consumption abroad is completely 
unacceptable and this practice must be stopped. 
	I want to commend my colleagues, Mr. Whitfield and 
Mr. Sweeney and others, for championing this cause and it really 
represents, I think, the will of Congress and the will of the 
American people.  I also want to add a word of thanks to the 
Humane Society of the United States and other advocacy 
organizations.  They have tirelessly and responsibly advocated 
the cause of this legislation and I believe their work has both 
reduced animal cruelty and frankly, raised awareness for animal 
care in this country and around the world.  Again, I want to 
thank our witnesses for being here today and thank you, 
Mr. Chairman, for considering this issue. 
	MR. STEARNS.  I thank the gentleman.  The gentleman 
from New Hampshire, Mr. Bass. 
	MR. BASS.  Thank you, Mr. Chairman, and I appreciate your 
holding this hearing and I appreciate the work of the two Members 
who are in front of us and my friend from Kentucky, Mr. Whitfield. 
 And I think this is going to be a helpful hearing and I hope we 
an move this bill forward.  I think it is a god bill and I think 
there are some misconceptions about its intent.  There is nothing 
in here that says that a horse cannot be killed.  There is, 
frankly, nothing in this bill, as far as I can tell, that says 
that a horse can't be eaten.  But what it does say is that you 
can't make money off of the slaughter of horses for human 
consumption for food. 
	 Now we do have, indeed, on farms pigs, chickens, cows, 
and so forth, which are either milked or slaughtered and so forth, 
but they are raised for that purpose, and I think that when one 
deals with the issue of horses, it is different.  And although I 
think that there are some problems in this bill that need to be 
addressed, for example, the export of horses to other countries 
such as Canada and Mexico and whether or not they--what would 
happen under those circumstances, whether or not there are 
facilities, rescue centers, sanctuaries, and so forth that are 
adequate to accommodate these animals should the slaughter 
prohibition go into effect, and also whether or not there would 
be adequate food supply for animals in zoos that need horse meat 
in order to survive.  But ultimately, I don't think that a horse 
is the same as a cow or a pig because, in America, they have not 
been raised for the purpose of human consumption to begin with 
and this is something that I think is a relevant issue that needs 
to be addressed and I hope the committee takes action on this 
bill, and I yield back. 
	MR. STEARNS.  Mr. Upton.  Mr. Upton is not here.  
Mr. Otter. 
	MR. OTTER.  Thank you, Mr. Chairman, and I appreciate all 
of the interest in this bill.  Mr. Sweeney and I have had many 
long discussions about it.  I would say that I could probably 
challenge anybody in this room, as many horses that I have owned.  
I have rodeoed since I was 18 years old and had horses all of 
those years.  I still rodeo and I still have quite a few horses 
and as many as 80 horses at one time.  And I do have a lot of 
problems with this bill, and probably the largest problem I have 
with this bill is that there are States that are having problems 
in enforcing their laws.  We enforce our laws in Idaho, and if 
there are States that are having problems enforcing their laws, 
well then, I would suggest that they go to their State 
legislatures.  But I don't know why the Federal government is 
involved in this.  You know, I have looked around and it is pretty 
hard for me to find any constitutional basis for the Federal 
government to get into the business of regulating horse slaughter. 
 Humane treatment, fine, but once the horse is slaughtered, 
I think--or any animal is slaughtered, we do have State laws and 
we obey those laws.  So if you are not obeying the laws in your 
State, then you ought to go back to your State and ask that 
question. 
	 Everybody has asked a question thus far.  So who pays the 
bill?  What do we do with these animals if we are not going to 
dispose of them in the way that we have?  And I would tell you 
where we can start.  Right now the Bureau of Land Management has 
a feed lot, or several feed lots, scattered around the western 
United States, where they have had to take the wild horses off 
the range because of a multitude of problems, including disease, 
 overpopulation, and we are now spending upwards of $20 million a 
year to feed lot those horses, put those horses in confined feeding 
so that we can take care of them because you can't kill them, as 
you know.  Wild horses have been exempt for a long, long time, but 
wild horses are not private property. 
	And so I think that this bill is going to raise a whole lot 
more questions than it is answers.  The questions of private 
property, the questions of what do we tell the people?  What do we 
tell the people that do eat horse meat, that need to eat horse 
meat?  We are going to have these horses being put down and not 
consumed, and at the same time there are millions of people in the 
world that are starving to death.  So I would just ask the question 
that, before we run headlong into trying to solve the problem for a 
few States, that we then implement some sort of mandatory program 
over all 50, that we take a look at truly what we are doing here, 
because it is going to be expensive, it is going to be dysfunctional, 
and I think, in the long run, it is going to create a lot more 
problems than it solves.  I yield back. 
	MR. STEARNS.  I thank the gentleman.  I think all of the 
committee members have had a chance to speak, and with unanimous 
consent agreement, we will allow Mr. Whitfield from Kentucky to 
have his chance, perhaps, for an opening statement, unless the 
gentlelady had waived.  So Mr. Whitfield, unanimous consent to 
allow you an opening statement. 
	MR. WHITFIELD.  Well, thank you, Mr. Stearns, and I 
genuinely appreciate this opportunity on this important bill.  I 
want to thank John Sweeney for his leadership.  A lot of people 
have asked this question: who pays the bill for unwanted horses?  
And I find it interesting that everybody is talking about, well, 
the Federal government should be responsible for this.  What about 
the breeders?  The largest breeder in America today are the quarter 
horse people.  They had 144,000 new foals last year.  Do they have 
any responsibility at all?  Well, I think they do.  Why should the 
taxpayers be taking care of this?  They talk about unwanted horses 
because they are the most prolific breeders in the country.  The 
thoroughbred industry is breeding 34,000 horses a year, and the 
quarter horse, over 144,000.  So let us talk about breeder 
responsibility. 
	Now, Mr. Otter mentioned about why is the Federal government 
involved?  If you look at Texas, you will find out that Texas has a 
State law that has been on the books for many years that makes it 
illegal to sell horse meat as food for human consumption.  And 
John Cornyn and the Attorney General wrote a legal opinion and said 
this was a criminal offense.  Beltex and Dallas Crown are engaged 
in this activity; it is a criminal offense.  A lawsuit was filed 
by Beltex and by Dallas Crown and they won that suit because the 
Federal judge said this is about interstate commerce, this is 
about Federal preemption, and if it is going to be changed, the 
Federal government has to change it.  That is why we are here 
looking at this bill, because only the Federal government can 
change it. 
	Now, they did a poll in Texas and they have done others 
around the country.  Eighty-nine percent of the people polled in 
Texas didn't even know horses were being slaughtered in Texas.  
Seventy-two percent of the people said they are opposed to horses 
being slaughtered for human consumption.  Seventy-seven percent 
said they would oppose any legislation to legalize horse slaughter 
in Texas.  Because, after John Corning's legal opinion, Betty Brown 
introduced legislation to make it legal and she couldn't even get 
it through the Texas legislature.  So that is why the Federal 
government is involved in this, because the States can't do anything 
about it. 
	Now, people who say that animal rights groups are behind 
this bill, I would just give you a list here of individuals and 
organizations, like the Bull Riders Association and every horse 
group that you can name, opposed to this bill, we can name groups 
that support this bill.  Every veterinarian you find opposed to this 
bill, we can find a veterinarian to support this bill.  We have 
corporate leaders that are out there leading the charge to pass 
this legislation because they are responsible.  We talk about 
private property rights.  What about the individual whose horse is 
stolen?  And we know many horses ended up at slaughter because they 
are stolen.  And this new program that was started back in 1997 or 
1998, in which the slaughterhouses pay $5 a head for every horse 
stolen, $3 to the Cattlemen's Association, and $2 to Texas A&M 
Extension Service, for the purpose of determining stolen horses.  
In a newspaper article in San Antonio just 2 years ago they were 
talking about it and they said we haven't found any stolen horses 
yet.  And I think Mr. Koehler, in his testimony for Beltex today 
will indicate they have not found any stolen horses. 
	I know my time has expired, Mr. Chairman.  I will just 
make one additional comment.  I found a case in Kentucky, when 
one of my constituents who filed a lawsuit and received a judgment 
of $126,000 against a couple that obtained his horses by 
misrepresentation, sold them to killer buyers for Beltex, and 
took the horse to Beltex for slaughter.  It is in the court records. 
 We know that many horses being stolen are ending up being slaughter 
and that is one of the reasons we want to pass this legislation. 
	MR. STEARNS.  I thank the gentleman.  Mr. Pitts just came 
in.  Would you like to have an--he will waive.  With that, we will 
move to our panel, our distinguished members, and at this point, 
Mr. Sweeney, we are going to call on you first and we welcome you 
for your opening statement. 

STATEMENTS OF THE HON. JOHN E. SWEENEY, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF NEW YORK, AND THE HON. BOB GOODLATTE, CHAIRMAN, 
COMMITTEE ON AGRICULTURE 

MR. SWEENEY.  Thank you, Mr. Chairman and Ranking Member Schakowsky. 
 I really appreciate the opportunity to be here, and let me begin by 
saying that I am here obviously in support of my legislation, 
H.R. 503, the American Horse Slaughter Prevention Act, and I ask 
that my full statement be submitted into the record. 
	MR. STEARNS.  By unanimous consent, so ordered. 
	MR. SWEENEY.  Mr. Chairman, this has been a long day in 
coming.  I first introduced legislation back in 2003 and we have 
faced obstruction, obfuscation, and delay.  What I am struck by, 
the testimony of your great committee, is how thoroughly informed 
the members are.  At least they focused on it.  This issue is 
extremely important to me as a representative of upstate New York, 
and more specifically Saratoga Springs, because Saratoga Springs is 
the home of the Saratoga Racetrack, the oldest thoroughbred 
racetrack in America, and it is one of the larger horse farm 
communities in the Nation.  In fact, tomorrow the racetrack opens 
up its 2006 season, so this is going to be a very timely hearing. 
	We Americans, as many have said, hold the horse in very 
high regard for good reason.  This is why many in our country find 
it shocking when they hear each year that some 90,000 horses are 
slaughtered in the country, then shipped overseas to Europe and 
Asia, where they are served in restaurants as delicacies.  The 
reason I sit before you today is to advocate for my legislation, 
which effectively bans the slaughter of horses in the United States 
for human consumption.  In 2002, a horse named Ferdinand, the 1986 
Kentucky Derby winner, was slaughtered and served as a meal 
overseas.  In fact, he was advertised as, eat an American champion. 
 Americans were shocked to hear that such a thing could ever occur 
to an animal that was so loved and respected.  It was Ferdinand's 
death that brought this issue to the forefront, and as I said, 
since 2003, I have been the author of this legislation. 
	There have also been many attempts to curb this practice 
at the State level as well.  Texas, as my good friend, 
Mr. Whitfield, and partner in this effort noted, has had a law 
prohibiting the sale of horse meat for human consumption on its 
books since 1949, yet slaughter facilities operating in Texas in 
violation of State law continue.  This demonstrates the need and 
the rationale for Federal legislation.  Also a 1998 ballot 
proposition to ban horse slaughter in California passed with 60 
percent of the vote.  Various other States have pending legislation, 
including Illinois, Delaware, and my home State of New York.  We 
have made substantial strides in curbing horse slaughter for human 
consumption recently; however, our goal remains very far from the 
finish line. 
	Last year I offered an amendment to the Agriculture 
Appropriations bill to effectively pass a 1-year ban on horse 
slaughter.  This amendment passed by a wide margin, 269 to 158.  
However, due to a maneuver by the USDA circumventing congressional 
intent, horse slaughter continues.  And I would just point out to 
my good friend, Mr. Murphy, that it wasn't until that maneuver that 
horses were classified as livestock.  And most of the regulations 
that are on the books are not adhered to.  My legislation amends 
the Horse Protection Act of 1970 to prohibit the shipping, 
transporting, moving, delivering, receiving, possessing, 
purchasing, selling, or donation of horses and other equines for 
slaughter for human consumption.  Basically, this makes it 
impossible for an individual to slaughter a horse in the United 
States, but also prohibits an individual to transport a horse to 
Canada or Mexico for the purpose of slaughter.  H.R. 503 differs 
significantly from prior legislation aimed at banning horse 
slaughter, in that it does not actually ban the act of slaughter.  
Allow me to explain why I chose to go this route. 
	My legislation in the 108th Congress specifically banned 
the act of slaughter of horses for human consumption.  That 
legislation sat out on the Committee on Agriculture.  Therefore, 
I rewrote this legislation for referral to the Energy and Commerce 
Committee.  Currently, we have 202 co-sponsors.  Not only do a vast 
majority of the Members of Congress support my efforts, but a 
majority of Americans do as well.  Recently public opinion polls 
have clearly demonstrated this.  Surveys conducted in Texas, 
Kentucky, and Virginia indicate that nearly 75 percent of voters 
oppose horse slaughter.  Over 481 industry and horse organizations 
support this legislation.  Even the mayor of Kaufman, Texas, home 
to one of the slaughter facilities, supports the bill.  Why is 
this?  The fact remains that we Americans hold horses to a higher 
standard.  Horses are known personally.  Everyone knows Mr. Ed, 
Secretariat, Silver, and I suggest that that is not the case with 
animals like cows and chickens.  Would we ever think of slaughtering 
and serving a bald eagle in this country?  Horses are American icons 
and deserve to be treated as such.  Unlike cows and pigs, horses are 
not raised for food but for pleasure, work, and recreation.  If 
another country chooses to raise horses for food, then so be it; 
however, they should slaughter their own horses, not American 
horses. 
	Horse meat is neither consumed in the United States nor is 
there a demand here.  According to the USDA, more than 90,000 U.S. 
horses were slaughtered in 2005 for human consumption and exported 
to Europe and Asia.  Three slaughter plants exist in the United 
States today, all foreign-owned.  While they operate in the United 
States and slaughter American horses, both the meat and money go 
overseas.  There are two slaughter plants located in Texas and one 
in Illinois.  Opposition to my legislation makes false claims that 
H.R. 503 would result in overpopulation of horses and increase 
abuse and neglect.  This is simply untrue.  The horse population 
is estimated at 9 million.  Each year roughly 900,000 horses die 
of various causes.  Of those 900,000 horses that die, about 90,000, 
1 percent, are actually slaughtered.  Surely this relatively small 
percentage of horses will be absorbed into the community. 
	Also, since California banned horse slaughter in 1998, there 
has been no documented rise in abuse or neglect, and a reduction 
in the theft of horses.  There are many outlets for these remaining 
horses, humane euthanasia, adoption, or donation to one of the 
hundreds of rescue facilities in the United States.  A veterinarian, 
for the nominal cost of $225, can humanely euthanize a horse.  
Another myth is that slaughter of horses is the same as humane 
euthanasia.  Nothing could be further from the truth.  Slaughter 
is not euthanasia and this is a key distinction.  Euthanasia is 
administered by a licensed veterinarian via lethal injection.  
Slaughter is administered by an unskilled laborer via a captive 
bold pistol, which many times is not administered properly.  
Sometimes horses are still alive and semiconscious when they are 
processed into meat. 
	In conclusion, I am not here seeking to ban the slaughter 
of cows, pigs, or chickens.  These animals are raised in the United 
States for food and do not share the cultural and historical 
prominence that the horse does.  Our horses deserve better, the 
American people deserve better.  The practice of horse slaughter 
is a contradiction to our culture, history, and economy.  The time 
has come to end it.  Again, I really thank you, Mr. Chairman, for 
this opportunity to testify before the panel, and for the first 
opportunity that we have had to really make this case, and I yield 
back. 
	[The prepared statement of Hon. John E. Sweeney follows:] 

PREPARED STATEMENT OF THE HON. JOHN E. SWEENEY, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NEW YORK 

Chairman Stearns, Ranking Member Schakowsky, members of the 
Subcommittee, distinguished guests, let me begin by thanking you 
for the opportunity to testify in support of H.R. 503, the American 
Horse Slaughter Protection Act. 
This is an issue that is extremely important to me, and I sincerely 
appreciate your willingness, and Chairman Barton's willingness, to 
consider this issue before your committee.  As the representative 
of Saratoga Springs, New York, which is known for its beautiful 
Victorian homes, rich history, and most of all, horses.  This issue 
resonates deeply in my Congressional District.  Saratoga Springs is 
home to the Saratoga Racetrack, the oldest thoroughbred racetrack 
in the nation.  
Saratoga prides itself on horses.  For 6 magical weeks each summer, 
people come in droves from all over the country - and the world - 
to watch these majestic and graceful animals barrel down the 
stretch.  Mr. Chairman, I am happy to say, that the Saratoga 
Racetrack opens its gates tomorrow for the 2006 season.  That is 
why it is incredibly timely I sit before your committee this 
afternoon. 
Saratoga Springs is one example of why the horse plays such a 
prominent role in American culture, business, and history.  We 
watch in awe when a horse "wins by a nose," we find it therapeutic 
to sit atop a horse as it trots through a field, and throughout 
history, we have relied on these able-bodies creatures to plow our 
fields and explore our continent.  We as Americans, hold the horse 
in a very high regard - for good reason.  This is why many in our 
country find it shocking to hear that each year, 90,000 horses are 
slaughtered in the country, then shipped overseas to Europe and 
Asia, where they are served in restaurants as a delicacy.  
The reason I sit before you today is to advocate for my 
legislation - H.R. 503, the American Horse Slaughter Prevention 
Act.  This legislation effectively bans the slaughter of horses in 
the United States for human consumption.  Before I discuss this 
bill in greater detail, I would appreciate the opportunity to 
provide a brief historical background on the issue of horse 
slaughter, to demonstrate why this legislation is necessary. 
In 2002, a horse named Ferdinand, who won the 1986 Kentucky 
Derby, the most prestigious horse race in the world, was 
slaughtered and served as a meal somewhere in Europe of Asia.  
This horse, who also was the winner of the 1987 Horse of the Year 
title and the 1987 Breeder's Cut Classic, certainly did not 
deserve such a fate.  Like me, Americans were shocked to hear 
that such a thing could ever occur to an animal that was so loved 
and respected.  Unfortunately the cruel truth is that it happens 
90,000 times over each year.  It was Ferdinand's death that brought 
this issue to the forefront. 
Since 2001, the United States Congress has had the opportunity to 
act on legislation to end this horrible act through bill introduced 
by various members.  Since the 108th Congress, I have been the 
champion of this legislation and have been actively engaged in 
banning this despicable foreign trade in the United States.  Both 
bills, H.R. 857, the bill I introduced in the 108th Congress and 
H.R. 503, my effort in the 109th Congress, have received 
overwhelming, bi-partisan support by members of the House, Senate, 
the Horse Industry and the citizens of the United States. 
There have also been many attempts to curb this practice at the 
state and local level as well. Many states across the country have 
worked to pass legislation to outlaw this practice.  Texas has had 
a law prohibiting the sale of horsemeat for human consumption on 
its books since 1949. 
In 1998, California passed a comprehensive and popular law by 
ballot initiative that prohibited horse slaughter as well as the 
sale and transport of horses to slaughter.  The law is working, and 
working well.  There has been no rise in abuse and neglect cases 
in the state since the law came into effect, as some had warned 
would occur.  Instead, according to the California Bureau of 
Livestock Identification, the state has seen a 34% decrease in 
horse theft since the law came into effect.  
There is also legislation pending in the Illinois, New York and 
Delaware legislature that bans horse slaughter or severely impedes 
the ability of individuals to slaughter horses for human 
consumption.  
We have made substantial strides in curbing horse slaughter 
recently, yet we remain very far from the finish line.  Last year, 
I offered an amendment to the FY06 Agriculture Appropriations bill, 
which prohibited taxpayer dollars from inspecting horses intended 
for slaughter.  Without these inspections, it would impossible to 
slaughter horses in, or transport horses to slaughter outside, the 
US, thereby providing a temporary ban on horse slaughter.  I 
offered this as a short-term solution to the problem as I continued 
to push my authorizing legislation, H.R. 503.  My amendment passed 
by an overwhelming majority vote of 269-158 1.  Similarly, a 
companion amendment in the Senate, offered by Sen. Ensign of 
Nevada, passed by a vote of 69-28 2. 
However, despite passage in both chambers, the U.S. Department of 
Agriculture (USDA) circumvented clear congressional intent of the 
bill amendment and offering slaughter plants a fee-for-service 
option, allowing slaughter houses to pay for inspections.  The 
slaughter plants themselves, not USDA would actually pay for the 
inspection process. This permitted the practice of slaughter to 
continue.  Horse advocacy groups filed suit against the USDA to 
prevent the fee-for-service inspection option, yet the DC Superior 
Court ruled in favor of the USDA and slaughter plants, allowing 
the option to continue.  
Furthermore, there was additional language added in the FY06 
Agriculture Appropriations Conference Report that impedes me from 
effectively offering this amendment again.  This was a technical 
change of the definition of animals under the jurisdiction of the 
Federal Meat Inspection Act.  Horses were grouped into a new animal 
category - "amenable" species classification, precluding us from 
ever offering a similar amendment to future appropriations bill.3  
In addition to amendments to the Agriculture Appropriations bill, 
Congressman Rahall, Congressman Whitfield, and I also offered an 
amendment to FY06 & 07 Interior Appropriations banning the sale 
and slaughter of wild free-roaming horses.  This prevented the 
Bureau of Land Management from selling horses for slaughter after a 
provision that was snuck into the FY05 Omnibus Appropriations bill, 
which allowed wild horses to be slaughtered for human consumption 
overseas.  While these amendments strictly dealt with wild horses, 
unlike the Agriculture amendment which dealt with all horses, the 
amendments passed the House in FY06 with overwhelming support 
- 249 - 159 and agreed to by voice-vote in FY07.  Unfortunately 
this provision was not included in the FY06 Interior Appropriations 
Conference Report, and I am saddened to say that it is unlikely it 
will be included in the FY07 Conference Report as well. 
The lopsided victories of these amendments demonstrate the need 
for my legislation to be considered before the full House of 
Representatives.  My legislation amends the Horse Protection Act 
of 1970 to prohibit the "shipping, transporting, moving, 
delivering, receiving, possessing, purchasing, selling, or 
donation of horses and other equines for Slaughter for human 
consumption."  Basically, this makes it impossible for an 
individual to slaughter a horse in the United States, but also 
for an individual to transport a horse to Canada or Mexico for 
the purpose of slaughter.  The purpose of the bill is to 
prohibit the slaughter of horses for human food.  
H.R. 503 also permits the USDA to detain, for examination and 
evidence, any horse for which it has probable cause that the 
animal will be slaughtered for food.  Violators would be subject 
to specified criminal and civil penalties ($5000) and prison terms 
(2 years) per violation.4  
H.R. 503 differs significantly from prior legislation aimed at 
banning horse slaughter, in that it does not actually ban the act 
of slaughter.  Allow me to explain why I chose to go this route. 
 My legislation in the 108th Congress, H.R. 857, specifically banned 
the act of slaughter of horses for human consumption.  That 
legislation, sat in the Committee on Agriculture, as did other 
similar bills, introduced by Rep. Morella and Reynolds, with 
absolutely no consideration.  
Therefore, I rewrote my legislation as an amendment to the Horse 
Protection Act of 1970, a bill that was considered under the sole 
jurisdiction of the House Interstate and Foreign Commerce 
Committee, which has since been consolidated into the current 
Energy and Commerce Committee.  The Horse Protection Act prohibited 
the act of "soring," or branding of the feet, horses or 
transporting sore horses.  Since H.R. 503 prohibits the 
"shipping, transporting, moving, delivering, receiving, 
possessing, purchasing, selling, or donation of horses and other 
equines to be slaughtered for human consumption," this bill 
effectively deals with issues pertaining to commerce, thus 
justifying its referral to this committee. 
The time has come for this legislation to be considered.  Not only 
do a vast majority of Members of Congress support my efforts, but 
a majority of Americans do as well.  Recent public opinion polls 
have clearly demonstrated this.  Surveys conducted in Texas, 
Kentucky and Virginia indicated that, 72% of Texas voters5, 82% of 
voters in Kentucky6, and 74% of Virginia voters7 oppose horse 
slaughter for human consumption.  In California, the 1998 ballot 
initiative (Proposition 6) banning horse slaughter for human 
consumption was passed with an overwhelming 60% of the vote.  
Over 481 reputable horse organizations, representing thousands of 
industry professionals, owners and riders, horse farms, state 
organizations and celebrities are on record in support of H.R. 503. 
The fact remains that to Americans, the horse is held to a different 
standard.  Horses are known personally.  Everyone knows who 
Mr. Ed, Secretariat and Silver are.  I dare anyone to name a list 
of famous cattle or chickens.  They are American icons that deserve 
to be treated as such.  Would we ever think of slaughtering and 
serving a bald eagle in this country?  The same should be true of 
the horse.  Horses and other equines play a vital role in the 
collective experience of the United States and deserve protection 
and compassion.  
Furthermore, horses and other equines are domestic animals that are 
used primarily for recreation, pleasure, and sport.  Unlike cows, 
pigs, and many other animals, horses and other equines are not 
raised for the purpose of being slaughtered for human consumption.  
If another country, France or Japan, chooses to raise horses for 
food, then so be it.  That is their choice as a sovereign nation to 
do so.  However, they should not serve American horses, marketed 
as "eating an American champion," as Ferdinand was.  Horsemeat is 
not consumed nor is there a demand in the United States.  According 
to the USDA, more than 90,000 U.S. horses were slaughtered in 2005 
for human consumption, virtually all for export, to the largest 
markets of horsemeat, France, Belgium, Switzerland, Italy, Japan, 
and Mexico. The United States exported about 18,000 tons of 
horsemeat valued at $61 million in 2005. 
Despite a 50% percent increase since 2002, resulting from the 
reopening of a slaughter facility in Illinois, slaughter remains 
lower than it was over 15 year ago.  According to the USDA, 342,877 
horses were slaughtered in 1989, compared to 91,757 in 2005. 8  
Overall more than 4 million American horses have been brutally 
slaughtered since 1980.  However, the US does not even rank within 
the top 5 countries, which slaughter horses.  Asia, Europe and 
Mexico out-slaughter the US by over 700-900% more. 
Only 3 slaughter-plants remain in the US today, all foreign owned.  
While they operate the United States and slaughter American horses, 
both the meat and the money go overseas.  There are two slaughter 
plants located in Texas - Dallas Crown in Kaufman and Beltex 
Corporation in Fort Worth.  These plants in Texas operate in clear 
violation of Texas state law.  However since these horses are 
transported from and to destinations outside of Texas, the 
slaughter facilities claim they this state law is a violation of 
the Interstate Commerce Clause.  This demonstrates the need for my 
federal legislation. 
The third plant, Cavel International, is located in DeKalb, 
Illinois.  Some have expressed concerns that after passage of 
H.R. 503, these facilities would be forced to shut down, thus 
eliminating jobs.  This is simply not true.  All three plants 
have the capacity to continue to operate by processing other 
animals, should H.R. 503 pass.  
Furthermore, it is widely suspected that many of the laborers in 
these facilities are undocumented illegal immigrants.  I suggest 
to my colleagues that these individuals should not even be employed 
in the country to begin with.  Finally, if my legislation actually 
had negative effects on local economies, then the local 
municipalities would certainly actively oppose H.R. 503.  However, 
the fact remains that these host communities of these slaughter 
facilities do not want them in their backyards.  In March of 2006, 
the Kaufman Board of Adjustment voted unanimously to close Dallas 
Crown due to violations of zoning ordinances and pollution (smell 
and discharge to city's sewer system) to the local environment.  
The plant filed a counter suit, and a final ruling is expected at 
the end of this month. 
According to a court affidavit by Paula Bacon, Mayor of Kaufman, TX, 
"Dallas Crown began operating in Kaufman in the early 1980's and has 
caused massive economic and environmental problems since its 
inception.  It has also violated, and is currently in violation 
of, a multitude of local laws pertaining to waste management, air 
and water quality, and other environmental concerns...29 citations 
for wastewater violations have been issues to Dallas Crown, each 
carrying with them a potential fine of $2,000."9 
The claim that H.R. 503 would hurt local economies is just one of 
the many false claims made by the opposition to my legislation.  
They claim that this legislation would result in an overpopulation 
of horses, which would actually lead to an increase of horse abuse 
and death.  This is simply untrue.  The horse population is 
estimated at 9 million.  Each year, roughly 900,000 horses die of 
various causes.  Of those 900,000 horses that die, about 90,000 (or 
only 1% of the horse population) are actually slaughtered.  Surely 
this relatively small percentage of horses can be easily absorbed 
into the community.  
Should H.R. 503 be signed into law, a number of resources and 
opportunities exist for horses that are no longer bound for 
slaughter.  Should an owner no longer desire to keep the horse, 
it can be humanely euthanized by a licensed veterinarian for a 
nominal fee of approximately $225.  Horses that are not humanely 
euthanized can continue to be kept by their owners, sold to a new 
owner, or can be placed in one of the hundreds of horse sanctuaries 
and rescue facilities springing up across the country.  Education 
within the horse community about these humane alternatives to 
slaughter is already occurring, and will continue to do so. 
According to the American Horse Defense Fund, 540 rescue facilities, 
and 34 Equine Sanctuaries operate around the country, with 
additional facilities being established.  These equine rescue 
organizations will take horses that are unwanted and find them 
homes. The Association of Sanctuaries and the American Sanctuaries 
Association provide accreditation programs, a code of ethics and 
guidelines for the operation of sanctuaries and rescue 
organizations. Horse rescue groups must also provide for the welfare 
of horses in their custody in compliance with state and local animal 
welfare laws.10 
Another myth disseminated by the pro-slaughter entities is that 
slaughter of horses is the same has humane euthanasia.  Nothing 
could be further from the truth.  Slaughter is not euthanasia.  
According to the American Veterinary Medical Association's 2000 
Report on the Panel of Euthanasia, euthanasia, is the act of 
inducing humane death in an animal, ensuring that if an animal's 
life has to be taken, it is done with the highest degree of 
respect, and with an emphasis on making the death as painless 
and distress free as possible.11 
Euthanasia is administered properly, according to the AVMA and the 
National Horse Protection Coalition, primarily by chemical injection 
and in some emergency situations, gunshots.12  Veterinary euthanasia 
averages from $50 to $225 per horse.13  Slaughter is conducted via 
a captive bolt pistol, which is a metal rod shot into the horse's 
brain.  Many times in slaughterhouses, this administered by an 
untrained laborer, which results in unnecessary suffering of the 
horse and even some horses to remain alive and semi-conscious as 
they are being processed. 
Additionally, horses suffer horribly on the way to slaughter.  The 
Animal and Plant Health Inspection Service (APHIS), a division of 
USDA, stipulates and requires that humane transport of horses to 
slaughter must include food, water, and rest be provided to each 
animal prior to shipment to the slaughter house. 14   However these 
regulations only adhere to treatment prior to transport, thereby 
allowing horses to be transported long distances often in 
deplorable conditions, in poorly equipped trucks and trailers, 
where they are exposed to bad weather and often inadequate rest, 
food, and water.  
Since horses are not raised for slaughter in the US, they are 
crammed together and driven to slaughter in double-decker trucks 
designed for cattle and pigs. The truck ceilings are so low that 
the horses are unable to hold their heads in a normal, balanced 
position.  In September 2004, a double-deck livestock trailer 
traveling from Minnesota to Kentucky, carrying 50 horses on the 
way to slaughter overturned. 21 horses were killed, and many 
sustained injuries, two of which were severe. 
 	The AVMA and APHIS regulations for the transport of horses 
clearly state that horses by nature need to be separated.15   During 
transport stallions, mares, and foals are unnaturally forced 
together, making fighting and injury common.  This can lead to 
serious injury, or even death, en route to slaughter. 
 	In conclusion, I testify before you not looking to attack 
other industries with thriving markets within the United States.  
We are not out to ban the slaughter of cows, pigs, or chickens.  
These animals are raised in the United States for food and do not 
share the cultural and historical prominence that the horse does.  
Plain and simple, our horses deserve better.  This is an industry 
that exists only outside the borders of the United States, where 
horsemeat is consumed only as a delicacy.  The practice of horse 
slaughter is a contradiction to our culture, history and economy.  
The time has come to end it.     Again, I thank you for the 
opportunity to testify before the panel and urge support for this 
important legislation. 

MR. STEARNS.  I thank my colleague.  Mr. Goodlatte. 
MR. GOODLATTE.  Mr. Chairman, thank you very much.  It is a pleasure 
to be here with you to discuss horse slaughter.  I have heard the 
opening statements of the members of the committee and I very much 
respect those statements, and I can tell you that, while I very 
much agree with the sentiments expressed by a minority here, in 
the Agriculture Committee, it is exactly the opposite.  Every member 
of the committee represents rural America and the conclusion is 
overwhelmingly in the opposite direction and I would like to tell 
you why. 
	Ms. Schakowsky, I very much have seen and understand the 
emotions and the enthusiasm that has been expressed.  I have 
certainly seen that myself.  Some would say that I have been the 
victim of some of that enthusiasm, but nonetheless, I understand 
that.  That is a part of the American way, that is a part of this 
process.  The other part of this process is taking into account the 
facts that are before us.  It has been mentioned here that there 
are a lot of consequences of what will become of horses if they do 
not go to slaughter and that is what I am here to talk about, not 
what happens to a horse after it goes through that process. 
	So let us look at the facts.  More than 60 reputable horse 
organizations, animal health organizations, and agricultural 
organizations have joined together to oppose this legislation, and 
they represent some of the most respected people who own and care 
for horses in the United States.  The American Quarter Horse 
Association, the largest association of horse owners in the world, 
strongly opposes this legislation.  The American Paint Horse 
Association, the second largest association of horse owners, opposes 
this legislation.  Every State horse council in the United States 
that has taken a position on this has opposed this legislation.  
Ten States represented on this subcommittee have State horse 
councils that oppose this legislation: New York State, Illinois, 
Ohio, Michigan, North Carolina, New Jersey, Texas, Colorado, 
Florida, and Wisconsin.  The horse councils, the association of 
all the different breeds of horses in the State, have come together 
and voted to oppose this legislation.  If you haven't heard your 
State's name called, that is because your State horse council either 
doesn't exist or has not taken a position on the issue.  To my 
knowledge, no State horse council has endorsed this legislation. 
	H.R. 503 is also opposed by those who see to the health of 
horses, very respected organizations like the American Veterinary 
Medical Association and the American Association of Equine 
Practitioners, the horse doctors.  More than 7,000 members, the 
people who provide health care for our horses, are concerned about 
the implications of this legislation.  They, as I, are concerned 
that if enacted, the bill would negatively impact the health and 
welfare of horses across the country and would significantly 
increase the numbers and problem of unwanted horses in the United 
States.  Other organizations opposed to this legislation include the 
American Farm Bureau Federation, the Equine Nutrition and Physiology 
Society, the Animal Welfare Council, the National Horse Show 
Commission, the National Cattlemen's Beef Association, and many, 
many others. 
	As a public policy matter, this issue should be about what 
is the best approach for the humane treatment of horses.  Like most 
of Americans, I support the humane treatment of all animals, 
including those in our Nation's farms and stockyards, in research 
facilities, in processing plants, exhibitions, and in our homes.  
Further, I believe that inhumane treatment of animals should not be 
tolerated.  It is our responsibility to be good stewards of the land 
and the animals under our charge.  Having said that, what do we do 
to solve the problem of unwanted horses in America?  What are the 
rights of individuals to decide what to do with their animals?  
What are the implications for other livestock sectors if we ban 
humane slaughter for one species?  Why would the Federal government 
put a legitimate business, in effect, thousands of people out of 
work?  These are just a few of the unresolved public policy 
implications of this legislation. 
	Organizations that represent literally millions of horse 
owners in this country and elsewhere around the world oppose this 
legislation because of their concern, not about whether somebody 
else is eating horse meat, but whether hundreds of thousands of 
horses will be treated humanely if we make this dramatic change.  
No other Nation in the world has taken that step.  What will happen 
to the approximately 65,000 to 95,000 horses per year that are 
currently processed in the U.S. horse slaughter plants, as well as 
the estimated more than 25,000 that are sent to Canada and Mexico 
for slaughter, if humane euthanasia in a horse processing facility 
is no longer an option?  Right now the only federally regulated 
transportation and euthanasia of horses are the programs that this 
bill seeks to abolish.  Ironically, government supervision of 
humane treatment of horses would be the first casualty of H.R. 
503. 
	Unlike many of the very wealthy horse owners pushing this 
legislation, many owners are no longer able to provide financial or 
physical humane care for their horses.  Many horses are infirm, 
have behavioral problems, or are dangerous.  There are many reasons 
why a horse becomes unwanted.  There are not enough rescue 
retirement facilities available to take care of the current numbers 
of unwanted horses.  This bill would drastically and exponentially 
increase the numbers of unwanted horses, leaving many to 
abandonment, neglect, or starvation.  Horse owners should continue 
to have the option to choose slaughter for equines they no longer 
can or desire to appropriately tend. 
	The proponents of H.R. 503 don't seem to care about the 
problems passage of their legislation would create.  If their true 
purpose of this legislation was to provide for humane treatment of 
horses, then they would address the issue of the fate of the 
thousands of animals this would affect, accumulating exponentially 
each year.  H.R. 503 focuses on what happens after an animal is 
dead rather than when it is alive.  It does not matter to the horse; 
it is dead.  The proponents of the legislation have stated publicly 
they do not care if unwanted horses are euthanized.  They just care 
about the disposition of the remains of the unwanted horse.  My 
concern, as well as the concern of all of the horse lovers who 
oppose this bill, is, what do we do with these horses when they are 
alive?  How are they properly and humanely cared for?  What will 
happen to the thousands of horses that are shipped to slaughter
 plants in other countries?  Make no mistake about it.  This 
legislation, while intending to prohibit export of horses to other 
countries, has no mechanism to cause this to happen.  If the bill 
goes to stop export of horses for slaughter, its authors definitely 
need to provide some way to make that happen, or we will simply be 
exporting the issue outside the humane regulation of our government. 
	These are just a very few of the repercussions that will 
occur as a result of the passage of this legislation.  Time limits 
today do not allow me to fully outline all of my concerns, but let 
me list a few more questions that need to be answered.  Besides what 
happens to the hundreds of thousands of horses this legislation would 
affect, what happens to the people who work at these businesses?  
How do States and counties that have a statutory obligation to deal 
with unwanted animals cope with the abandoned horses that will be 
left on their doorstep as a result of this bill?  Since the bill 
provides no mechanism to ensure horses are not abandoned by owners, 
who will deal with the abandoned, starving horses whose owners lack 
the ability to care for them?  The horse sanctuaries and retirement 
facilities are already inadequate in numbers and ability to take 
care of the existing unwanted horses that are sent to them.  Even 
the proponents of H.R. 503 have been quoted as saying, these types 
of facilities are currently inadequate.  Of the horses that go to 
sanctuaries, who is going to ensure that there is enough space, 
money, and expertise to properly care for hundreds of thousands 
of animals that can easily live to 30 years of age?  Who is going 
to pay for that?  Who is going to regulate them? 
	Since the proponents say that they would prefer that 
unwanted horses are euthanized instead of being processed into a 
useful product, what about the disposal of the potentially tens of 
thousands of extra carcasses per year?  Every State and even many 
counties have different laws relating to the proper disposal of 
carcasses.  Who will pay for that?  All States regulate the disposal 
of animal carcasses.  Local governments already grapple with the 
problem of unwanted cats and dogs and their disposal.  Horses are 
on average 50 times larger animals.  There will be tremendous 
difficulty for many local governments to properly dispose of 
carcasses of euthanized horses.  It will be expensive and will 
create environmental and wildlife concerns, which leads me to the 
overarching question: why is Congress rushing to enact legislation 
that causes many problems and solves none, especially when there is 
no consensus in the livestock community.  Even if the goal of this 
legislation was desirable, and I do not accept the premise, this is 
not a bill that will improve the treatment of horses.  Too little 
has been done to deal with the consequences of destroying a 
legitimate industry by government fiat.  If anything, H.R. 503 in 
its current form will lead to more suffering for the horses it 
purports to help. 
	This draconian legislation will have far reaching and 
significant detrimental effects for horses, horse owners, and the 
larger agriculture sector.  As Chairman of the House Agriculture 
Committee, it is my responsibility and privilege to thoroughly 
review and explore all legislation and Federal policies that affect 
the agriculture community.  This legislation is woefully 
inadequate, emotionally misguided, and fails to serve the best 
interests of the American horse and horse owner, despite what the 
proponents would have you believe.  That is why every major horse 
owner organization in the country that has taken a stand on the 
issue has taken a strong stand against H.R. 503. 
	Again, I thank you for allowing me testify today.  I thank 
the proponents of this legislation for their sincerity, but I 
strongly disagree with the merits of their legislation. 
	[The prepared statement of Hon. Bob Goodlatte follows:] 

PREPARED STATEMENT OF THE HON. BOB GOODLATTE, CHAIRMAN, COMMITTEE 
ON AGRICULTURE 

Mr. Chairman, I thank you for the opportunity to testify today. I 
welcome the opportunity to bring some sense to the discussion about 
banning horse owners from making decisions for themselves. This is 
\an important topic, not only to horse owners and tax payers. It 
also has broader and far-reaching implications for the entire 
animal agricultural community. The proponents of H.R.503 are not 
engaged in a public policy discussion, they are engaged in a public 
relations campaign. They have bumper stickers and they have sound 
bites. They do not have the facts. As Chairman of the House 
Agriculture Committee I have a duty and a responsibility to be 
guided by sound fact and reason. You will note that the other 
witnesses testifying in opposition to H.R.503 are all experts in 
their fields, have significant experience, and have based their 
testimony on the facts. 
So let's look at the facts. More than 60 reputable horse 
organizations, animal health organizations, and agricultural 
organizations have joined together to oppose this legislation, 
and they represent some of the most respected people who own and 
care for horses in the United States. 
The American Quarter Horse Association, the largest association of 
horse owners in the world, strongly opposes this legislation. The 
American Paint Horse Association, the second largest association 
of horse owners, opposes this legislation. More than a dozen State 
horse councils oppose this legislation, including the Virginia 
Horse Council. Ten states represented on this subcommittee have 
State horse councils that oppose this legislation: New York State, 
Illinois, Ohio, Michigan, North Carolina, New Jersey, Texas, 
Colorado, Florida and Wisconsin. 
H.R.503 is also opposed by those who see to the health of our horses, 
very respected organizations like the American Veterinary Medical 
Association and the American Association of Equine Practitioners. 
More than 7,000 veterinarians, the people who provide health care 
for our nation's horses, are concerned about the implications of 
this legislation. They, as I, are concerned that if enacted, the 
bill would negatively impact the health and welfare of horses 
across the country and would significantly increase the numbers, 
and problem of, unwanted horses in the U.S. 
Other organizations opposed to this legislation include the 
American Farm Bureau Federation, the Equine Nutrition and Physiology 
Society, the Animal Welfare Council, the National Horse Show 
Commission, the National Cattlemen's Beef Association, and many, 
many others. 
As a public policy matter this issue should be about what is the 
best approach for the humane treatment of horses. Like most 
Americans, I support the humane treatment of all animals, including 
those on our nation's farms and stockyards, in research facilities, 
processing plants, exhibitions, and in our homes. Further, I believe 
that inhumane treatment of animals should not be tolerated. It is 
our responsibility to be good stewards of the land and the animals 
under our charge. 
Having said that, what do we do to solve the problem of unwanted 
horses in America? What are the rights of individuals to decide what 
to do with their animals? What are the implications for other 
livestock sectors if we ban humane slaughter for one species? Why 
would the Federal government put a legitimate business and in effect 
thousands of people out of work? These are just a few of the 
unresolved public policy implications of this legislation. 
Organizations that represent literally millions of horse 
owners in this country and elsewhere around the world oppose 
this legislation because of their concern, not about whether 
somebody else is eating horsemeat, but whether hundreds of 
thousands of horses will be treated humanely if we make this 
dramatic change. What will happen to the approximately 
65,000-95,000 horses per year that currently are processed in 
the U.S. horse slaughter plants, as well as the estimated more 
than 25,000 that are sent to Canada and Mexico for slaughter, if 
humane euthanasia in a horse processing facility is no longer an 
option? Right now the only Federally regulated transportation 
and euthanasia of horses are the programs that this bill seeks 
to abolish. Ironically, government supervision of humane treatment 
of horses would be the first casualty of H.R.503. 
Unlike many of the very wealthy horse owners pushing this 
legislation, many owners are no longer able to provide financial 
or physical humane care for their horses. Many horses are infirm, 
have behavioral problems, or are dangerous.  There are many 
reasons why a horse becomes unwanted. There are not nearly 
enough rescue/retirement facilities available to take care of the 
current numbers of unwanted horses. This bill would drastically 
and exponentially increase the numbers of unwanted horses, leaving 
many to abandonment, neglect, or starvation. Horse owners should 
continue to have the option to choose slaughter for equine they no 
longer can or desire to appropriately tend. 
The proponents of H.R.503 don't seem to care about the problems 
passage of their legislation would create. If their true purpose 
of this legislation was to provide for humane treatment of horses, 
then they would address the issue of the fate of the thousands of 
animals this would effect, accumulating exponentially each year. 
H.R.503 focuses on what happens after an animal is dead rather 
than when it is alive. It does not matter to the horse - it is 
dead. The proponents of the legislation have stated publicly that 
they do not care if unwanted horses are euthanized, they just 
care about the disposition of the remains of the unwanted horse. 
  My concern, as well as the concern of all of the horse lovers 
who oppose this bill, is what do we do with these horses when they 
are alive? How are they properly and humanely cared for? 
What will happen to the thousands of horses that are shipped to 
slaughter plants in other countries?  Make no mistake about 
it - this legislation, while intending to prohibit export of U.S. 
horses to other countries, has no mechanism to cause this to 
happen. If the bill's goal is to stop export of horses for 
slaughter, its authors definitely need to provide some way to make 
that happen, or we will simply be exporting the issue outside the 
humane regulation of our government. 
These are just a very few of the repercussions that will occur as a 
result of the passage of this legislation. Time limits today do not 
allow me to fully outline all of my concerns but let me list a few 
more as questions that need to be answered. Besides what happens 
to the hundreds of thousands of horses this legislation would 
effect, what happens to the people who work at these businesses? How 
do states and counties that have a statutory obligation to deal 
with unwanted animals cope with the abandoned horses that will be 
left on their doorstep as a result of this bill? Since the bill 
provides no mechanism to ensure horses are not abandoned by owners, 
who will deal with the abandoned, starving horses whose owners 
lack the ability to care for them? 
The horse sanctuaries and retirement facilities are already 
inadequate in numbers and ability to take care of the existing 
unwanted horses that are sent to them. Even the proponents of 
H.R.503 have been quoted as saying these types of facilities are 
currently inadequate. Of the horses that go to sanctuaries, who is 
going to ensure that there is enough space, money, and expertise 
to properly care for hundreds of thousands of animals that can 
easily live to 30 years of age? Who is going to pay for that? Who 
is going to regulate them?  
Since the proponents say they would prefer that unwanted horses are 
euthanized instead of being processed into a useful product, what 
about disposal of the potentially tens of thousands of extra 
carcasses per year? Every state and even many counties have 
different laws relating to the proper disposal of carcasses. Who 
will pay for that? All states regulate the disposal of animal 
carcasses. Local governments already grapple with the problem of 
unwanted dogs and cats and their disposal. Horses are on average 
fifty times larger animals. There will be tremendous difficulty for 
many local governments to properly dispose of carcasses of 
euthanized horses. It will be expensive and will create 
environmental and wildlife concerns.  
Which leads me to the overarching question: Why is Congress rushing 
to enact legislation that causes many problems and solves none, 
especially when there is no consensus in the livestock community?  
Even if the goal of this legislation was desirable, and I do not 
accept the premise, this is not a bill that will improve the 
treatment of horses. Too little has been done to deal with the 
consequences of destroying a legitimate industry by government 
fiat. If anything, H.R.503 in its current form will lead to more 
suffering for the horses it purports to help. 
This draconian legislation will have far-reaching and significant 
detrimental effects for both horses, horse owners and the larger 
agriculture sector. 
As Chairman of the House Agriculture Committee, it is my 
responsibility and privilege to thoroughly review and explore all 
legislation and Federal policies that affect the agriculture 
community. This legislation is woefully inadequate, emotionally 
misguided, and fails to serve the best interest of the American 
horse, and horse owner, despite what the proponents would have you 
to believe. That's why every major horse owner organization in the 
country has taken a strong stand against H.R.503. Again, thank you 
for allowing me a chance to testify today and I have additional 
documents to submit for the record.  

	MR. STEARNS.  I thank my colleagues.  As I mentioned earlier, 
I asked for a request that we go and take a temporary recess and 
move down to 2123, where we have people that are outside who would 
like to get in and then we will have a larger room.  So if my 
colleagues will consider this, we are just going to vote and the 
committee will reconvene in 15 minutes.  I would say to my 
colleagues that generally we don't ask questions to you and we will 
call up the panel behind you, so that subcommittee will reconvene 
in 15 minutes, downstairs at 2123.  This is just a temporary break 
so we get more room for everybody. 
	[Recess.] 
	MR. STEARNS.  The subcommittee will reconvene, and I thank 
all of you for your patience.  I think we are a lot more comfortable 
here, and particularly the witnesses.  
So with that, we will welcome the second panel:  Mr. Boone Pickens, 
Chief Executive Officer of BP Capital; Dr. Bonnie V. Beaver, Doctor 
of Veterinary Medicine; Dr. Patricia Hogan, New Jersey Equine 
Clinic; Dr. Douglas Corey, Doctor of Veterinary Medicine; 
President-Elect of the American Association of Equine Practitioners; 
Mr. Russell Williams, Vice Chairman of the American Horse Council 
and Vice President of Hanover Shoe Farms; and Mr. Dick Koehler, 
Vice President of Beltex Corporation.  
We welcome all of you and we welcome your opening statements, roughly 
about 5 minutes.  Mr. Pickens, welcome, and you are first.  And I 
would just suggest you turn the mic on and make sure it is close 
enough to you so that we can hear you clearly.  

STATEMENTS OF BOONE PICKENS, CHIEF EXECUTIVE OFFICER, BP CAPITAL; 
BONNIE V. BEAVER, DVM, EXECUTIVE DIRECTOR, AMERICAN COLLEGE OF 
VETERINARY BEHAVIORISTS, TEXAS A&M UNIVERSITY; PATRICIA HOGAN, 
VMD, ACVS, NEW JERSEY EQUINE CLINIC; DOUGLAS G. COREY, DVM, 
PRESIDENT-ELECT, AMERICAN ASSOCIATION OF EQUINE PRACTITIONERS; 
RUSSELL WILLIAMS, VICE CHAIRMAN, AMERICAN HORSE COUNCIL; VICE 
PRESIDENT, HANOVER SHOE FARMS; AND DICK KOEHLER, VICE PRESIDENT, 
BELTEX CORPORATION 

MR. PICKENS.  Okay.  Thank you.  Thank you, Mr. Chairman, and to 
the members of the subcommittee.  I appreciate the opportunity to 
testify this afternoon.  As some of you may know, I am a newcomer 
to this issue.  But Texas has a dirty secret that should shame all 
of us.  Although the slaughter of horses for human consumption is 
illegal in Texas, foreign-owned companies who process horse meat 
here are using Federal loopholes to continue killing horses.  As a 
result, Texas provided a large part of the 39.5 million pounds of 
horse meat shipped to France, Belgium, and Japan in 2005.  
There are three horse slaughter plants in the United States, all 
foreign owned.  Two of them are in North Texas: Dallas Crown in 
Kaufman, Texas, and Beltex in Fort Worth; and one is in Illinois.  
Every day, horse carcasses are shipped out of D/FW Airport bound 
for Paris, and this is a black eye on our State and Nation that 
demands action.  
According to the USDA, these three foreign-owned plants slaughtered 
nearly 100,000 American horses in 2005.  Owners across the country 
regularly take their horses to legitimate sale barns, never 
suspecting that within 4 days their horse could end up on a plate 
in a high-end restaurant in France.  The processors brag that they 
can take a horse from stable to table in 4 days.  And despite the 
fact that none of the horse meat is sold or consumed in the United 
States, the horse slaughterhouses receive USDA oversight that 
costs millions of taxpayer dollars.  
All of our horse meat that is sold is consumed as delicacy in 
high-dollar markets and restaurants across Europe and Japan.  To 
add insult to injury, these slaughterhouses use accounting loopholes 
to pay little or no taxes, shipping 100 percent of the horse meat 
and the profits to France and Belgium.  
You would be shocked at the horses sent to these slaughterhouses.  
According to the USDA, nearly all of the thoroughbreds, Arabians, 
quarterhorses, and wild mustangs arriving at these plants are 
"healthy, young horses that are in good-to-excellent condition," 
and that is a quote.  Because of the quick kill and export, these 
slaughter plants have become a convenient dumping ground for stolen 
horses.  In fact, horse theft in California dropped 34 percent after 
that State instituted a ban on horse slaughter in 1998.  
I want to commend Congressman Whitfield for his leadership on the 
American Horse Slaughter Prevention Act, a strongly bipartisan bill 
to end the slaughter of horses in the United States for human 
consumption.  That bill has the support of 200 cosponsors, almost 
a majority in the House.  The bill is championed by more than 100 
organizers, including such industry groups as the National 
Thoroughbred Racing Association and Churchill Downs.  
The 109th congressional session can stop the unabated slaughter of 
horses that continues in our Nation.  Every poll taken on this 
subject shows that Americans are overwhelmingly opposed to horse 
slaughter.  In a recent Texas poll, more than 70 percent opposed 
the slaughter of horses.  
The horse has a special place in American culture and history.  
It helped settle this country and provided inspiration for the 
horsepower that now powers the vehicles that make this Nation go.  
It is no surprise that when reports surfaced that 1986 Kentucky 
Derby winner, Ferdinand, ended up in a Japan slaughterhouse 3 years 
ago, that galvanized a movement to close the U.S. slaughter 
plants.  Hopefully it will not take the slaughter of another 
Derby winner to put the spotlight on this important issue and shut 
these killing factories down once and for all.  I strongly oppose 
horse slaughter.  It is un-American.  And I urge your vote in 
putting a stop to this.  
In conclusion, I did an op-ed piece today that was in the Dallas 
Morning News and have already received--this was this morning that 
it appeared--over 100 e-mails opposing horse slaughter.  And I had 
two--only two--that were for the slaughter of horses.  So of over 
100 e-mails, only two were for slaughter, over 100 were against 
slaughter.  Thank you.  
I will file this with the committee today, but I would like to 
include with that that op-ed piece if I could.  
MR. STEARNS.  By unanimous consent, so ordered.  We will make it 
part of the record, Mr. Pickens. 
[The information follows:] 

T. Boone Pickens: Stop the Slaughter 
Congress should shut down killing factories and end the export of 
horsemeat 
Tuesday, July 25, 2006 

Texas has a dirty little secret that should shame all of us who live 
here. 
Although the slaughter of horses for human consumption is illegal in 
Texas, foreign-owned companies that process horsemeat here are 
using federal loopholes to continue killing horses.  As a result, 
Texas provided a large portion of the 39.5 million pounds of 
horsemeat shipped to France, Belgium and Japan in 2005, according 
to the U.S. Department of Agriculture.  There are three horse 
slaughter plants in the U.S.-all foreign-owned-and two are in North 
Texas (Dallas Crown in Kaufman and Beltex in Fort Worth).  very 
day, horse carcasses are shipped out of Dallas/Fort Worth 
International Airport, bound for Paris. 
This is a black eye on our state and nation, and it demands action. 
According to the USDA, these three foreign-owned plants slaughtered 
nearly 100,000 American horses last year.  Owners across the country 
take their horses to legitimate sale barns and never suspect that, 
within days, these horses may end up on plates in high-end 
restaurants in Europe and Japan.  The meat processors brag they 
can take a horse "from stable to table in four days." 
And, despite the fact that none of the horsemeat is sold or consumed 
in the U.S., the slaughterhouses receive USDA oversight that costs 
millions of taxpayer dollars.  To add insult to injury, these 
slaughterhouses use accounting loopholes to pay few or no 
taxes-shipping 100 percent of the horsemeat and profits to France 
and Belgium. 
You would be shocked at the beautiful horses sent to these 
slaughterhouses. According to the USDA, nearly all of the 
Thoroughbreds, Arabians, quarter horses and wild mustangs arriving 
at these plants are healthy young horses in "good to excellent 
condition."  Because of the quick kill and export, these plants 
have become convenient dumping grounds for stolen horses.  In 
fact, after California instituted a ban on horse slaughter in 
1998, horse thefts there dropped 34 percent. 
Congressional hearings are scheduled to begin this week on the 
American Horse Slaughter Prevention Act (HR503), a strongly 
bipartisan bill to end the slaughter of horses in the U.S. for 
human consumption.  The bill has the support of 200 co-sponsors 
and is championed by more than 100 organizations, including such 
industry groups as the National Thoroughbred Racing Association 
and Churchill Downs. 
Every poll taken on this subject shows that Americans are 
overwhelmingly opposed to horse slaughter: In a recent Texas poll, 
more than 70 percent opposed it. 
The horse has a special place in American culture and history. It 
helped settle this country and provided inspiration for the 
"horsepower" inside the vehicles that make this nation go.  It's no 
surprise that, when reports surfaced that 1986 Kentucky Derby 
winner Ferdinand ended up in a Japan slaughterhouse three years 
ago, they galvanized a movement to close the U.S. plants. 
Let's hope it won't take the slaughter of another Derby winner to 
put the spotlight on this important issue and shut down these 
killing factories once and for all. 
I strongly oppose horse slaughter.  It is un-American.  Contact 
your congressional members and let them know these horses deserve 
better. 

T. Boone Pickens has been a world leader in the oil and gas industry 
for 50 years.  He now runs BP Capital LLC, a Dallas-based energy 
trading partnership.  Lifelong animal lovers, T. Boone and Madeleine 
Pickens earned national attention by funding the airlift rescue of 
stranded cats and dogs after Hurricane Katrina. His e-mail address 
is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6e636362694c6e636362697c656f6769627f226f636122">[email&#160;protected]</a> 

	[The prepared statement of Boone Pickens follows:] 

PREPARED STATEMENT OF BOONE PICKENS, CHIEF EXECUTIVE OFFICER, BP 
CAPITAL 

Our Dirty Little Secret 

Texas has a dirty little secret that should shame all of us who live 
here. 
Although the slaughter of horses for human consumption is illegal in 
Texas, foreign-owned companies who process horsemeat here are using 
federal loopholes to continue killing horses. As a result, Texas 
provided a large part of the 39.5 million pounds of horsemeat shipped 
to the France, Belgium and Japan in 2005 (according to U.S. 
Department of Agriculture figures). 
There are three horse slaughter plants in the U.S. - all 
foreign-owned  - and two of them are right here in North Texas 
(Dallas Crown in Kaufman and Beltex in Fort Worth). Every day horse 
carcasses are shipped out of DFW Airport bound for Paris' Charles 
DeGaulle airport. 
This is a black eye on our state and nation that demands action. 
According to the USDA, these three foreign-owned plants slaughtered 
nearly 100,000 American horses in 2005. Owners across the country 
regularly take their horses to legitimate sale barns never 
suspecting that within four days their horse could end up on a 
plate in a high-end restaurant in France. The processors brag that 
they can take a horse "from stable to table in four days!" 
And, despite the fact that none of the horsemeat is sold or consumed 
in the U.S., the horse slaughterhouses receive USDA oversight that 
costs millions of taxpayer dollars - all for horsemeat that is sold 
and consumed as a delicacy in high-dollar markets and restaurants 
across Europe and Japan. To add insult to injury, these 
slaughterhouses use accounting loopholes to pay little or no 
taxes - shipping 100% of the horsemeat and the profits to France 
and Belgium. 
You would be shocked at the horses sent to theses slaughterhouses. 
According to the USDA, nearly all of the thoroughbreds, Arabians, 
quarter horses and wild mustangs arriving at these plants are 
healthy young horses that are in "good to excellent condition. 
" Because of the quick kill and export, these slaughter plants have 
become a convenient dumping ground for stolen horses. In fact, 
horse theft in California dropped 34 percent after that state 
instituted a ban on horse slaughter in 1998. 
Congressional hearings are scheduled to begin this week on the 
American Horse Slaughter Prevention Act (HR 503), a strongly 
bipartisan bill to end the slaughter of horses in the United States 
for human consumption. The bill has the support of 200 co-sponsors, 
almost a majority of the House. The bill is championed by more than 
100 organizations, including such industry groups as the National 
Thoroughbred Racing Association and Churchill Downs. 
The 109th Congressional session can stop the unabated slaughter of 
horses that continues in our nation. Every poll taken on this 
subject shows that Americans are overwhelmingly opposed to horse 
slaughter - in a recent Texas poll, more than 70 percent opposed 
horse slaughter. 
The horse has a special place in American culture and history. It 
helped settle this country, and provided inspiration for the 
horsepower that now powers the vehicles that make this nation go. 
It's no surprise, that when reports surfaced that 1986 Kentucky 
Derby winner Ferdinand ended up in a Japan slaughterhouse three 
years ago, they galvanized a movement to close the U.S. plants. 
Hopefully, it will not take the slaughter of another Derby winner 
to put the spotlight on this important issue, and shut these killing 
factories down once and for all. 
I strongly oppose horse slaughter. It is un-American. Contact your 
Congressional members and let them know these horses deserve better. 

T. Boone Pickens has been a world leader in the oil and gas industry 
for 50 years.  He now runs BP Capital LLC, a Dallas-based energy 
trading partnership.  Life-long animal lovers, T. Boone and 
Madeleine Pickens earned national attention by funding the airlift 
rescue of stranded cats and dogs after Hurricane Katrina. 

	MR. STEARNS.  Dr. Beaver. 
DR. BEAVER.  Distinguished Congressmen, my name is Bonnie Beaver and 
I am a past president of the American Veterinary Medical 
Association.  I am here to explain why the AVMA is opposed to 
H.R. 503, The American Horse Slaughter Prevention Act.  In addition 
to my short bibliography, which you have, I want to mention my 
involvement with horses.  As a child Roy Rogers was my hero and 
I named my first horse Trigger.  Horses were my passion, so I 
became a veterinarian.  Horses remain my passion and that is why 
I am here today.  I strongly support the AVMA's opposition to 
H.R. 503 because it does not adequately address certain issues 
that are important in the adequate welfare for horses. 
	We are also concerned about misinformation that has been 
circulating regarding euthanasia techniques.  First, let me 
discuss a few misconceptions regarding euthanasia and horse 
handling.  The AVMA convened a panel of experts, veterinarians 
and scientists, including members from HSUS, to evaluate the 
research status of chemical and physical euthanasia methods.  
I chaired that panel.  That panel's report, a copy of which has 
been provided for the record, defines euthanasia as humane death, 
in which unconsciousness comes rapidly in the process. 
	The AVMA panel on euthanasia report recommends two types of 
euthanasia for horses; an overdose of barbiturates, anesthesia; and 
the use of a penetrating captive bolt with appropriate restraint.  
The penetrating captive bolt is not a stun gun.  It causes 
instantaneous death due to the destruction of brain tissue.  
Let me repeat, instantaneous death.  The comments about appropriate 
restraint do not mean that the horse's head must be completely 
immobilized, but instead, that it should be in a position to allow 
skin contact with the penetrating captive bolt. 
	No form of euthanasia is pretty to watch because horses are 
large animals and terminal movements after brain death can easily 
be misinterpreted as struggling efforts.  There is also the 
misconception that horses panic when they come into a restraint 
box.  In fact, causing excitement or panic can result in the injury 
to both the horse and persons nearby.  Instead, working the animals 
quietly, as required by USDA regulations, allows the horse to enter 
the restraint box without injury.  Once in confinement, horses 
become passive because they recognize that their instinctive ability 
to flee has been thwarted. 
	We understand that the supporters of H.R. 503 are arguing 
that the transportation of horses to slaughter plants is also 
inhumane.  I would remind you that current USDA regulations, which 
we included for the written record, were developed and implemented 
with significant input from the AVMA, the American Association of 
Equine Practitioners and other horse groups, as well as from the 
Humane Society of the United States and other groups currently 
arguing against the very regulations they helped design.  Welfare 
is the biggest concern of the AVMA for those horses that would be 
impacted by the ban on horse slaughter. 
	Currently, horse rescue and retirement facilities in the 
United States have a maximum capacity of about 6,000 horses.  It 
would be an extreme challenge to create facilities for 15 times 
that number every year.  As shown in the horse welfare collation 
fiscal impact document, which is included for the record and has 
already been experienced in the case of the wild horses in the 
western United States, the cumulative cost for the large number 
of horses is very expensive.  The American Horse Slaughter 
Prevention Act does not address financial support required for 
the care of those horses given up by their owners and inadequate 
funding has a huge potential to create opportunities for inadequate 
facilities and care. 
	Watching a horse slowly die from starvation or disease is 
not only distressing, it is cruel.  Furthermore, horse retirement 
facilities and sanctuaries are not regulated, so there is no way to 
ensure the horses living there will receive adequate care.  Carcass 
disposal of euthanized horses can create wildlife and environmental 
concerns.  Scavenger species can be killed by the chemical agents 
in discarded tissues.  Burial is not permitted in many areas and 
chemicals will contaminate the soil.  While euthanasia, carcass 
removal and burial are each expensive, cremation can cost as much 
as $1,500.  Bio-digesters are not commonly available yet. 
	The AVMA is concerned that a well-intentioned effort will 
have serious consequences on the welfare of unwanted horses.  The 
people supporting this bill fail to take into account the 
ramifications that would result from its passage.  They are making 
this into an emotionally charged issue instead of offering solutions 
to the problems that would be created.  We ask that you please do 
what is right for the horses' welfare and not support H.R. 503.  
Thank you. 
	[The prepared statement of Bonnie Beaver, DVM, follows:] 

THE PREPARED STATEMENT OF BONNIE BEAVER, DVM, EXECUTIVE DIRECTOR, 
AMERICAN COLLEGE OF VETERINARY BEHAVIOURISTS, TEXAS A&M UNIVERSITY 

Summary of Testimony 
* The AVMA opposes HR 503, The American Horse Slaughter Prevention 
Act. 
HR 503 fails to adequately address the unintended consequences of 
imposing a ban on the processing of horses. 
The Penetrating Captive Bolt Gun causes instantaneous death and is 
an acceptable form of euthanasia for horses. 
Transportation of Horses to Slaughter is highly regulated by the 
USDA.  The transportation guidelines were developed with input from 
the AVMA, AAEP, other horse groups, the Humane Society of the United 
States, and other animal protection groups. 
Welfare is the biggest concern of the AVMA for those horses that 
would be impacted by a ban on horse slaughter. 
 There are not enough rescue and retirement facilities, and these 
facilities are not regulated so there is no way to ensure that the 
horses would get adequate care. 
 The legislation does not address the financial support required to 
care for the horses given up by their owners. 
 The legislation does not address the disposal of over 90,000 horse 
carcasses if horse slaughter is banned. 

Distinguished Members of Congress, my name is Bonnie Beaver and I am 
a past president of the American Veterinary Medical Association.  I 
am here to explain why the AVMA opposes HR 503 - The American Horse 
Slaughter Prevention Act. 
I have provided you with my professional credentials, but I also 
want to briefly mention my involvement with horses. As a child, Roy 
Rogers was my hero and I named my first horse Trigger. Horses were my 
passion, and had much to do with why I became a veterinarian. They 
remain my passion, and that is why I am appearing before you today. 
I strongly support the AVMA's opposition to HR 503 because the bill 
does not adequately address certain issues that are critically 
important to ensuring the welfare of horses that would be affected 
by it. We are also concerned that incorrect information has been 
circulated regarding what euthanasia techniques are appropriate for 
horses. 
First, let me correct a few misconceptions regarding the handling 
and euthanasia of horses. The AVMA convened a panel of experts, 
veterinarians and scientists, which I chaired, to evaluate what was 
known about chemical and physical euthanasia methods.  In that 
panel's report, a copy of which has been provided for the record, 
euthanasia is defined as a "humane death" in which unconsciousness 
is rapid and followed by the cessation of vital functions. The 
report of the AVMA Panel on Euthanasia recommends two types of 
euthanasia for horses-an overdose of barbiturate anesthetic and the 
use of a penetrating captive-bolt gun with appropriate head 
restraint. The penetrating captive bolt is NOT a stun gun. It 
causes instantaneous death due to the destruction of brain tissue. 
Let me repeat - instantaneous death. Statements contained in the 
panel's report about the importance of appropriate head restraint 
do not mean that the horse's head must be completely immobilized, 
but instead that it should be in a position to allow skin contact 
with the penetrating captive-bolt gun. Involuntary movements after 
brain death are common in horses undergoing euthanasia, and are 
often misinterpreted as struggling by those without a clear 
understanding of the process. Although such movements may be 
discomforting for the people who are watching, such movements are 
not and should not be interpreted as an indication that a horse 
is experiencing distress. 
It has also been incorrectly stated that horses entering restraint 
boxes prior to application of the penetrating captive bolt 
invariably panic. In fact, states of excitement or panic in horses 
can result in injury to both the horse and people nearby, so this 
is something those involved with the horse slaughter process work 
very hard to prevent. Instead, and as required by USDA regulations, 
experienced individuals handle the horse appropriately and quietly; 
this allows the horse to enter the restraint box without injury. 
Once confined, horses become passive because they recognize that 
their instinctive ability to flee has been thwarted. 
Second, we understand that supporters of HR 503 contend that methods 
used to transport horses to slaughter plants are inhumane. I will 
take this opportunity to remind you that current USDA regulations 
on the transport of horses to slaughter, which we have included 
for the written record, were developed and implemented with 
significant input from the AVMA, the American Association of 
Equine Practitioners, other horse-related groups and humane 
organizations. Among the humane organizations involved were the 
Humane Society of the United States and several other of the 
advocacy groups that are currently arguing against these 
regulations. We have yet to receive a satisfactory response from 
these groups about why they now object to the very regulations they 
helped draft. 
Third, and foremost, the welfare of the horses that would be 
impacted by a ban on slaughter is the biggest concern of the AVMA. 
Currently, horse rescue and retirement facilities in the United 
States have a maximum capacity of about 6000 horses. It would be a 
daunting, and probably impossible, task to create facilities that 
could house an additional 10 times that number of horses every year. 
Creating these facilities and properly caring for each horse in them 
costs money. As shown in the Horse Welfare Coalition Fiscal Impact 
document, which has been included for the record, and as we have 
already experienced in the process of trying to manage wild Mustangs 
in the western United States, cumulative costs incurred for the care 
of a large number of horses are high. The American Horse Slaughter 
Prevention Act does not provide the financial support required to 
ensure that horses given up by their owners will be adequately cared 
for, and inadequate funding has a huge potential to create 
opportunities for inadequate care. Watching a horse slowly die from 
starvation or disease is not only distressing, it's cruel. 
Furthermore, horse retirement facilities and sanctuaries are not 
regulated so there is no way to ensure the horses living there will 
receive adequate care. 
Finally, disposing of the carcasses of euthanatized horses can be 
expensive and creates wildlife and environmental concerns. 
Euthanasia, carcass removal, and burial are each expensive, and 
cremation can cost as much as $1500. Scavenger species can be killed 
by chemical agents in discarded tissues. Burial is not permitted in 
many areas, and chemicals can contaminate the soil.  Other disposal 
methods, such as biodigestors, show promise but are not yet readily 
available. 
The AVMA is concerned that HR 503, although a well-intended effort, 
will have serious negative consequences for the welfare of unwanted 
horses. The people supporting this bill fail to take into account 
the ramifications of its passage. They are making this into an 
emotionally charged issue instead of offering solutions to the 
problem of unwanted horses, and are potentially creating more 
welfare and environmental concerns in the process. We ask that you 
please do what is right for the horses' welfare and not support 
HR 503. 
Thank you. 

	MR. STEARNS.  Thank you.  Dr. Hogan. 
DR. HOGAN.  Thank you, Mr. Chairman and members of the subcommittee, 
for this opportunity to testify today in support of H.R. 503.  Please 
allow me a moment just to introduce myself and give you a perspective 
as to why I feel my testimony is important and to help clarify some 
of the issues surrounding this bill. 
	My name is Patricia Hogan.  I am an equine veterinary 
surgeon.  I have been actively involved in the horse industry my 
whole life.  My clientele is somewhat exclusive.  I work primarily 
on some of the best thoroughbred and standard bred race horses in 
this country.  Oftentimes, the market value of my patients exceeds 
several million dollars.  Several of my patients, such as Smarty 
Jones and Afleet Alex have gone on to become household names.  Yet 
I am here today to provide you with support for the tens of 
thousands of horses that are unwanted or bear little or no market 
value. 
	Let me just make something very clear before I start.  I am 
not an animal activist.  I had filet mignon for dinner last night and 
this is not about eating meat for me.  I am here because I am a 
veterinarian and for me, personally, I am someone who has dedicated 
my whole life to caring for horses.  The slaughter issue is not 
entirely about the act of slaughter, itself.  It is about the 
welfare of the horse throughout this whole process, that being the 
manner in which they are treated from the moment they leave their 
place of origin to their arrival at the slaughterhouse. 
	I am surprised that no one ever really seems to openly 
discuss the absolutely deplorable way these animals are treated on 
their way to the slaughterhouse.  Once these horses enter the path 
to the slaughterhouse, their treatment is not humane in any way.  
I dismiss the triviality of studies that detailed a number of 
whinnies per hour or the number of horses that arrive with or 
without a broken leg for use as statistical evidence of humane 
treatment.  Or the proclaimed accuracy of the captive bolt.  
Sometimes we, as veterinarians, and yes, I mean the AVMA and 
the American Association of Equine Practitioners, of which both 
organizations I am a member of, we hide behind the term humane and 
it is often used as a catchall phrase to make us feel that things 
are done correctly and according to the letter of the law. 
	However, the whole act of being taken from an environment 
that is familiar, thrown into a hostile herd environment, shipped 
very long distances without food or water, and then placed in an 
assembly line where they can see, smell, hear, and sense the terror 
of what is happening in front of them is certainly not humane.  We 
all agree that there are levels of intelligence dictating the rank 
of species in this world and at some point, we must draw the line.  
Horses are very intelligent and can perceive fear in a different 
manner than other forms of livestock, such as the chicken or the 
cow. 
	The concept of humane treatment therefore entails different 
basic requirements for different species.  The American culture does 
not accept consumption of our dogs or cats for food, but there are 
other cultures in this world that do, yet we do not allow the 
commercial slaughter of dogs and cats for export in this country 
because we, as Americans, find that practice deplorable.  That 
being said, Americans do not eat horse meat and in poll after poll, 
the American people say that the practice of horse slaughter is 
unacceptable and should be stopped.  Yet we allow our American 
horses to be slaughtered for foreign consumption.  Where is the 
difference here? 
	It is important to remember that horses are not and nor have 
they ever been raised as food animals in this country.  The American 
people have made it very clear that horse meat is not and will never 
be a desirable food item gracing their tables.  Horses have 
traditionally been work animals throughout our history, but as 
society changes and evolves, so has the role of the horse changed 
in our culture.  The majority of horses now are more commonly 
companion or sport animals. 
	I have personally been to a slaughterhouse as a surgery 
resident while in Texas and I found it to be a disgrace.  I was not 
there on an announced visit, as those who defend horse slaughter 
are.  I was there to collect specimens for a research project.  
In my ignorance I actually never even knew or thought about horse 
slaughter before I had been there.  I was absolutely revolted at 
the way the horses were treated and the behavior of the people 
that were working there. 
	I believe there is some confusion regarding humane 
euthanasia and horse slaughter.  We must remember that these are 
two distinctly different processes.  Horse slaughter is not 
euthanasia by anyone's definition and to equate the two insults 
your intelligence.  Euthanasia is a peaceful process that most 
commonly involves the overdose of an intravenous drug administered 
by a veterinarian.  Horse are not afraid and there is no fear of 
anticipation.  In most cases, the animal is sedated and then 
euthanized in a familiar environment. 
	Horse slaughter uses a method called a captive bolt which 
involves aiming a bolt gun at the forehead of a partially restrained 
horse in what is commonly termed the kill pen.  This pen is at the 
end of an assembly line of horses that are fed through the plant.  
If the bolt is applied properly, the horse is rendered unconscious 
upon impact and drops to the ground so that the carcass can be bled 
out prior to death.  There is a great deal of room for human and 
technical error with the captive bolt method and the recommendation 
for adequate restraint is loosely defined and open for 
interpretation. 
	If we are going to talk about horse slaughter as an economic 
industry, then there is the additional and timely issue of drug 
residues in American horse meat that is rarely addressed.  The beef, 
swine, and poultry industry are highly regulated as far as 
permissible drug residues.  The fear, of course, is the introduction 
of drug residues into the human food chain and the possible negative 
impact on human health.  Horses receive a large amount of commonly 
prescribed medications expressly prohibited for use on animals 
intended for human consumption. 
	Is the matter not addressed simply because the meat is 
exported for foreign consumption?  Would it be different if this 
meat was entering the American food chain?  As an equine 
veterinarian, I think we surely can do better.  Is slaughter really 
the answer to this problem of irresponsible ownership?  That really 
is the key and the root of this.  Certainly, it is the easiest way 
out, but aren't we more intelligent than that?  Americans do not 
eat horse meat.  The American public clearly has overwhelmingly 
voiced their opposition to this practice and there are humane 
considerations that are being overlooked. 
	We are all concerned about the fate of unwanted horses if 
and when slaughter is eliminated, but allowing the practice to 
continue is not the right answer to the problem.  Surely, we can 
do better and I believe it is painting with a very broad brush and 
it is too simplistic to assume that if slaughter is eliminated then 
80 to 90,000 horses per year are going to be abused and die of 
starvation.  That really just simply will not happen. 
	 We have the opportunity to rid ourselves of this form of 
cruelty by passing this bill, something that should have been done 
years ago.  We need to make sure that as we try to clean up this 
complicated problem, we continue to do whatever we can to care for 
horses.  That is my role and this is where our combined efforts 
should be focused.  I urge you to swiftly send this bill to the 
House floor and call upon the Congress to vote to end horse 
slaughter once and for all.  Thank you very much. 
	[The prepared statement of Patricia Hogan, VMD, ACVS, 
follows:] 

THE PREPARED STATEMENT OF PATRICIA HOGAN, VDM, ACVS, NEW JERSEY 
EQUINE CLINIC 

Mr. Chairman, Members of the Subcommittee, I wish to thank you for 
the opportunity to testify before the Subcommittee today in support 
of H.R. 503, the American Horse Slaughter Prevention Act. 
Please allow me a moment to introduce myself and provide you with a 
perspective as to why I feel my testimony will help clarify some of 
the issues surrounding the discussion of H.R. 503.  My name is 
Dr. Patricia Hogan and I am an equine veterinary surgeon.  I have 
been actively involved with the horse industry all of my life.  
I am originally a New Jersey native but was a graduate of the 
University of Pennsylvania's School of Veterinary Medicine.  I 
completed several years of specialty training in both Kentucky and 
Texas in order to refine my veterinary focus to the surgical 
disciplines of the horse.  I am a board-certified surgeon and have 
been practicing exclusively in the field of equine surgery for the 
past 10 years.  I have been fortunate enough in my career to have 
received international recognition for my work in the treatment of 
equine sports injuries, arthroscopy, and internal fixation of 
fractures.  My clientele is somewhat exclusive - I work primarily on 
some of the best Thoroughbred and Standardbred racehorses in this 
country - oftentimes the market value of some of my patients run 
into the many millions of dollars.  Several of my patients, such 
as SMARTY JONES and AFLEET ALEX, have gone on to become household 
names.  Yet I am here today before you to provide support for the 
tens of thousands of horses that bear little to no market value -  
the unwanted horse. 
For me personally, as a veterinarian who makes a living caring for 
horses, the slaughter issue is not entirely about the act of 
slaughter itself. It is about the welfare of the horse throughout 
this whole process - that being the manner in which they are treated 
from the moment they leave their place of origin to their arrival 
at the slaughterhouse. 
I am surprised that no one ever seems to openly discuss the 
absolutely deplorable way these animals are treated on their way 
to the slaughter house. Once these horses enter the path to the 
slaughter house, their treatment is not humane in any way. I dismiss 
the triviality of the studies detailing the number of whinnies per 
hour or the number of horses that arrive with or without a broken 
leg as statistical evidence of humane treatment. Or the proclaimed 
accuracy of the captive-bolt. Sometimes, we as veterinarians (and 
yes, I mean the American Association of Equine Practitioners (AAEP) 
and American Veterinary Medical Association (AVMA) here) hide behind 
the term "humane" and it is often used as the "catch-all" phrase to 
make us feel that things are done correctly and within the letter 
of the law.  However, the whole act of being taken from an 
environment that is familiar, then thrown into a hostile herd 
environment, shipped very long distances without food or water, 
and then placed in an assembly line where they can see, smell, hear, 
and sense the terror of what is happening in front of them is not 
humane. Certainly we all agree that there are levels of intelligence 
dictating the rank of species in this world and at some point we must 
draw the line.  Horses are very intelligent and can perceive fear in 
a different manner than other forms of livestock such as a chicken 
or even a cow.  The concept of "humane treatment" entails different 
basic requirements for different species.  
The American culture does not accept consumption of our dogs or cats 
for food, but there are other cultures in this world that do.  Yet 
we do not allow the commercial slaughter of dogs and cats for export 
in this country because we as Americans find that practice 
deplorable.  That being said, Americans do not eat horsemeat and in 
poll after poll, the American people say that the practice of horse 
slaughter is unacceptable and should be stopped - yet we allow our 
American horses to be slaughtered for foreign consumption.  Where 
is the difference here?  It is important to remember that horses are 
not nor have they ever been raised as food animals in this country.  
The American people have made it very clear that horsemeat is not 
and will never be a desirable food item gracing their tables.  
Horses have traditionally been work animals throughout our history. 
 But as society changes and evolves, so has the role of the horse 
changed in our culture. The majority of horses are now more commonly 
companion or sport animals. 
I have personally been to a horse slaughterhouse as a surgery 
resident while in Texas and I found it to be a disgrace. I was not 
there on an "announced" visit as those who defend horse slaughter 
were - I was there to collect specimens for a research project. In 
my ignorance, I had actually never even thought much about slaughter 
before then. I was absolutely revolted at the way the horses were 
treated and the behavior of the people that were employed there. I 
have also been to a beef and a chicken slaughter plant too. The 
treatment of and reaction by the horses was very much in contrast 
to that of the other livestock I had observed.  
I believe there is some confusion regarding humane euthanasia and 
horse slaughter.  We must remember that these are two distinctly 
different processes.  Horse slaughter is NOT euthanasia by 
anyone's definition.  Euthanasia is a peaceful process that most 
commonly involves the overdose of an intravenous anesthetic drug 
administered by a veterinarian.  The horses are not afraid and 
there is no fear of anticipation.  In most cases, the animal is 
sedated and then euthanized in a familiar environment.  Horse 
slaughter uses a method called the captive-bolt which involves 
aiming a bolt gun at the forehead of a partially-restrained horse 
in what is commonly termed the "kill pen".  This pen is at the end 
of an assembly line of horses that are fed through the plant.  If 
the bolt is applied properly, the horse is rendered unconscious upon 
impact and drops to the ground so that the carcass can then be bled 
out prior to death. There is a great deal of room for human and 
technical error with the captive bolt method and the recommendation 
for 'adequate restraint' is loosely defined and open for 
interpretation. 
 If anyone on this subcommittee would like to see videos of each 
process I would be happy to provide them for you so that you may 
judge for yourself which is the 'humane' method.  I am confident 
that the difference would be dramatic to you. 
If we are going to talk about horse slaughter as an economic 
industry, then there is the additional and timely issue of drug 
residues in American horsemeat that is rarely addressed.  The beef, 
swine and poultry industry are highly regulated as far as 
permissible drug residues. The fear of course is the introduction 
of drug residues into the human food chain and the possible negative 
impact on human health.   Horses receive a large amount of commonly 
prescribed medications expressly prohibited for use on animals 
intended for human consumption.  Is this matter not addressed simply 
because this meat is exported for foreign consumption?  Would it be 
different if this meat was entering the American food chain?  
As an equine veterinarian, I think that surely we can do better. 
Is disposal really the answer to this problem of too many horses?  
Certainly it is the easiest way out but aren't we more intelligent 
than that?  Americans do not eat horsemeat, the American public 
clearly has overwhelmingly voiced their opposition to this practice, 
and there are humane considerations that are being overlooked.  
When organizations such as the AAEP and the AVMA opposed the bill 
in a blanket fashion, equine veterinarians suffered a major public 
relations blow. The public, much of the horse industry, and most 
of the rescue and retirement organizations simply cannot believe 
that the equine veterinary world - the "protector of the horse" - 
is "for slaughter". I know that is not what these organizations 
meant when they opposed the bill but it is the perception that was 
given. This position has translated into the AAEP being 
"pro-slaughter". I know the intentions were good but the way they 
went about it was not. We are all concerned about the fate of 
unwanted horses if and when horse slaughter is eliminated but 
allowing the practice to continue is not the right answer to the 
problem.  Surely we can do better.  
The Unwanted Horse Coalition is a step in the right direction, but 
even that effort would never have been considered had it not been 
for the introduction of the American Horse Slaughter Prevention Act. 
 Nobody was talking about these very important issues until 
Congressman John Sweeney, Congressman John Spratt and Congressman 
Ed Whitfield introduced this sound piece of legislation. 
While the introduction of the AHSPA has been a catalyst for 
discussion into ensuring the humane treatment of horses it has also 
sparked a surge in horse rescues, cruelty awareness and responsible 
horse ownership education across the country, all things that must 
continue to expand.  In addition, a valuable resource was created 
in conjunction with veterinarians, equine rescues and humane groups, 
called Basic Guidelines for Operating an Equine Rescue or Retirement 
Facility which is currently being used by rescues across the US.  
These provide a basic outline for individuals interested in opening 
rescues or assisting those currently operating a sanctuary to ensure 
they have adequate information to ensure the proper care of horses 
they may care for. 
There are many things we need to clean up within the horse community 
such as over breeding, cruelty, neglect, and proper long-term care.  
People must be educated and made responsible horse owners.  In my 
opinion, this is not merely an argument about whether or not you are 
for slaughter. That is too simple with the current state of all the 
unwanted horses in this country. The gray area in-between needs a 
lot of work and for me, that is where I personally want to be. We 
have the opportunity to rid ourselves of a form of cruelty by 
passing the American Horse Slaughter Prevention Act, something 
that should have been done years ago.  We need to make sure that 
as we try to clean up this complicated problem, we continue to do 
whatever we can to continue to "care for horses".  This is where our 
combined efforts should be focused.  I urge this Subcommittee to 
swiftly send the American Horse Slaughter Prevention Act to the 
House floor and call upon the House of Representatives to vote to 
end horse slaughter, once and for all. 
Thank you again Mr. Chairman for the opportunity to testify before 
the Subcommittee in support of H.R. 503, the American Horse 
Slaughter Prevention Act. 

	MR. STEARNS.  Thank you.  Dr. Corey. 
DR. COREY.  Chairman Stearns, distinguished members of the committee, 
thank you for the opportunity to appear before you today.  My name is 
Dr. Douglas Corey.  I have been an equine practitioner for 30 years. 
 I am here today not only as a long-time horse owner, but also as 
President-elect of the American Association of Equine Practitioners. 
 The AAEP is a professional association representing nearly 7,300 
equine veterinarians worldwide.  Our mission is dedicated to the 
health and welfare of the horse.  I would like to make three main 
points today. 
	First, this bill will negatively impact the health and 
welfare of horses across the country and offers no solution to the 
underlying problem of unwanted horses.  Second, horse processing 
at a USDA-regulated facility does provide a humane euthanasia 
option.  And third, AAEP has undertaken a leadership role in working 
with the industry to develop solutions to this industry problem. 
	I turn to my first point.  The way this bill is written, 
it will negatively impact horses and it offers no solutions.  In 
addition, we strongly believe that if passed, this bill will not 
stop the slaughter of horses.  We believe horse processing is 
symptomatic of a larger problem affecting the welfare of our 
Nation's horses and this problem is created by issues that are 
surrounding unwanted horses.  The unwanted represents a group 
within a domestic equine population that are no longer wanted, 
needed, or useful, or their owners are no longer interested in 
them or capable of providing physical or financial care. 
	While this bill and its supporters are well-intentioned, 
its passage without adequate funding or an infrastructure in place 
to care for unwanted horses, will create a series of unintended 
consequences.  Therefore, the AAEP membership vigorously opposes 
this legislation as it is currently written.  How and where are 
we going to put these horses?  Simply put, there is not enough 
funding, volunteers, or placement options for all of the unwanted 
horses across this country.  Current rescue and retirement 
facilities are at a maximum and cannot accommodate the surplus. 
	In addition, many people that adopt horses simply can't 
afford to provide proper care and feeding for a horse.  While many 
of these folks have good hearts, the sad fact is that some of these 
horses are headed for a much worse fate than processing.  We see 
this regularly as veterinarians.  Also, this bill does not address 
the funding required to care of or dispose of an additional 90,000 
horses per year that would result.  Inadequate funding often 
creates inadequate care.  The AAEP, in addition to the Horse Welfare 
Coalition of 64 organizations which represents million of members, 
horse owners, farmers, and citizens, believe that processing is a 
necessary option that is currently needed for the industry to 
prevent abuse and neglect. 
	My second point is that horse processing at a USDA-regulated 
facility provides a humane euthanasia option.  In July of 2003, 
several members of the AAEP leadership, including myself, did visit 
a Beltex plant in Texas to see the process first-hand.  A USDA 
veterinarian was on site to regulate the humane treatment of 
animals.  During our visit, we witnessed a professionally run 
operation that treated horses with dignity throughout the process 
and euthanized them humanely. 
	The AAEP believes that processing is not the ideal solution 
for addressing the large number of unwanted horses in the United 
States, however if a horse owner is unable or unwilling to provide 
humane care and no one is able to assume the responsibility, humane 
euthanasia at a USDA regulated facility is an acceptable alternative 
to a life of suffering, inadequate care, or abandonment.  I ask a 
question; how many Congressional Members have ever seen a horse 
euthanized?  And how many have seen a horse neglected and starved?  
I have seen both and humane euthanasia at a regulated facility is 
much preferred to seeing a horse starve to death. 
	My final point, the AAEP has taken a strong leadership role 
in working on and developing potential solutions for many of the 
unwanted horse problems.  Our association has been a renowned leader 
in equine healthcare.  Our members have spent thousands of hours 
educating horse owners and the industry about the importance of 
caring for horses.  And additionally, in 2004 we developed care 
guidelines for equine rescue and retirement facilities. 
	 In 2005 we spearheaded the first ever unwanted horse 
summit.  A total of 26 equine industry organizations, animal care 
groups, and other stakeholders, including Representative Ed 
Whitfield from Kentucky, met for the purpose of examining the 
causes of unwanted horses and approaches to dealing with this 
segment of the population.  Our members are on the front line every 
day helping horses and are committed to solving this problem. 
	In summary, the equine industry is working together to 
address the root cause of the unwanted horse.  However and most 
importantly, please remember that your vote on H.R. 503 is not free. 
 This bill, should it be enacted, will negatively impact the health 
and welfare of horses and offers no solution to help unwanted 
horses.  We are confident that if you vote no on H.R. 503 you can 
feel secure that you are helping to protect the thousands of horses 
from a life of abuse and neglect and possible abandonment and that 
the equine industry is working to reduce the number of horses being 
processed.  The bottom line is that the industry can solve this.  
Thank you. 
	[The prepared statement of Douglas Corey, DVM, follows:] 

THE PREPARED STATEMENT OF DOUGLAS COREY, DVM, PRESIDENT-ELECT, 
AMERICAN ASSOCIATION OF EQUINE PRACTITIONERS 

Chairman Stearns, distinguished members of the Committee, thank you 
for the opportunity to appear before you today.  My name is 
Dr. Douglas Corey and I have been an equine veterinarian for the 
past 30 years in a five-person mixed animal practice located in 
Walla Walla, Washington.  I am here today, not only as a long-time 
horse owner, but also as the President Elect of the American 
Association of Equine Practitioners.  The AAEP is a professional 
association, which represents nearly 7,300 equine veterinarians 
worldwide, many whom are long-time horse owners as well.  Our 
mission is dedicated to the health and welfare of the horse.  Our 
world headquarters are located in Lexington, Kentucky.  I have 
served as the Chair of the AAEP's Equine Welfare Committee and 
the American Veterinary Medical Association Animal Welfare 
Committee.  I currently Chair the Professional Rodeo Cowboys 
Association Animal Welfare Committee and serve on the American 
Horse Council Animal Welfare Committee. 
I want to make three main points today: 
 First, this bill will negatively impact the health and welfare of 
horses across the country and offers no solution to the problem of 
unwanted horses. 
 Second, horse processing at a U.S.D.A. regulated facility provides 
a humane euthanasia. 
 Third, the AAEP has taken a leadership role in working on and 
developing potential solutions for many of the unwanted horse 
problems. 

I turn now to my first point - the way this bill is written will 
negatively impact the welfare of horses and it offers no solution 
to the problem of unwanted horses.  In addition, we feel strongly 
that, if passed, this bill will not stop the slaughter of horses. 
Guided by a dedication to equine welfare, the AAEP is actively 
involved in the issues that surround the care of unwanted horses 
in the United States.  The AAEP has evaluated H.R. 503, based on 
the legislation's ability to serve the health and welfare of the 
horse.  The intent of this legislation is to ban the transportation 
and sale of horses for processing for human consumption and other 
purposes.  The AAEP believes processing is symptomatic of a larger 
problem affecting the welfare of our nation's horses, and this 
problem is created by issues surrounding unwanted horses. 
The Unwanted horse represents a group of horse's within the 
domestic equine population that are no longer wanted, needed or 
useful or their owners are no longer interested in them or capable 
of providing physical care or financial care. 
While H.R. 503 and its supporters are well intentioned, the passage 
of this legislation, without adequate funding or an infrastructure 
in place to care for unwanted horses it will create a series of 
unintended consequences that negatively impact the health and 
welfare of the horse.  Therefore, the AAEP and 84% of its 
membership, based on a 2002 membership survey, vigorously oppose 
this legislation as it is currently written. 
The AAEP's chief concerns regarding H.R. 503 are: 
1. Long-term placement of affected horses.  How and where are we 
going to put these horses?  The volunteers, alternative homes, 
rescue and retirement facilities are already stressed to the 
maximum.  Simply put, there is not enough funding, volunteers or 
placement options for all of the unwanted horses across this 
country.  Giving credit to the many volunteers and people involved 
with these sanctuaries and facilities, their good hearts are there, 
but unfortunately, their good hearts are not going to take care of 
these animals for 20 to 30 years, not to mention the financing 
needed to care for these horses.  This simple fact is that should 
this bill be enacted, the number of facilities will have to 
increase significantly in order to match the demand. 
 	In addition, many of the individuals that adopt horses are 
not financially secure enough to adopt and provide proper care and 
feeding for a horse.  While many of these people are 
well-intentioned individuals, the sad fact is that many of these 
horses are headed for a much worse fate of starvation, abuse and 
neglect.  Unfortunately, many of the people that adopt horses have 
no idea of the cost to care for a horse. 
It would be nice to absorb every unwanted horse into the equine 
society, but as the years go on, the sheer numbers of horses, and 
people with the great hearts will not be able to sustain this. 
2. The Funding of care for unwanted horses.  H.R. 503 does not 
address the funding required to care for or dispose of an additional 
80,000 horses per year.  Assuming an average cost of $5 per day to 
provide a horse's basic needs, the funding needed per year, per 
horse is approximately $1,825.  This does not include veterinary and 
farrier care.  Inadequate funding often creates inadequate care, 
which is a significant welfare concern for unwanted horses.  
Disposal alone can range from burial $75.00 to cremation up to 
$2,000. 
3. Ambiguous language of the bill itself.  H.R. 503 seeks to 
prohibit the shipping, transportation, moving, delivering, receiving, 
 possessing, purchasing, selling or donation of horses and other 
equines to be processed, and for other purposes.  "Other purposes" 
is not defined and, if taken literally, could mean the 
transportation of horses for any reason, including sporting events, 
sales, recreation or transportation for medical care.  This language 
is detrimental to the equine industry as a whole and if not 
addressed, could have unintended consequences. 
 
The AAEP, in addition to the Horse Welfare Coalition of 64 
organizations represents millions of members, horse owners, farms 
and citizens, who believe that processing is a necessary option that 
needs to be available to the equine industry to prevent abuse and 
neglect to a certain population of horses. 
My second point is that horse processing at a U.S.D.A. regulated 
facility provides humane euthanasia. 
In July of 2002, several members of the AAEP leadership, including 
myself, visited the Beltex plant in Texas to see this process 
first-hand.  A U.S.D.A. veterinarian was on-site to regulate the 
humane treatment of the animals throughout the process.  During our 
visit, we witnessed a professionally run operation that treated 
horses with dignity throughout the process and euthanized them 
humanely. 
Based on U.S.D.A. figures, more than 80,000 U.S. horses were 
processed in the U.S. in 2005, representing approximately 1 percent 
of the domestic equine population.  The AAEP's position on 
processing is that horses destined for a processing facility should 
be: 
 Treated humanely and with dignity; 
 Transported according to guidelines approved by the U.S.D.A. in 
2002 regarding the commercial transportation of equines to 
processing; and  
 Euthanized in a humane manner in accordance with guidelines 
established by the American Veterinary Medical Association (AVMA). 

The AAEP believes that processing is not the ideal solution for 
addressing the large number of unwanted horses in the U.S.  However, 
if a horse owner is unable or unwilling to provide humane care and 
no one is able to assume the responsibility, humane euthanasia by 
captive bolt at a U.S.D.A.-regulated facility is an acceptable 
alternative to a life of suffering, inadequate care or abandonment. 
I ask the question, how many congressional members have ever seen 
a horse euthanized, and how many have seen a horse neglected and 
starved?  The opponents of this legislation, animal health care 
providers, have seen both.  We have consciously decided the humane 
euthanasia alternative at the processing plants is infinitely 
preferable to seeing a horse starve to death. 
Nobody likes or truly wants to see a horse euthanized, but when care 
is poor, horses suffer, owner neglect and abuse is evident, 
euthanasia at a processing plant is a humane option. 
My final point has to do with the efforts that AAEP has taken a 
strong leadership role towards working on and developing potential 
solutions for many of the unwanted horse problems. 
For more than fifty years, our association has been a renowned 
leader in promoting and fostering the welfare of horses.  The AAEP 
and its members have spent numerous hours of their own time 
educating horse owners and the industry about the importance of 
caring for horses.  Education takes a long time to show real change; 
however, we are confident that through our efforts, and the efforts 
of other equine organizations and through the assistance of 
congress, we can continue to decrease the number of horses heading 
to a slaughter facility.  The AAEP is committed to educating its 
members and the public about the health and welfare of horses, and 
especially unwanted horses.  
One of the many efforts that AAEP has worked on towards education 
includes the development and publishing in 2004 of a 32-page booklet 
titled the AAEP Care Guidelines for Equine Rescue and Retirement 
Facilities. 
In April of 2005, the nation's first-ever Unwanted Horse Summit, an 
effort spear-headed by the AAEP, took place during the American 
Horse Council Annual Meeting.  A total of 26 equine industry 
organizations, animal welfare groups and other stakeholders, 
including Representative Ed Whitfield from the first district of 
Kentucky, met for the purpose of examining the causes of unwanted 
horses and identifying approaches to dealing with this segment of 
the equine population.  Following the Summit, a coalition was formed 
to continue the work until a more formal governance structure could 
be formed.  
Over the last 18 months, the group developed a mission statement, 
began identifying long-term solutions for improving the quality of 
life for unwanted horses, and considered an operating plan that 
ultimately led to the suggestion that the American Horse Council 
provide a permanent administrative home for the group's work. 
In June of this year, it was announced that the coalition was being 
folded into the American Horse Council to begin generating far 
reaching and practical solutions.  The mission of the Coalition is 
to explore ways to reduce the number of horses that are unwanted 
each year and to improve their welfare through education and the 
efforts of organizations committed to the health, safety and 
responsible care of the horse.  Owner education will be a focal 
point. 
So, as you can see, this industry is coming together to address this 
industry problem.  Our members are the front line every day helping 
horses and are committed to solving this problem. 
In summary, the equine industry and you, our congressional leaders, 
must work together to address the root cause of the unwanted horse, 
not just the symptom of processing.  We need proactive solutions 
and we believe that the AAEP, veterinarians across this country and 
the equine industry are developing solutions that will continue to 
help decrease the number of horses being processed.  However, and 
most importantly, please remember that your vote on H.R. 503 is not 
a free vote.  This bill, should it be enacted, will negatively 
impact the health and welfare of horses across the country and 
offers no solution to the problem of unwanted horses. 
The AAEP, a respected group of equine health care providers, are 
confident that if you vote no on H.R. 503, that when you go home 
and speak to your constituents, can feel secure in saying, "I voted 
no on H.R. 503 in order to protect horses from a life of increased 
abuse, neglect and abandonment.  I am confident that the equine 
industry is making great strides to help reduce the number of 
horses being processed and I supported them with my no vote on 
H.R. 503." 
Thank you for the opportunity to address you today.  I will be happy 
to answer any questions. 


	MR. STEARNS.  I thank the gentleman.  Mr. Williams. 
MR. WILLIAMS.  Thank you, Mr. Chairman and members of the committee.  
May I reiterate that I am appearing today in my individual capacity 
and not representing any of the organizations that were mentioned 
when I was introduced.  I am expressing only my own opinions. 
	The evidence is building to show that the American people 
strongly oppose horse slaughter once they find out that it exists.  
The horse racing industry depends almost entirely on the perceptions 
of our customers.  We are a fashion business.  We put on a show for 
the public.  So we have issues we have to be constantly concerned 
with: the honesty of racing, medication issues.  Horses have 
similar medication issues as the Olympic athletes and other 
athletes.  Horse slaughter is now appearing on the horizon.  
Equine athletes have a well-deserved mystique that brings racing 
fans back generation after generation. 
	So let us talk about Barbaro for a minute.  Can we imagine 
Barbaro being sent to slaughter?  If he is unable to recover, he 
won't be of any use to his owners or to the thoroughbred industry.  
Why not send him to Texas?  And if not Barbaro, why any other 
horse?  Why should any other horse be condemned to this fate?  
Famous horses have found their way to slaughter, as has been 
mentioned, and this has been a terrible black eye for the racing 
industry.  We have to be alert to avoid this kind of problem given 
the nature of our business.  We cannot afford to lose even a small 
segment of our fan base. 
	I am not an animal rights activist.  I am a horse breeder.  
I derive my livelihood from that business.  In fact, the horse 
business was here once before not long ago trying to ask Congress 
to tighten up rules to control animal activists' interference in 
horse events and you did.  I thank you for that.  We are here today 
to look at the opposite end of the spectrum.  When people find out 
about horse slaughter, most of them vehemently reject it.  You have 
heard what happened in California, you have heard what happened in 
Texas.  Now a Federal District judge has ruled that Texas cannot 
enforce its laws and that only Congress can address the problem. 
	So what we have are three horse slaughter plants that pay 
minimal taxes, provide few jobs, and they are threatening native 
industry that involves millions of Americans and billions of dollars 
of economic impact.  I submit that something is really wrong here.  
Slaughter is not a humane solution to anything.  Slaughtered horses 
are less than 1 percent of the horse population in general, a number 
that the horse industry is capable of looking after and the industry 
is taking steps to do so, as you have just heard. 
	I suggest that if forced, the industry will be able to 
grapple with this problem pretty quickly.  I am most familiar with 
the standard bred breed and I think that we would be able to surmount 
our difficulties in a short period.  There may be other problems for 
other breeds, breeds that are introducing 144,000 new horses into 
the population annually versus the standard bred breed, which is at 
about 11,000, and they have to make other decisions.  But passage of 
H.R. 503 would put the burden squarely on the horse industry.  We 
breed them, we race them, we sell them, we derive all the benefit 
from them and we should pay for looking after them throughout their 
careers. 
	So I am not asking Congress to take on any of that burden.  
I am asking Congress to require the horse industry to carry the 
burden, as it should, and to put an end to a source of suffering 
for a creature that occupies a unique place in American history and 
in the American heart.  Thank you, Mr. Chairman. 
	[The prepared statement of Russell Williams follows:] 

PREPARED STATEMENT OF RUSSELL WILLIAMS, VICE CHAIRMAN, AMERICAN 
HORSE COUNCIL; VICE CHAIRMAN, HANOVER SHOE FARMS 

	I am a fourth-generation participant in the Standardbred 
racing industry, from which I derive virtually my entire livelihood. 
 Hanover Shoe Farms, in which I am an officer and part owner, is 
the world's largest breeder of Standardbreds, or trotters and 
pacers: we send nearly three hundred yearlings through the auction 
sales annually, from which they go into training to compete in 
races at thirty-nine major tracks in the New England and 
Mid-Atlantic States, Kentucky and the Midwest, Florida, and 
California.  As this is written our horse population at the farm 
is 1,315, which includes 77 retired horses.  These are mostly old 
broodmares who have outlived their breeding usefulness.  They will 
be looked after until they die of natural causes or must be 
humanely euthanized. 
	Standardbreds have been part of this country's life for more 
than 200 years.  They can be traced back to an English Thoroughbred 
named Messenger, imported to America in the 1790's, that sired a 
number of fast trotters.  Brown Beauty, the horse that Paul Revere 
borrowed to make his famous midnight ride, was said to be a 
Narragansett Pacer.  In addition to being the world's fastest 
horse in harness, the Standardbred excels in a variety of other 
equine disciplines.  It's a breed able to face every task with 
gentleness, patience, and endurance.  They are wonderful horses. 
	Though I wish to make clear that I am appearing as an 
active member of the horse industry and am not speaking for or 
representing any particular organization, I am also Vice Chairman 
and a trustee of the American Horse Council, Vice Chairman of the 
United States Trotting Association (the Standardbred breed's 
registry organization), and an advisory board member of the 
Standardbred Retirement Foundation.  The Standardbred Retirement 
Foundation has arranged nearly 2,000 lifetime adoptions of 
non-competitive racehorses, transitioning some of them into new 
careers, and providing all of them with the care and dignity they 
deserve. 
	Thank you, Mr. Chairman, for conducting this hearing on 
H.R. 503, the Horse Slaughter Prevention Act.  Commercial horse 
slaughter is a dark and ugly secret in the United States and, in 
my opinion, a serious threat to the horse industry itself.  In 
essence, horse racing is a form of entertainment; consequently 
we depend on public perception.  We compete, nowadays, with many 
other forms of entertainment, and we work constantly to maintain 
high standards of quality and integrity so that we may continue 
to earn our customers' loyalty.  If horse racing has an edge over 
any other type of entertainment, it is the mystique that surrounds 
the horse itself.  In a race, horses can display a unique 
distillation of beauty, power, speed, and above all courage, which 
enables an individual to defeat all expectations and prevail by 
sheer force of will.  Public awareness that we subject this noble 
animal to the needless suffering that goes with commercial horse 
slaughter could turn our customers against the sport of horse 
racing. 
	Commercial horse slaughter is not humanely carried out.  I 
have seen continuing violations of state and federal 
transportation regulations where horses are being shipped to 
slaughter from the livestock sales.  These violations continue 
because enforcement is extremely difficult.  The protective 
regulations were promulgated in the first place because of the 
deplorable conditions under which horses were being loaded and 
sent on the long ride to slaughter, and in my opinion regulation 
will never be very effective.  This problem also exists at the 
sales themselves, where pregnant mares, stallions, elderly, 
debilitated, blind, and injured horses are jumbled together and 
sold in an atmosphere that makes it extremely difficult, if not 
impossible, to sort out individuals that should be euthanized on 
the spot. 
	A logical argument can be made that ending slaughter would 
put some huge number of additional horses at risk of neglect by 
their owners, and thus of needless suffering.  This argument only 
has force, however, if you assume that slaughter is humanely 
carried out, which it is not.  Such an argument does not mean that 
slaughter is part of any humane solution to the problem of unwanted 
horses; it means only that slaughter is a more acceptable evil than 
the alternative. 
Congress need not accept the evil of slaughter.  By ending slaughter, 
which is the only aspect of this problem now within legislative 
control, Congress will not only stop the needless suffering that 
accompanies slaughter, but also cause people like me, members of 
the horse industry itself, to move faster and work harder to put 
our own house in order.  We breed them, we race them or show them, 
we enjoy and profit from them, and it ought to be our responsibility 
to look after them properly to the end of their lives.  I submit 
that we must eliminate horse slaughter in order to retain the 
confidence of the public. 
	I am familiar with growing, industry-wide efforts in the 
Standardbred, Thoroughbred, and Quarter Horse fields to provide for 
horses that are past their usefulness.  An Unwanted Horse Task Force 
has been set up at the American Horse Council within the past three 
months that will coordinate these efforts within the breeds so that 
unwanted horses can cease to be a national problem.  To be frank, 
if the horse industry is deprived of the ability to discard and 
forget about a horse by sending it on that long trailer ride to 
slaughter, we will act far more efficiently to solve the problem 
by more appropriate means.  Horses will cease to be disposable. 
Passage of H.R. 503 will enable Congress to accomplish two very 
laudable effects in our country: to stimulate the horse industry 
to look after its own interest more responsibly and efficiently, 
and to put an end to a known source of suffering imposed on what 
is, for so many Americans, a beloved animal. 
Thank you. 

	MR. STEARNS.  Thank you.  Mr. Koehler. 
MR. KOEHLER.  Mr. Chairman and members of the subcommittee, thank you 
for the opportunity to speak to you today to clear up some 
misconceptions about my industry.  I am Dick Koehler, Vice President, 
Beltex Corporation, representing the country's three USDA-regulated 
 horse processing plants; two are in Texas and one in Illinois.  
The horse processing industry is a victim of a massive 
misinformation campaign waged by animal rights activists, so we are 
pleased to have the opportunity to set the record straight and 
testify before this committee. 
	The three plants provide vital services that are integral 
to the Nation's $40 billion horse industry.  Academic research 
laboratories for the country's leading veterinarian research 
programs, including Texas A&M, Oklahoma State University, University 
of Illinois, Southern Illinois University, as examples, would not 
be able to continue research for many veterinarians like Dr. Hogan, 
who would need this background to continue their education.  The 
only source of USDA-inspected equine protein for American zoos for 
the lions, tigers, bears, and birds of prey come from the horse 
processing plants.  Leading source of equine pericardium for human 
heart surgery comes from the horse processing plants. 
	The essential role of horse processing, which sets the 
baseline value for horses for the U.S. horse market by providing a 
service of choice to those horse owners and it is a matter of 
choice.  If you don't wish to bring your horse to slaughter or have 
your horse slaughtered, I honor that.  If you wish to do that, I 
believe you should have the choice to do that with your property. 
	 Contrary to animal rights groups' misrepresentations, the 
horse processing industry operates as follows: independent, not 
company buyers, purchase rejected and unwanted lower value horses 
from auction; that is after they go through the group that they 
would consider a recreational horse.  That is a horse that they 
are going to move forward, try to sell at a profit, and that is 
their business.  But the lower value horse, the horse that is 
unwanted because of its temperament, its physical attributes, or 
other issues, will probably come to slaughter.  That is the 
unwanted of the unwanted. 
	Horses are transported according to humane transport laws 
approved by Congress and advocated by proponents of H.R. 503.  There 
is a long list of rules and regulations for the transportation of 
horses only to slaughter.  It is not a horse transportation act, it 
is a horse transportation to slaughter act.  And in that act there 
are several guidelines for the condition of the animal to indicate 
the separation from aggressive animals to non-aggressive animals, 
so that when the animal arrives at the plant, it can be inspected 
by an APHIS representative who will then coordinate any type of 
issue that occurred during transportation. 
	Once that animal is received at the plant, they are fed and 
watered and housed in a covered holding area.  They are inspected 
and their owner number, their sex, their breed, and other markings 
are documented in the State of Texas by a law enforcement 
representative to determine if they were stolen.  And with due 
respect to Mr. Whitfield, I am not aware of any animal, after the 
1997 act was passed by the State of Texas, where there was a stolen 
horse through Beltex.  So I would appreciate information regarding 
that so I can follow up. 
	MR. WHITFIELD.  I will be glad to give you a copy of the 
case with Beltex specifically named. 
	MR. KOEHLER.  Yes, sir.  Thank you.  Horses are inspected by 
USDA Food Safety and Inspection Service veterinarians to make sure 
that they are free from disease and contamination for human 
consumption because these horses are being brought for human 
consumption.  They are healthy horses.  They are the unwanted of 
the unwanted, but it doesn't make them, by majority, unhealthy.  
There are some that are quite unhealthy and are condemned by the 
USDA veterinarian and they go straight to rendering. 
	Horses are humanely euthanized using the penetrating captive 
bolt method, which is mandated by Congress as a part of the Humane 
Handling Law recommended by the American Veterinary Medical 
Association and which meets the requirements of humane euthanasia 
set forth by the Humane Society of the United States.  Plants have 
a legal obligation and a financial incentive to keep the horses 
calm and treat them humanely, because if the horse is under stress, 
it produces an inferior meat product. 
	The American meat, horse meat, is regarded as the best in 
the world.  One of those reasons that it is regarded as the best in 
the world is the large amount of Federal and State regulation on 
this process.  Included in that are the large amount of drug testing 
for antibiotics and other compounds which may be in the horse.  
The USDA sends forth a program to the veterinarian at each plant, 
tells him how many samples to draw, when to draw the samples, and 
what lab to send those samples to.  In addition to that, the EU 
requires a much more extensive testing down to minute levels of 
various antibiotics that are sent to a lab of their choice also 
selected by the USDA veterinarian, the meat sample is, but it is 
sent to a lab of their choice, which is Maxim in Canada. 
	The passage of H.R. 503 would result in 60,000 to 90,000 
extra horses, unwanted horses, flooding an inadequate and 
unregulated patchwork of adoption and rescue facilities.  We ask 
that Congress vote no to this misguided legislation that would 
constitute unprecedented government intervention not founded on 
public health or food safety.  We ask that Congress not eliminate 
an entire industry just because animal rights activists find the 
product of this law-abiding, taxpaying, legitimate business to be 
distasteful.  Thank you. 
	[The prepared statement of Dick Koehler follows:] 

PREPARED STATEMENT OF DICK KOEHLER, VICE PRESIDENT, BELTEX 
CORPORATION 

Summary of Testimony 
 I am Dick Koehler, Vice President, Beltex Corporation, representing 
the country's three horse USDA-regulated horse processing plants. 
 The horse processing industry is the victim of a massive 
misinformation campaign waged by animal rights activists, so we are 
pleased to have the opportunity to set the record straight and 
testify before this committee. 
 The three plants provide five distinct and vital services that are 
integral to the nation's $40 billion horse industry: 
- Academic research laboratories for the country's leading 
veterinarian research programs. 
- Only source of USDA-inspected equine protein to America's zoos 
- Leading source of equine pericardia for human heart surgery 
- Essential role of horse processing, which sets the baseline 
value of horses for the U.S. horse market 
- Preparation of euthanized horses for acceptance by U.S. rendering 
plants. 
 Contrary to animal rights groups' misrepresentations, the horse 
processing industry operates as follows: 
- Independent buyers purchase low-value horses from auctions, which 
are unwanted because of temperament, physical attributes, behavioral 
- The horses are transported according to humane transport laws 
approved by Congress and advocated by the proponents of HR 503 
- The horses are fed and watered upon arrival and wait in a covered 
holding area 
- They are inspected and their owner number, sex, breed, and 
markings documented by a law enforcement officer to determine if 
they were stolen 
- The horses are inspected by a USDA Food Safety Inspection Service 
official to make sure they are free from disease and contamination 
- The horses are humanely euthanized using the penetrating captive 
bolt method, which is mandated by Congress as part of the Humane 
Handling Law, recommended by the American Veterinarian Medical 
Association, and which meets the requirements for humane euthanasia 
set forth by the Humane Society of the United States 
- The plants have a legal obligation and a financial incentive to 
keep the horses calm and treat them humanely because if the horse 
is under stress, it produces an inferior meat product 
 The passage of HR 503 would result in 60-90,000 extra horses 
flooding an inadequate, unregulated patchwork of adoption and 
rescue facilities.  
 We ask that Congress vote no to this misguided legislation that 
would constitute unprecedented government intervention. 
 We ask that Congress not eliminate an entire industry just because 
animal rights activists find the product of this law-abiding, 
tax-paying legitimate business to be distasteful. 

My name is Dick Koehler, Vice President of Beltex Corporation.  
Beltex Corporation is a Texas Corporation with European shareholders 
that operates a USDA and European Union - approved horse processing 
company located in Fort Worth, Texas. I am here today representing 
the 100-year-old U.S. horse processing industry, which would be 
eliminated in its entirety if this bill passes. 
 My business management background includes serving as a plant 
manager for Simeus Foods International, one of the country's few 
minority-owned food processors, for 14 years. I was also the primary 
meat buyer for Armour Foods/ConAgra for 10 years.  
Since 1998, I have been honored to be part of Beltex, which not only 
provides a vital service to the $40 billion horse industry, we 
provide food to zoos, contribute to the local community through 
donations to charities and community groups and allow our plant to 
be used as an academic research facility to improve veterinarian 
care. 
I was eager to take the helm of the Beltex's Ft. Worth plant. My 
background in business prepared me for the many challenges involved 
with the daily tasks of running a company. What I was not prepared 
for was the continuous barrage of insults, attacks, and lobbying 
efforts by the animal rights community - which has sparked 
legislation like H.R. 503.  These groups are relentless in their 
lobbying, public relations, and advertising campaigns, in which 
they have spread inaccurate descriptions of our industry through 
thousands of internet, print, radio, and television stories 
worldwide. 
Furthermore, these groups have posted video footage on their Web 
sites, claiming it to be an accurate portrayal of the horse 
slaughter process. The truth is, this footage of cruelty and abuse 
does not reflect the modern USDA approved process we use here in 
the United States.  I can promise you, irrefutably, that the video 
was also not filmed at the other two U.S, horse processing plants: 
Cavel, or Dallas Crown.  Yet, we are the three companies that 
would be forced to shut down if you pass H.R. 503. 
Not only do I have to go to work each day and make the high level 
decisions required to run my business.  I also must deal with a 
cruel, misguided misinformation campaign against our industry that 
has reached mammoth proportions.  This campaign, waged by animal 
rights groups supporting H.R. 503, has reached the point that it 
directly affects the long term planning of the corporation. The 
continuous threat of being shut down has made it impossible for us 
to commit to long-term investments that would improve our facility 
and our operations -- a burden not faced by most small businesses 
in America.  These investments would bring more jobs to our 
community and fuel the local economy. 
The goal of the animal rights groups that support this bad bill is 
best described by their own officials in their own words.  In a 
Washington city paper article, Ingrid Newkirk, President and 
Founder of the People for Ethical Treatment of Animals stated, 
"Eating meat is primitive, barbaric, and arrogant."  And in 1996, 
the current Humane Society of the United States grassroots 
executive J.P. Goodwin said, "My goal is the abolition of all 
animal agriculture."   
In fact, the Animal Liberation Front, which is the animal rights 
community's branch devoted to violent and often criminal activity, 
is described by the Federal Bureau of Investigation (FBI) as a 
domestic terrorist organization.  Just four days ago, the FBI 
announced that an ALF activist pled guilty to 54 counts of arson 
involving nine separate attacks. One of these attacks was on the 
Cavel West horse processing plant in Redmond, Oregon, which the 
animal activist burned to the ground in 1997.  You can see that 
our concerns are not unfounded.  
Today is the first chance horse processing industry has had to 
describe accurately the vital services we provide without having a 
reporter or producer edit it.  It is the first chance we have had 
to explain to the U.S. House of Representatives exactly what we do, 
and we sincerely thank you for this opportunity. 
Beltex, Cavel, and Dallas Crown are the only companies in America 
that provide five distinct and vital services that would be 
eliminated if this legislation passes. The mayor of Ft. Worth 
issued Beltex a special commendation for being a good corporate 
citizen. Beltex is a legal, tax-paying business that adheres to all 
applicable local, state, and federal regulations, as well as 
European Union regulations. 
Following are the five vital services we perform: 
 First, we serve as an academic research laboratory for Texas A&M, 
Oklahoma State University, Colorado State and other leading 
university veterinarian programs. By allowing students of veterinary 
medicine to visit our facilities and observe and examine large 
numbers of horses, we make possible the research that is used to 
enhance the quality of veterinary care. 
 Second, we are the only source of USDA-inspected horsemeat for U.S. 
zoos.  More people visit zoos in America than all sporting events 
combined. A high-protein diet using horsemeat mimics what many zoo 
animals would have consumed in the wild.  If the zoos cannot get 
meat from us, they will be forced to import horsemeat from other 
countries with less stringent safety and humane handling 
regulations. 
 Third, we are the leading U.S. source of equine pericardia used to 
replace the human membrane that surrounds and protects the heart. 
Equine pericardia are stronger and thinner than other animal 
pericardia, making them ideal for human heart surgery. Again, if 
the pericardia have to come from overseas, the harvesting of them 
will not be under the same watchful eye as it is here in the United 
States. 
 Fourth, we are an irreplaceable, interdependent part of the $40 
billion horse industry, without which the market would fail, causing 
tens of thousands of horses to potentially become abandoned and 
abused. 
 Fifth, when rendering plants reject horses, we euthanize and 
prepare the horse to meet the specifications set forth by these 
plants.  This is important because proponents of closing our plants 
indicate that euthanasia and pick-up by rendering plants as an 
alternative to our services, when, in fact, we are often an integral 
part of the rendering process. 

Because the horse processing industry has been misrepresented in the 
past, I am providing the following modern-day, accurate and 
detailed description of our industry. 
Independent buyers purchase horses from auctions and other sources. 
They are looking for horses that can potentially be used as 
recreational or working animals. Some of these horses, because of 
temperament, physical attributes, or other reasons have no market 
value as a working or recreational animal. These "loose" animals, 
as they are called at auction, would be considered the bottom of 
the horse market, and the traders often sell them to one of the 
three processing plants. Most horse owners who take their animals 
to auctions realize that the animals may end up at processing 
plants. A portion of the animals we receive come from private 
individuals who deliver the animals to our plants.  If horse owners 
do not want their animals to go to the processing plants, they 
should simply market their animals by private treaty.  The choice 
now lies where it should - with the horse owner.  This is why 
passage of H.R. 503 would constitute a clear violation of personal 
property rights. 
The processing plants are the only outlet where the lowest-value, 
unwanted horses end up.  Unwanted horses fall into a wide range of 
categories. They are healthy and of various breeds, suffer from 
non-life-threatening disability or infirmity, fail to meet the 
owner's expectations, have behavioral problems, or are just plain 
mean or dangerous. 
 As the unwanted horses are transported to processing plants, it 
is important to note that horses bound for slaughter are the only 
livestock that have any federal humane treatment guidelines 
governing their transport.  The USDA's Animal and Plant Health 
Safety Inspection Service (APHIS) enforces the "Commercial 
Transportation of Equines for Slaughter" (9 CFR 88). This regulation 
establishes the condition horses must be in before they can be 
transported by commercial livestock haulers to the plants. The 
Fitness to Travel Section of this law passed by Congress dictates 
that the horse must be able to bear weight on all four limbs, not 
be blind in both eyes, walk unassisted, be older than six months 
of age, and be not likely to give birth on the trip. 
This regulation also sets out how frequently the trucks must stop 
to feed and water the horses enroute to a packing plant. The 
regulation makes it unlawful to transport horses in double deck 
trailers after 2006. Ironically, this very law was championed by 
the animal rights groups who are now criticizing these regulations. 
 HSUS claims that nursing foals and blind horses are being 
transported to slaughter, but this and their other transportation 
concerns have already been addressed by Congress and the law and 
regulations are already being enforced. 
This regulation also establishes criminal penalties for those that 
violate the rule.  We encourage you to review Beltex's record with 
APHIS instead of listening to unfounded allegations by our critics. 
 In fact, renowned animal welfare expert Temple Granden conducted 
a published study on this topic.  She found that it was the original 
horse owners, not transport conditions, which were responsible for 
the reported horse abuse and neglect of horses that arrived at 
slaughter plants. 
Upon the horses' arrival at the plant, the USDA APHIS inspector 
verifies all shipping documents. An additional inspector, a law 
enforcement official acting as a brand inspector, documents the 
owner number, sex, breed and markings on each horse to make sure 
none of the horses have been reported stolen from their original 
owners.  This mandatory brand inspection by law enforcement has 
been in effect since 1997, when Texas Agriculture Code #148 took 
effect.  In all the years I have been at the company, the brand 
inspectors have never found that a horse that has been reported 
stolen. 
In order for meat to be exported to the European Union, a veterinary 
medical inspection officer from the United States Department of 
Agriculture's (USDA) Food Safety Inspection Service (FSIS) must be 
present at the time of slaughter. This USDA veterinarian must 
perform an antimortum inspection of livestock in pens before 
processing in order to confirm that the animals comply with all 
USDA regulations as being fit for processing. This USDA 
veterinarian monitors the complete sequence of events involved in 
euthanasia and processing. The USDA veterinarian has the authority 
to retain and condemn any carcass that is considered suspect for 
contamination or diseased in some fashion that would make the 
introduction of the meat from that carcass into the human food 
chain unsafe. Since horses are handled under both United States 
and European Union regulations, horses undergo more stringent 
inspection procedures than are other animals slaughtered in the 
United States.  
Our plant has been designed specifically to put horses at ease. 
When horses are received, they are provided food and clean water 
in a clean and covered holding area. A captive bolt system is used 
to euthanize the horse, as is dictated by the Humane Handling Act 
approved by Congress. A captive bolt is not a stun gun; it is 
designed to produce instant brain death. In other words, we are 
bound by the Humane Handling Act to euthanize these horses in this 
specific way.  Animal rights groups advocating H.R. 503 know that 
we are following this law that binds us to perform veterinarian-
supervised humane euthanasia, yet their materials and media 
interviews continue to claim that the process is not humane.  If 
any of the independent inspectors or USDA veterinarians see any 
impropriety at any step along the way, immediate action is taken. 
Now that you have heard the accurate account of this carefully 
supervised process, there is no evidence that suggests a food safety 
or public health risk.  We are required by law to adhere to the 
Humane Handling Act, the Humane Slaughter Act, the Meat Inspection 
Act, and additional regulations.  Therefore, H.R. 503 would set 
the very dangerous precedent of the federal government banning a 
livestock product for reasons other than public health. 
I also want to point out that our legal obligation to treat animals 
humanely is matched by our own incentive: animals under duress make 
for a substandard product. That is why the owners of the horse 
processing plants use the humane euthanasia methods supported by 
the U.S. Congress and the American Veterinarian Medical 
Association.  In fact, our method also meets the requirements for 
humane euthanasia set forth by HSUS, which says "We recommend for 
use only those methods that cause a rapid loss of consciousness 
and that cause minimal pain, distress, and suffering in the 
animal."  
The quality of meat is dependent upon many factors, not the least 
of which is that an animal at the time of slaughter should be as 
calm as possible in order to reduce the animal's stress levels. A 
stressed animal can have chemical reactions in the muscles that 
result in meat that is substandard. 
This is why the unfounded claims of mistreatment are so ridiculous. 
 The plants are not saying that difficult situations do not come 
up -- as they do with any animal -- but they are extremely rare 
and dealt with appropriately and immediately.  Proponents of 
H.R. 503 inaccurately describe the slaughter process and continue 
to claim widespread mistreatment without evidence. Congress has 
already passed laws to assure that this is not the case.  So, even 
if you believe that we are only driven by economics, note that we 
do have a financial incentive to handle the animals in as quiet and 
non-stressful a fashion as possible in order to produce the best 
quality product. 
Since I have demonstrated Congress's own vigilance and provided USDA 
evidence that incidents of mistreatment are not a legitimate 
concern, the only argument left is, and I quote our opposition: 
 "U.S. businesses shouldn't supply horse meat for other people to 
eat."  With all due respect, I think that's a downright arrogant 
statement.   The debate about which animals should and should not 
be eaten has been flourishing since before the Middle Ages and is 
likely to continue.  It is extremely presumptuous of PETA and other 
anti-slaughter groups to claim the moral high ground across the 
globe regarding what is appropriate to eat, and not eat.  If they 
really care about the humane treatment of animals, then let's talk 
about it.  I'm confident that our plant meets that test.  But don't 
try to get the U.S. government to shut down my legitimate business 
simply because you find our safe meat product distasteful. 
 Remember, we set the base price for the entire horse market...we're 
it.  You are looking at the bottom of the horse market.  If you 
close us, the bottom falls out, and you have a nightmare situation. 
Even the Congressional Research Service has expressed concern that 
the challenge of caring for an extra 60,000 to 90,000 unwanted 
horses per year couldn't be met by the rescue and adoption 
facilities in place today. 
Yet none of the animal rights groups supporting this bill have 
offered to address this problem.  An Animal Liberation Front 
activist who now works at HSUS once set 7,000 minks free from a 
farm in Oregon.  Four thousand of those minks, mostly babies who 
weren't weaned from their mothers, died as a result.  Is that what 
HSUS wants to happen here?  Just let the horses die of starvation?  
The Humane Society of the United States is a $111 MILLION DOLLAR 
operation.  Let me repeat that.  They are a $111 million dollar 
organization!  They have more revenue than all three of the horse 
processing plants combined, and as you've seen, they have several 
wealthy celebrities working with them.  Yet we called the one and 
only shelter funded by HSUS that takes horses, and there is No 
Vacancy. The largest animal rights group in the country isn't 
willing to take one more horse, the shelter operator told us.  
Many other shelters are filled to capacity, as well. 
Now, imagine what will happen when we add 60,000 to 90,000 unwanted 
horses per year to this overburdened system. Actually - the numbers 
are trending upwards of 90,000. Private owners will be able to 
absorb some of this infux, but the numbers are too staggering for 
that to even make a dent.  Not only will eliminating processing be 
bad for horses, it will have a far-reaching negative ripple effect 
on the hundreds of businesses that make up our nation's $40 BILLION 
horse industry -- from hay farmers and trailer manufacturers to 
feed stores and truckers. In fact, our plant recently was 
recognized for being the number one airfreight client at Dallas 
Fort Worth airport.  There are clearly more jobs on the line than 
just the workers in our plants. 
Proponents of H.R. 503 have tried to polarize the two aspects of 
this bill  -- the horse welfare part, which after this testimony 
they cannot lay claim to, and the economics, which they say are 
driving the mistreatment that they cannot document. 
What I am here to clarify once and for all is that you cannot 
separate these two elements.  A horse that is worth less money is 
more prone to neglect.  Period. A horse trader that does not have 
a baseline guarantee of what he can get for a horse is not going to 
take a chance on a low-value animal.  So that animal is going to 
have to go back to the person who didn't want it anymore, but they 
have no buyers and no options.  How do you think most people are 
going to treat that unwanted animal?  The animals - the horses 
that HR 503 advocates are trying to protect - will clearly suffer 
then. 
You can parade every celebrity known to man up here for as long as 
you want, and you can definitely get an eye full with some of them, 
but you cannot change the way the market works. You cannot change 
reality.  Our industry exports one of the few agricultural products 
this country trades with Europe. To a businessman like me, the 
passage of H.R. 503 would be the big hand of government reaching 
into a private industry and destroying an entire segment  -- a 
segment that is interdependent with every other aspect of the $40 
billion horse market. 
H.R. 503 claims to fix a so-called "problem" that has been 
misrepresented time and time again, while our plants have complied 
with every new law and every new regulation.  
 We hope you will consider the facts before you take the broad 
sweeping step of closing my business and the businesses of my 
competitors.   Beltex is owned by a company based in the 
Netherlands, and Dallas Crown and Cavel are Belgian-owned, but 
all plant management and other employees live in the United States. 
 Because Mr. Whitfield, the proponent of this bill, has a 
Japanese-owned Toyota plant in his state, I know he can appreciate 
what foreign ownership can do when an overseas corporation is 
willing to make an investment in your community and provide jobs 
to local residents.  H.R. 503 would send the message that Americans 
reject foreign investment in our country. 
 	In closing, I am asking you not to support this misguided 
legislation. 
I am running a legal, tax-paying, humane business that is in 
compliance with every letter of every environmental and agriculture 
law on the books.  Our industry is providing the underpinnings that 
allow our nation to safely and humanely manage its population of 9.2 
million horses.  
 We have a track record of compliance with stringent regulations -- 
the most stringent in the entire livestock industry. I have talked 
about the services these three plants provide: essential 
nutrient-rich feed for zoos, medical materials for cardiac 
procedures, a humane end-of life option for horses, and employment 
opportunities for local communities. I hope you can look beyond the 
emotional arguments made by proponents of this bill, and listen to 
the experts from AVMA and AAEP who really know what is best for 
horses. 
I hope you now realize that these plants provide a necessary service 
for the horse industry and for this country. 
I urge you to stop now, before the federal government takes the 
unprecedented step of shutting down a legitimate, safe, law-abiding, 
tax-paying business. 
I thank you for the opportunity to speak on behalf of the horse 
processing industry. 

	MR. STEARNS.  I thank all of you and I will start with 
questions.  Mr. Koehler, just a quick question.  When the horse meat 
is sold in Asia or is sold in Europe, is it considered a gourmet meat 
or is it considered just a standard meat? 
	MR. KOEHLER.  It is considered a protein source. 
	MR. STEARNS.  Protein source, period.  I was just curious 
what your reaction would be when someone indicated that one of the 
Kentucky Derby winners was slaughtered and then the French restaurant 
advertised it by saying "eat a champion."  I just wonder what your 
response would be to that.  I think that is sort of an emotional 
argument, but you can see how that colors this whole thing and it is 
not necessarily you can ask, but I say to you and Dr. Beaver, I am 
going to come to you here, too, but this argument really sometimes 
comes down to the emotional and so you are going to have to perhaps 
address this and I think Mr. Goodlatte, the Congressman from 
Virginia, did not address that; Mr. Sweeney did, and I think that 
is an argument that you will have to take into account. 
	But Mr. Koehler, you mentioned a very good argument I would 
like Mr. Pickens to answer.  In my hometown of Ocala there are about 
465 horse farms.  The large horse farms support this bill; the small 
ones don't.  And when I go to talk to them, they all talk about 
private property rights and you probably know this better than 
anybody in this room, why should the Government, the United States 
government, tell private citizens what they can and cannot do with 
their own property?  And so the question I have for you, as 
Mr. Koehler mentioned in his opening statement, just a small farm, 
they have a couple of horses.  Some of them might have 30 horses.  
They own these horses, they paid for them.  Why should the U.S. 
government tell them this isn't a private property issue? 
	MR. PICKENS.  I suppose it is a personal property question 
where they have the right to do what they want to do with the horse, 
and if they wanted to have the horse slaughtered, that that would be 
their right. 
	MR. STEARNS.  Yes. 
	MR. PICKENS.  I don't think that most of the time these 
people know where these horses are going and don't know they are 
being slaughtered.  I think when you have killer buyers talking to 
them, they are telling them that they are going to take your horse 
and maybe you can't afford to continue to pay for it, so we will 
allow somebody else to have it and we will put it in a nice home.  
If they had to sign an affidavit that said it is all right to 
slaughter my horse, I know what you are going to do, you are going 
to slaughter my horse and sign their name to it, I don't think 
anybody would sign their name to it. 
	MR. STEARNS.  Mr. Pickens, in all deference to you, most of 
these people know these horses are being slaughtered and when I talk 
to them, they understand that they want to get paid for this horse 
and they want to have the right, and exercise their private property 
rights, to do with this horse what they want, and they feel this 
bill will deny them that, so that is just my observation. 
	Dr. Beaver, Congressman Sweeney talked about the emotional 
issue, which I think it is pretty important that you need to 
address.  The horse, obviously, from the development of the 
frontier, has always been a symbol for America and Mr. Sweeney 
mentioned that we don't slaughter bald eagles and eat them.  And 
I think a lot of people feel a little bit squeamish when they hear 
a Kentucky winner advertised in a restaurant "eat a champion" and 
so I think I would like you to address this issue about the mystic 
qualities that maybe Mr. Williams had talked about, this horse; I 
mean, isn't that something that Members should consider also, 
besides just the nuts and bolts of it? 
	DR. BEAVER.  The emotional issue is certainly something 
that you, as Congressional Members, have to deal with in your home 
districts.  That is something that we all recognize.  But if the 
general public actually knew the suffering that horses that are 
not being cared for go through, you would find that the polls that 
say we are opposed to slaughter would dramatically change to the 
opposite and say we need to have humane care for these particular 
horses. 
	The average U.S. citizen is at least three generations off 
the farm.  Many people in this country do not even know, have not 
touched any kind of livestock.  They are probably more familiar 
with horses, but they get their information about animals from 
shows like Bambi, from Animal Planet, from information off the 
Internet rather than from having lived and worked with these 
particular animals.  So the concern about emotion is very real, 
but the concern about humane care is even greater. 
	MR. STEARNS.  One last question and I will let you answer 
this, Dr. Corey, and you can bring in your other comments.  
Mr. Whitfield had mentioned that it is a concern of a lot of 
Members that the Federal government is going to have to pay for 
the caring of these animals and he pointed out that there are a 
lot of retirement facilities that exist in the United States; they 
have the capacity to absorb these, I don't know, 80,000, 60,000, 
80,000, 90,000 horses. 
	I guess the question is how many equine retirement 
facilities are there in the United States today, what is their 
total capacity, and will they be able and will there be enough 
generosity in the American horse industry to pay for the caring 
of these animals through that whole extensive time?  And I think 
what is on any member's mind, no matter how you feel on this 
issue, is the Federal government going to have to come in and bail 
us out?  I have heard quotes as much as $250 million a year that 
the Federal government is going to have to pay to cover all this, 
so I guess if you can clear up the number of facilities, the 
capacity and what you expect in the future if this bill is passed. 
	DR. COREY.  Well, I will try.  I am not sure of the exact 
number of rescue and retirement facilities in the country.  I have 
heard numbers all over the place, but I have heard that there 
are approximately 6,000 horses that right now are in sanctuaries 
or rescue and retirement facilities.  We figure that we will have 
to have an additional 2,700 facilities to cover about 90,000 
horses.  The cost per year, roughly, is $1,800 for minimal care, 
feed and water, veterinary care, nothing extensive on top of 
that.  So we are looking at anywhere from $120-$130 million per 
year and that is compounded each year because these horses are 
going to live and they are not going to die. 
	MR. STEARNS.  That just goes on and on. 
	DR. COREY.  And goes on and on. 
	MR. STEARNS.  And with inflation, it could be a lot higher. 
	DR. COREY.  Absolutely. 
	DR. HOGAN.  Can I make a comment? 
	MR. STEARNS.  Sure.  Ms. Hogan. 
	DR. HOGAN.  I think that is a little bit too simplistic to 
assume that every year there is going to be 80,000 or 90,000 horses 
that are just left standing out there to starve to death.  I own 
horses, I breed horses, I take responsibility for my horses.  
Ninety-nine percent of the horses that are owned in this country 
are owned by responsible horse owners.  The 60,000 to 90,000 horses 
we are talking about represent 1 percent of the horse population. 
	 Are we going to pay for all of these people that, this 
1 percent of the population that is not going to take care of 
their horses?  We are just removing one option for them, that 
slaughter is not an option.  You can kill your horse if you want 
to, but you cannot ship it to slaughter.  You can render it, you 
can euthanize it, you can bury the carcass, there are a number of 
options for you.  We are just removing one that will eliminate 
what we believe to be a cruel practice that is in existence. 
	MR. STEARNS.  My time is expired.  Do you want to 
finish up, Dr. Corey? 
	DR. COREY.  Dr. Hogan is in a very exclusive practice and 
if you get across the country, they are not all exclusive practices 
such as hers.  And if you get out in reality, in a lot of the 
veterinary practices, a lot of horse owners consider $200,000 to 
care for a horse a lot of money and I can tell you that when it 
comes down to feeding that horse or feeding your kids, what are 
they going to do?  They are going to feed their horse. 
	MR. STEARNS.  Yes.  All right, my time is expired.  
Ms. Schakowsky. 
	MS. SCHAKOWSKY.  I have to tell you that listening to 
this debate, I would say that the opponents of this legislation 
are presenting a picture that almost want me to call them the 
Humane Society, an organization that was actually discredited, 
Mr. Koehler, in your testimony.  We are talking about a for-profit 
business here, right?  People who are slaughtering horses to sell 
and make money. 
	MR. KOEHLER.  Yes. 
	MS. SCHAKOWSKY.  Okay.  And I am looking at the five vital 
services that you say are performed and I wanted to ask the 
proponents of the bill whether or not this is the only way that 
these goals can be met.  They say they, one, serve as an academic 
research laboratory for various, Texas A&M, et. cetera, and 
students can visit their facilities and observe a large number 
of horses; makes research possible.  Second, they are the only 
source of USDA-inspected horse meat for U.S. zoos, so the question 
is could we feed zoo animals in some other way? 
	Third, we are the leading source of equine pericardia, used 
to replace the human membrane that surrounds and protects the heart.  
Do we need this industry in order to meet that goal?  Fourth, we 
are an irreplaceable, interdependent part of the horse industry and 
without the market, without which the market would fail causing 
tens of thousands of horses to potentially become abandoned and 
abused.  So in other words, this is protecting horses because 
otherwise they would be abandoned and abused. 
	And fifth, I don't understand.  It is about rendering and 
I don't get it, but so these other four, I am wondering, Dr. Hogan 
or Mr. Williams or Mr. Pickens and Dr. Hogan, let me also say I 
thought you made a really good point that I thought of, too.  If 
you make this argument about horses, you really could make that 
argument about cats and dogs.  There really is a market 
internationally for people who eat cats and dogs.  I can't 
imagine.  And it could be, potentially, a lucrative business, I 
presume.  But we do distinguish among animals, we just do in this 
country.  So Dr. Hogan, in terms of those laudable goals that 
they say they achieve-- 
	DR. HOGAN.  I am sure that the most obvious is that it is a 
for-profit business, but as far as the other attributes listed for 
this industry, I know one thing about the equine pericardial 
tissue; it is considered inferior, so I don't think that is the 
number one choice at all for pericardial tissue implants.  And 
secondly, about the research.  We are not saying that you cannot 
euthanize an animal.  A gunshot to the head is far better than 
this slaughter process, but if you need research materials, we are 
not disputing that they are available, but it is not the 
slaughterhouse that is the ultimate supplier of these research 
materials. 
	MS. SCHAKOWSKY.  Mr. Williams, you mentioned that there 
is such a thing as an Unwanted Horse Task Force that has been set 
up.  I mean, are there other ways to more adequately address this 
issue?  I am concerned about large numbers of unwanted and abandoned 
horses. 
	MR. WILLIAMS.  Yes.  The Unwanted Horse Task Force has been 
folded into the American Horse Council.  It is getting started.  
These things can't be achieved overnight.  The first thing that 
has been done is communication.  A website is being set up to give 
a Web presence to the organization.  The task force has determined 
 that education of owners and members of the industry is a high 
priority and that this is something that can be done centrally.  
Some other things have to be done in the localities where the rubber 
meets the road. 
	When these numbers are being thrown around, I would like to 
just point out that, for example, in 2002 the number of horses 
slaughtered was somewhere around 44,000; in 2005, 90,000.  So that 
is 45,000 horses, roughly, that didn't get slaughtered in 2002.  
Where are they?  Are they walking the streets today?  No, it is 
not that simple and it is not good mathematics and it is not 
rational to say if we stop slaughtering 90,000 horses from last 
year, they are going to be on our hands and another 90 and 
another 90.  History shows it doesn't work that way. 
	MS. SCHAKOWSKY.  Okay, thank you.  I yield back. 
	MR. STEARNS.  The Chairman of the full committee, 
Mr. Barton. 
	CHAIRMAN BARTON.  Thank you, Mr. Chairman.  It is good to 
have Mr. Pickens here talking about something besides the high 
price of oil.  My first question, in Dr. Corey's testimony, he has 
a list of 62 State and national organizations that oppose the bill 
and of those 62, 25 are specific organizations directed towards 
horses.  Does anybody dispute that list?  Any of the proponents 
of the bill?  Does anybody dispute that the American Veterinary 
Association, the American Paint Horse Association, the American 
Quarter Horse Association, the Animal Welfare Council, Hooved 
Animal Rescue and Protection Society, Indiana Thoroughbred Owners 
and Breeders Association, Kentucky Quarter Horse Association, 
Michigan Horse Council, Mid-America Horse Show Association, 
Missouri Equine Council, New Jersey Horse Council, New York 
State Horse Council, North Carolina Horse Council, Ohio Horse 
Council, Pacific Coast Quarter Horse, Palomino Breeders of 
America, Texas Horse Council, Utah Horse Council; it can go on 
and on. 
	And some organizations that are not animal specific, 
Professional Rodeo Cowboys Association.  I mean, it can't be 
purely economic that all these associations oppose the bill. 
	DR. HOGAN.  May I comment? 
	CHAIRMAN BARTON.  Yes, ma'am. 
	DR. HOGAN.  There certainly are some financial interests 
there; in some cases, a lot of financial interests.  I would like 
to make a couple of points.  I stated on a number of the AAEP and 
the AMVA.  The AAEP is a membership of 7,200 or so veterinarians.  
The poll that was conducted in 2002, online survey of 3,000 
veterinarians in which 640 responded.  That is the survey that is 
commonly quoted.  I think it is more of a leadership's position.  
Also, the American Quarter Horse Association, this is their 
official latest magazine sent to their members.  This is a quote 
from their magazine.  "We should also say that issues concerning 
human consumption of horse meat are outside the scope of AQHA.  
Therefore, the Association takes no official position on this 
subject except to say that it is a personal, cultural, and 
social issue."  This is from their own monthly magazine sent 
to members. 
	CHAIRMAN BARTON.  Do you dispute that the American Quarter 
Horse Association opposes the bill? 
	DR. HOGAN.  No. 
	CHAIRMAN BARTON.  I am not saying that, I am just--what is 
in his testimony. 
	DR. HOGAN.  I understand that, but I would like to say that 
a lot of those organizations-- 
	CHAIRMAN BARTON.  Mr. Chairman, you didn't start my clock 
and I'm at about the 2-minute mark.  I have probably been going 
about-- 
	MR. STEARNS.  We will let the Chairman work that out in 
his best fairness. 
	DR. HOGAN.  A lot of those associations have taken a 
leadership position, but do not necessarily represent all of the 
members. 
	CHAIRMAN BARTON.  Okay.  Dr. Beaver, you have talked to me 
about this several times when you were President of the American 
Veterinary Association.  Do veterinarians take an oath similar to 
doctors that treat people about doing what is, you know, the 
Hippocratic Oath and things like that.  Do you all have any kind 
of a similar oath to treat animals? 
	DR. BEAVER.  Absolutely, yes, we do. 
	CHAIRMAN BARTON.  And with the American Veterinary 
Association opposing this legislation, did you all have a 
substantial policy debate about that and talked about all the 
issues that have come out in this hearing before you took that 
position? 
	DR. BEAVER.  This has been through several different 
committees and those committees make the recommendation that comes 
forward.  The executive board talks about it and decides whether it 
should become the association's position or not, so it has been 
through a lengthy process and has had a lot of input, yes. 
	CHAIRMAN BARTON.  So would it be your assessment that in 
that debate with the veterinary association that the veterinarians 
like Dr. Hogan, who obviously have a heartfelt opposition, were 
their voices heard in the debate?  Were they given input into the 
debate and allowed to participate in some of these policy 
discussions? 
	DR. BEAVER.  There was a lot of information gathered from a 
lot of different sources, yes. 
	CHAIRMAN BARTON.  Okay.  This is an open question.  Is there 
any compromise possible on this?  I mean, it seems to me to be a 
fine line between opposing the slaughter of horses but yet 
supporting euthanasia and all of the other avenues to what is 
commonly referred to as put down a horse.  Could we get to something 
that everybody could agree upon?  Dr. Corey. 
	DR. COREY.  I definitely think there is always room to sit 
down at a table and talk about it.  We, in fact, have never heard any 
of the problems that exist in transportation from anybody, so I 
sure think there is room to always sit down and talk about this; 
the AAEP is always willing.  But I also would like to correct 
something.  The AAEP has done not only one survey, but two surveys; 
our general membership survey last year.  And we are strongly, well 
near 80 percent of our members are in favor of our position.  This 
is sort of a democratic process.  I see that not all of the 
Congressmen agree on this issue.  Dr. Hogan and I don't agree on 
this issue. 
	CHAIRMAN BARTON.  The only issue we ever disagreed on. 
	DR. COREY.  Uh-huh, I can tell.  But at any rate, I do 
want you to know that we have surveyed our membership twice and 
we are very comfortable with our position. 
	DR. HOGAN.  Just ask him how many members it was for the 
last survey. 
	CHAIRMAN BARTON.  Mr. Pickens, you wanted to make a 
comment? 
	MR. PICKENS.  How do you compromise slaughter?  I don't 
know.  I just don't see how you get there, Mr. Chairman.  Let us 
just go back to the facts and you know, I have testified a number 
of times here in Washington and always think I am on the right 
side of the issue and it is proven that most of the time I have 
been.  And I think clearly I am on the right side of the issue 
here.  And when I see foreign-owned-- 
	CHAIRMAN BARTON.  Spoken like a true Texan. 
	MR. PICKENS.  That is right.  That is right.  But 
foreign-owned and we don't have--we have an employee of one of 
the plants from Ft. Worth and we are the owners in the deal.  
They are not here speaking for themselves.  So we have, I am 
told, Belgian-owned plants killing American horses, sending them 
to France and Belgium and Japan.  I just don't get it.  I don't 
understand why we are the bad guys in the deal.  Horses cannot be 
eaten in Texas or other parts of the United States and we are 
sending them off-- 
	CHAIRMAN BARTON.  Nobody is saying that anybody is a bad 
guy.  My point is I listened to what Dr. Hogan said and what 
Mr. Williams said.  Dr. Hogan is a veterinarian and Mr. Williams 
trains animals and breed animals, breeds horses and I am trying 
to figure out if there is a moral difference between killing a 
horse one way versus in a slaughter facility.  If it is done 
properly, regulated, as Dr. Beaver referred to, that is why I 
say is there a compromise possible, but maybe there is not.  Maybe 
there are occasions where things are so black and white that you 
can't compromise.  Mr. Chairman, my time has expired, so I 
appreciate the courtesy. 
	MR. STEARNS.  I thank the Chairman.  Mr. Gonzalez. 
	MR. GONZALEZ.  Thank you very much, Mr. Chairman.  
I am probably missing something here because I think there 
are a couple of issues out here, regardless of the setting, 
whether it is a rendering plant or a slaughterhouse, euthanasia, 
the humane treatment of horses should be paramount.  That is where 
we are today.  I am not sure that is the real issue here.  I am not 
sure that this bill has such specifics that it is going to remedy 
all of those problems, but I do know what this bill addresses. 
	It has been established, I believe, that it is socially 
unacceptable in the United States to raise horses for the purpose 
of slaughtering them for human consumption.  I think that is a 
given.  And we will and the Government will, at every level of 
government, attempt to regulate human behavior that is not 
socially acceptable.  So Mr. Koehler, yes, private property rights 
are very important, but the Government, every level of government, 
dictates to you what is socially acceptable, your personal behavior, 
what is acceptable or not; what you do with your private property, 
personal, real and so on, land use, because we are a Nation and we 
have certain mores and values. 
	One of them is how we look at and treat a particular animal, 
in this case, a horse, which is not raised with the intention of it 
being food stock and that is, I think, the real issue here.  I 
think, at the end of this process, it is the consumption of horse 
meat, human consumption, that is objectionable.  We are trying to 
address that here.  We have three foreign-owned entities that, 
obviously, provide this particular service and that is kind of a 
curious thing is why we wouldn't have an American enterprise doing 
this if it is so profitable and acceptable.  So let us just say we 
can govern this and we will, and we do it in other arenas. 
	But I do believe this, and I am assuming some things here 
and any of the witnesses can just raise your hand and I will 
recognize you to respond.  Is there a difference in the type of 
animal that you find in a rendering plant and that which you find 
in the slaughterhouse for eventual human consumption of the meat 
in a foreign country?  I have been told, informed, that it is a 
younger, more healthy specimen of a horse that you find at the 
slaughterhouse that is destined for human consumption.  Is that 
or is that not a fact? 
	DR. HOGAN.  Yes, it is. 
	MR. GONZALEZ.  Okay, Dr. Hogan. 
	DR. HOGAN.  You are correct.  Yes, the majority of the 
animals in the slaughterhouse are younger and healthy and in very 
good shape. 
	MR. GONZALEZ.  All right.  Now, I am from Texas, not that I 
was ever a rancher, but I would assume that most of the cattle being 
raised and that are being slaughtered for human consumption are not 
ill, old, infirmed, and so on, correct? 
	DR. HOGAN.  Right. 
	MR. GONZALEZ.  The same logic would extend to a horse, 
wouldn't it?  What I am getting at is that I believe the slaughtering 
of healthy animals is encouraged by the fact that this is the kind of 
horse meat that would be at a premium price for human consumption, 
again, in a foreign land.  And Mr. Koehler, am I wrong in that 
assumption or is it the same animal at these slaughterhouses that 
you would find at the rendering plants? 
	MR. KOEHLER.  I think it is a misconception.  The animals 
that come by majority for slaughter are healthy because they are 
inspected by a USDA veterinarian for, in fact, that it is meat that 
is going into the human food chain.  So it will be healthy meat, 
by a majority; not all.  He will condemn some.  He will reject 
others.  But the majority is that yes, they are going to be healthy 
animals, but these are the unwanted healthy animals.  This is not a 
group of animals that was selected specifically for this.  Let me 
give you an example. 
	MR. GONZALEZ.  But you know, Mr. Koehler, because I only 
have like 1 minute, but if you give these individuals an available 
avenue, a way to dispose of a healthy animal, doesn't that basically 
allow them the luxury of being irresponsible horse owners?  If they 
didn't have that available slaughterhouse method of disposing of an 
animal that they no longer care for and make a few dollars on or 
whatever, are you accommodating irresponsible ownership? 
	MR. KOEHLER.  Let me quote Tim Grenlan, who said that "The 
damage, the poor condition of a horse to slaughter happened long 
before that horse ever went to slaughter," and I think that would 
be true for those animals that would be rejected or emancipated.  
Yes, there are laws on the books that should be addressed and that 
should be taken care of, but by and large, that is not we are 
talking about here. 
	MR. GONZALEZ.  Thank you, Mr. Koehler.  My time is up, 
but Mr. Chairman, if you would give Dr. Corey an opportunity to 
respond and Dr. Corey, thank you. 
	MR. STEARNS.  Sure. 
	DR. COREY.  I would just like to comment.  By banning 
slaughter, it is probably not going to eliminate the process of 
slaughter.  These horses will go to another location.  A large 
majority of them will end up going to Canada or Mexico and probably 
the regulations are not near as stringent as they are at a USDA 
regulated facility here in the United States.  So I don't think by 
eliminating this process here in the United States we are going to 
do an awful lot. 
	MR. STEARNS.  The gentleman's time has expired.  The 
gentlelady from California, Ms. Bono. 
	MS. BONO.  Thank you, Mr. Chairman, and thank all of our 
witnesses.  It has been very informative and interesting.  
Mr. Pickens, since you are always right on the issues and since 
we agree on this one, my first question is for you and can you 
speak a little bit more about the economics of this business and 
about the transfer of not only the horsemeat, but how do the 
finances work here and do these entities pay solid good American 
tax dollars? 
	MR. PICKENS.  I am not quite sure, but I want to respond 
to the question, but no, you are not talking to an expert.  I 
talked to the mayor of Kaufman where the Crown plant is located 
and I believe their revenues were $12 million last year and the 
unbelievable part was that she told me that the taxes paid to 
Kaufman were $5 dollars. 
	MS. BONO.  Thank you. 
	MR. PICKENS.  And oh, let me speak just for a second.  
When we talk here about the slaughter and how we dispose of horses 
at a certain time of their lives and all and what is the most humane 
way, we have completely avoided what you just asked.  This is all 
about making money, is what it is, because they kill here to make 
money in the United States for people that live in Europe and 
somehow, we keep avoiding that.  There are some of their fees, I am 
told that are, when these animals are killed here in the United 
States and I think that ought to be addressed, too. 
	MS. BONO.  Thank you.  I am going to reclaim my time 
because it goes so quickly.  Is it Mr. Koehler or Koehler? 
	MR. KOEHLER.  Koehler. 
	MS. BONO.  Koehler?  Thank you.  Quick question.  Why don't 
you, or why doesn't your company that you work for, place in the 
American marketplace of human consumption of horse? 
	MR. KOEHLER.  I didn't understand the question. 
	MS. BONO.  Well, the question is one that you should 
actually know the answer.  There is no market here in America 
because we don't support the consumption of horsemeat, so that, in 
itself, I think says the American people don't support the very 
notion of it, but if this is about money and if it is about 
markets, I mean, Dr. Beaver, I have a little question and I am sure 
one of you is certain this question, this is going to come up.  Do 
you support the same sort of euthanasia for dogs and cats? 
	DR. BEAVER.  The panel's report indicates that barbiturates 
are the preferred method for dogs and cats, there are different-- 
	MS. BONO.  Okay, yes or no.  I am sorry.  I have got 2 
minutes.  So no, you do not support the bolt in the head form of 
euthanasia? 
	DR. BEAVER.  Each species has its own unique forms of 
euthanasia in many cases. 
	MS. BONO.  So the biology of a dog or cat to either 
veterinarian or any veterinarian on the panel, the biology is 
different for a dog or cat but you don't support that. 
	DR. BEAVER.  It has more to do with-- 
	MS. BONO.  Why don't we have--and again, this is going to 
be the emotional question, probably, of the day.  Then why aren't 
we doing the same thing with dogs in the Korean market? 
	DR. BEAVER.  We have an oversupply of dogs and cats.  We 
don't want to create an oversupply of horses. 
	MS. BONO.  But by creating a marketplace in France and 
Belgium, we are creating a marketplace.  I think that sort of 
contradicts yourself. 
	DR. BEAVER.  As I said, the AVMA is concerned about the 
humane care of the horse, not what happens to the tissue other than 
protecting the environment after the horse has been euthanized. 
	MS. BONO.  Dr. Hogan, I am very interested to say that 
you made an unannounced visit to the slaughterhouse and can you 
just go on a little bit more about what you witnessed that you 
think we should know? 
	DR. HOGAN.  Well, it was about 10 years ago.  I really 
wasn't aware of slaughter, to tell you the truth.  I just was a 
resident at Texas A&M.  I went to the slaughter plant just to 
collect some legs for a project and so I was unannounced and 
really, it wasn't a hot button issue at the time so they didn't 
mind you coming.  But I just was appalled at the way the animals 
were treated.  They are very aware of things.  They are not like 
cattle or chickens, they could see what was going on.  They were 
intelligent about it, they were in a long line next to each other, 
processed through this line and then there was a stun gun of some 
type; I am not sure if it was a penetrating bolt at the time.  But 
the people that worked there were just abusive to the animals.  
I am sure that has been addressed, but it was my only exposure, at 
that time, to slaughter and I was just appalled at the whole thing.  
Horses are not the same type of animal that is raised as a food 
animal.  They are not raised in a herd environment, that they are 
put in this kind of environment.  They are in there with stallions, 
geldings, mares, they are just-- 
	MS. BONO.  Why is it different; we have moved to a 
commercial marketplace for buffalo meat?  Can you explain the 
difference a little bit between the buffalo, then, from the horse? 
	DR. HOGAN.  Well, there certainly is a different level of 
intelligence, but they are not in a bonding type situation with 
humans.  The buffalo and cattle are raised in manners that they 
learn to follow each other.  They learn to get along in herds.  
They learn to eat out of the same feed trough.  It doesn't happen 
that way with horses.  There is a pecking order, there is a 
hierarchy.  They fight, they hurt themselves, they hurt each other.  
It is a different type of situation.  They are treated the same way 
as cattle in the current makeup of a slaughterhouse. 
	MS. BONO.  Thank you.  My time has expired.  Mr. Chairman, 
thank you very much. 
	MR. STEARNS.  Thank you.  The gentleman from New Hampshire, 
Mr. Bass. 
	MR. BASS.  Thank you, Mr. Chairman.  I would assume that 
because the definition here on page three of the bill says that 
"the movement, showing, exhibition, or sale of sore horses in 
interstate commerce" and other equines to be slaughtered for human 
consumption.  That is a finding.  I guess my question is what 
would--there is a market for horse meat for zoos and other things.  
Would the passage of this bill affect that market?  Would somebody 
like to address that?  Would zoos still be able to get the meat 
they need to feed their animals? 
	MR. KOEHLER.  Well, let me address that.  From the 
standpoint of the USDA-inspected equine meat, no, because that part 
of the process alone will not sustain the plant.  As much as in the 
cattle industry, you have to sell all parts of the animal to make 
it profitable, so in order to do that, you would have to have all 
parts of that to function, so selling one part of it would not make 
the business functional.  And in connection with that, I don't know 
what is wrong with foreign investment.  As a businessman, I am here 
for profit. 
	MR. BASS.  Okay, I am not asking about foreign investment.  
Mr. Williams, do you have a comment? 
	MR. WILLIAMS.  With respect to the zoo question, some of the 
 proponents checked with the Washington Zoo.  They are down to about 5 
percent needing horse meat and they say they are phasing it out 
because it produces a bad reaction among the public when they learn 
that they are feeding horse meat. 
	MR. BASS.  Do you have an alternative for horse meat? 
	DR. HOGAN.  Yes, there is plenty of-- 
	MR. BASS.  Okay. 
	DR. HOGAN.  I mean, horse meat is a wonderful protein source, 
but so is buffalo, cow, pork. 
	MR. BASS.  Where do they get the buffalo? 
	DR. HOGAN.  Well, that is raised commercially, as well. 
	MR. BASS.  What about the issue of transport across 
boundaries.  What would there be to prevent an auction house being 
set up across the border somewhere; Mr. Koehler would set up his 
slaughterhouse across the border and you--I know the bill says you 
can't ship for purposes of slaughter, but if you shipped it for 
purposes of sale in Canada or Mexico or some other country that 
allowed for it, what would stop, if this bill were to pass?  
Dr. Corey. 
	DR. COREY.  Well, veterinarians can and do this daily and 
regularly.  We send horses to Canada for shows, for showing 
purposes, for riding events.  Those horses can end up going there 
for that, end up staying and all of a sudden something happens to 
them and they end up going down that pipeline.  Very simple.  It 
won't stop a Ferdinand from happening. 
	MR. BASS.  Anybody else want to comment on that?  Dr. Beaver. 
	DR. BEAVER.  There has to be teeth in the regulation to be 
sure that they would be stopped.  If the regulations are in place, 
but not enforced, it will not help the horse. 
	MR. BASS.  Well, if a horse is shipped to an auction house 
or a point of sale outside the United States, this bill passes, is 
shipped to a point of sale outside the United States and there were, 
as I understand, more than 10,000; 10,000 to 15,000 horses that have 
been shipped out of the country.  What is to stop Mr. Koehler from 
simply moving his company from Texas a few hundred miles south to 
Mexico, having a sale made down there and just continuing with the 
practice?  Would any of the proponents of the bill wish to address 
that issue?  Are you a proponent of the bill? 
	MR. WILLIAMS.  I am. 
	MR. BASS.  Okay, go ahead. 
	MR. WILLIAMS.  The language, the shipping, transporting, 
moving, delivering, receiving and so forth of any horse or other 
equine to be slaughtered for human consumption, I think, clearly 
covers that case and at least, based on instincts from my old days 
as a prosecutor, if I had an individual doing this in the United 
States, pointing towards Canada or Mexico, as soon as he let out 
the clutch on the truck and he started to move, he was transporting 
and I would be on him. 
	MR. BASS.  So your answer is the prohibition on the 
transportation alone would stop, would limit, if not prohibit, any 
transport across or even if the point of sale wasn't clearly 
defined? 
	MR. WILLIAMS.  Yes, because it would be easy enough to 
establish by other means what the purposes and intent of the 
perpetrator was. 
	MR. BASS.  How would the passage of this bill prevent 
another Ferdinand event from occurring?  It is my understanding--the 
counsel here just told me a second ago that Ferdinand was actually 
sold abroad for breeding and then wound up on a table, is that true? 
	MR. WILLIAMS.  That is true.  But this would not stop that.  
You still got these horses that are going to go to Canada or Mexico 
or Japan.  It doesn't make any difference.  They will still end up 
going there and I would prefer to have these horses processed in the 
United States where we have got the USDA governing these processing 
plants. 
	MR. KOEHLER.  Representative, may I also comment on that?  In 
addition to that, I see a lot more horses coming from some of the 
western States, Utah, Arizona, close to California.  The implication 
of that could be that horses that are moving, also, and something like 
you are talking about, out of the country thing across borders.  
I don't have any proof of that, just I see a larger number coming 
from that area. 
	MR. BASS.  I know that the proponents of the bill believe 
that horses are not the same as cows, they are not livestock.  Do 
the opponents, do any of the three of you who are appearing here as 
opponents of the bill perceive any difference in the 
characterization of a horse as livestock different from a cow, a 
chicken, or a pig for purposes of its treatment at the end of its 
life? 
	DR. BEAVER.  The AMVA'S concern is for humane care of any 
species.  Each species, as a behaviorist, is recognized as having 
its own unique features, both physiology, anatomy behavior.  As long 
as it is treated humanely and both in life and in death, the 
resulting handling of the tissue afterwards is a totally separate 
subject. 
	MR. BASS.  Okay. 
	DR. BEAVER.  Currently, in the world, there are about 4.7 
million horses eaten or slaughtered for human consumption around 
the world now.  I guess part of the concern is what are we, as the 
United States, going to be dictating what the world is to eat and 
then if we choose to do that, who is next?  Are we going to then 
dictate what we can also eat? 
	MR. BASS.  All right.  Yes, sir.  Please be brief. 
	DR. COREY.  I will be brief.  Dr. Hogan, I am not sure where 
she became an expert on the intelligence of animals, because as far 
as I am concerned, I am a cattle rancher in Oregon and I think 
cattle are awful smart at times.  And so it is kind of hard to 
evaluate which one is a lot more intelligent than the other one. 
	MR. BASS.  Okay, fair enough.  I would like to just 
conclude--yes, sir. 
	MR. PICKENS.  France and Belgium do not allow the killing, 
the slaughter of horses, so they have to get their horse meat from 
us. 
	MR. BASS.  All right.  I just want to conclude, if I could.  
I have determined that there are basically four reasons why the 
proponents of this bill want it to pass.  Number one, owners 
unknowingly sell their horses not understanding that they will be 
slaughtered.  Two, stolen horses are sometimes slaughtered.  Three, 
inhumane treatment between the auction house and the slaughterhouse 
exists in both transportation and the killing technique; and four, 
the sale of meat for human consumption is distasteful.  Do any of 
the proponents of the bill have anything to add?  Thank you very 
much, Mr. Chairman. 
	MR. STEARNS.  I thank the gentleman and by unanimous 
consent, we have finished the members' questioning period, unless 
\Ms. Bono wishes any additional time? 
	MS. BONO.  Thank you, Mr. Chairman.  I think it would be a 
great time for Mr. Whitfield to-- 
	MR. STEARNS.  Okay, so by unanimous consent, I recognize the 
gentleman from Kentucky, Mr. Whitfield, for 5 minutes, approximately. 
	MR. WHITFIELD.  Thank you, and I hope you will be as generous 
with me as Chairman Goodlatte.  I was reading some articles the 
other day about a paper, 10 years ago, actually 20 years ago, 1986 
and this was the mayor of Kaufman, Texas talking to Dallas Crown 
Packing Company officers.  "Quite frankly, we don't want you here." 
 And I know that in the city of Kaufman that Dallas Crown has had 
31 wastewater violations in the last couple of years.  The city 
council and the zoning board authority has voted to shut the plant 
down on September 30, 2006. 
	And in the process of doing that, to meet some requirements 
of Texas law, they had to subpoena the tax records of Dallas Crown, 
and in those tax records they found, as Mr. Pickens referred to, 
that on $12 million of revenue they paid $5 in Federal income tax 
and they had made an $80,000 tax estimate payment and they received 
a $79,995 refund. 
	So in that instance, you have got a plant that the majority 
of people in that community don't want.  Seventy-seven percent of the 
people in Texas, in a poll, said they don't approve slaughter.  
They are violating wastewater and environmental laws.  And the judge 
has said in order to enforce 149--and because of Federal preemption 
and because of the interstate commerce clause, that the only entity 
that can shut these slaughterhouses down is the Federal government. 
	Now, Mr. Koehler, I know you are not Dallas Crown, but why 
do you even want to do business in a State in which there is such 
overwhelming sentiment against what you are doing? 
	MR. KOEHLER.  Well, Mr. Whitfield, for one thing, on the 
lawsuit in Federal court, the Federal judge found, his number one 
finding was that the Texas law had already been repealed, so it 
was-- 
	MR. WHITFIELD.  But he didn't base it on that.  He based it 
on the Interstate Commerce Act and the Meat Packing Act of 1906 in 
Federal preemption and he never made a formal finding on that point. 
	MR. KOEHLER.  No, sir, he didn't.  It is my understanding 
he found it was on three points and we won on all three points. 
	MR. WHITFIELD.  And I might say that he talked about the 
fact that you are paying $5 for every horse slaughtered, $3 to the 
Cattlemen's Association and $2 to Texas A&M Extension Service and 
the purpose of that is try to identify, because in his opinion he 
talks specifically about the number of stolen horses that were 
being slaughtered in Texas at the two plants. 
	And the reason that they were going to go to this $5 was to 
try to come up with a plan to identify stolen horses.  And you said, 
in your testimony, you did not identify any horses that had been 
stolen and in the San Antonio newspaper that I was referring to, 
which I have a copy of here, and talking to the people at Texas A&M 
and the Southwestern Cattle Association, they said they have not 
found any horses that had been stolen being slaughtered. 
	Now, do you honestly believe that you are not slaughtering 
any stolen horses in your plant? 
	MR. KOEHLER.  To my knowledge, that is correct. 
	MR. WHITFIELD.  Do you have a database of stolen horses? 
	MR. KOEHLER.  Do I have a database? 
	MR. WHITFIELD.  A database. 
	MR. KOEHLER.  I have a database of horses that are received 
for slaughter. 
	MR. WHITFIELD.  Do you have a database of stolen horses? 
	MR. KOEHLER.  If you mean information from various horse 
associations and individual owners that are given to the Texas 
Southwestern Cattle Raisers Association, that is a lot to say, yes, 
sir.  They are given to the inspector so he is aware of what animals 
are-- 
	MR. WHITFIELD.  And does he get 80 cents a head? 
	MR. KOEHLER.  Sir? 
	MR. WHITFIELD.  The brand inspector, does he get 80 cents per 
head for a horse that goes through the process? 
	MR. KOEHLER.  The brand inspector is paid by the Texas 
Southwestern Cattle Raisers. 
	MR. WHITFIELD.  That you pay.  You pay for that, though, 
right? 
	MR. KOEHLER.  I pay to the State of--mandated by the State 
of Texas, part of it to the Texas-- 
	MR. WHITFIELD.  Yes, yes. 
	MR. KOEHLER.  Which the State of Texas chose that brand 
inspector and-- 
	MR. WHITFIELD.  I don't think that anyone would--I mean, we 
have got--these were just from the last month, but these are 
articles around the country on horses stolen and taken to slaughter. 
 I think one of the things that disturbs a lot of people is that 
fact.  Second of all, Dr. Beaver, I noticed that you are a small 
animal specialist, it is my understanding.  When you go to the 
website, it talks about your involvement with dogs, in particular, 
and that is your specialty. 
	DR. BEAVER.  My academic housing is in the department of 
small animal clinical sciences, although animal behavior is my 
specialty area, so I work in both the large animal and small animal 
clinics. 
	MR. WHITFIELD.  Now, I was a little bit shocked, truthfully, 
that--and I think Dr. Corey and Dr. Beaver, you talked about the 
Federal government's responsibility if you stop the slaughterhouse, 
the Federal government has got to be responsible for these horses 
that won't be slaughtered and I would just ask you; I know I read 
some of your literature on the responsibility of dog owners and 
small pet owners and their personal responsibility.  Don't the 
breeders of these horses, particularly the quarter horse, which is 
the leading entity opposing this bill, their leadership, don't they 
have any responsibility on their prolific breeding that they are 
doing? 
	DR. BEAVER.  The majority of horses in the United States 
are not necessarily purebred horses.  They are often mixed breed 
horses. 
	MR. WHITFIELD.  Well, they said last year they had 144,000 
foals of Texas quarter horse that were registered. 
	DR. BEAVER.  That is correct. 
	MR. WHITFIELD.  Do they have any responsibility on that 
number of horses? 
	DR. BEAVER.  All horse owners have a responsibility for 
their own horses. 
	MR. WHITFIELD.  So why should the Government take over 
responsibility if we stop the slaughterhouses? 
	DR. BEAVER.  For the same reason that we have dogs and cats 
that are running loose. 
	MR. WHITFIELD.  The Government doesn't take over that, does 
it? 
	DR. BEAVER.  State-- 
	MR. WHITFIELD.  No, local groups raise money and they take 
care of that. 
	DR. BEAVER.  No, State and local governments-- 
	MR. WHITFIELD.  Not in Kentucky, that is not the case.  
Not in Kentucky.  Yes, sir? 
	DR. COREY.  Well, you know, I disagree with you a little 
bit.  I think it is an owner's responsibility. 
	MR. WHITFIELD.  Right. 
	DR. COREY.  But you also have to understand-- 
	MR. WHITFIELD.  Well, why should they be breeding them? 
	DR. COREY.  The care of horses in eastern Oregon, it will 
run up to $2,000 and there are a lot of places that these horses are 
not of the value of a lot of thoroughbreds and the thoroughbred 
owners can definitely take care of-- 
	MR. WHITFIELD.  Why are the quarter horses breeding so many 
horses, 144,000 a year?  Why are they doing it? 
	DR. COREY.  I guess it is free trade. 
	MR. WHITFIELD.  Oh, so you are making the argument that we 
have all these unwanted horses and that yet the quarter horse people 
are not taking any responsibility for their breeding practices. 
	DR. COREY.  You have to ask the Quarter Horse Association 
that, but the point is that it is very expensive for some people to 
take care of their horses. 
	MR. WHITFIELD.  Well, why do they have horses, then, if they 
can't take care of them? 
	DR. COREY.  I think some people fall upon hard times, when 
they start out with horses, you can't avoid that. 
	MR. WHITFIELD.  And you know when you go to an auction house 
like in New Holland, Pennsylvania, if you are not in the business, 
there isn't any disclaimer there, there is no notice about killer 
buyers being present.  If I take a cattle to an auction, I know that 
that animal is going to end up being slaughtered, but if I have some 
horses and I am not in the real business and I go, I take a horse to 
auction, I don't necessarily know that that animal is going to be 
slaughtered and yet you have this--in fact, I have found some 
websites; you have Beltex listed, Dallas Crown listed, you have a 
long list of independent contractors, so-called killer buyers, 
running around the country gathering horses, one way or the other, 
for them. 
	DR. COREY.  Well, I would sure disagree with you.  In our 
area of the country, and most veterinarians that I know, these 
horses, when they leave a clinic and they have got something wrong, 
maybe they are permanently crippled, they are lame and they feel 
like they need to get a little value out of that horse, instead of 
feeding it, they know exactly where these horses are going. 
	MR. WHITFIELD.  Are you making the argument that the only 
horses slaughtered are those that have some defect or-- 
	DR. COREY.  No, I think you will see a large range of 
horses.  You will see behavioral problems.  You will see crippled 
horses, non-life threatening injuries.  Sure, you will see geriatric 
horses.  You see many.  I am just kind of curious.  You mention 
these polls, these exit polls. 
	MR. WHITFIELD.  No, not exit polls.  It was done by--Fasig 
Tipton actually paid for it, which is the second largest auction 
house in the country and it was done in Texas and I can-- 
	DR. COREY.  Were they all horse owners and the horse public 
that know horses and know the welfare-- 
	MR. WHITFIELD.  It was the general public. 
	DR. COREY.  A lot of the general public does not know 
equine. 
	MR. KOEHLER.  Mr. Whitfield, may I address your question, 
also? 
	MR. WHITFIELD.  Yes. 
	MR. KOEHLER.  In the State of Texas, when an animal is 
brought to the auction, that owner is given a choice that he can 
either have a cognizance test done or that animal must come to 
slaughter.  So those people that bring their animals to auction 
will-- 
	MR. WHITFIELD.  But that is not the case in other parts of 
the country. 
	MR. KOEHLER.  In many States it is, but I can speak directly 
about Texas. 
	MR. WHITFIELD.  Well, Mr. Chairman, you have been very 
kind.  I have already gone 5 minutes over, so thank you. 
	MR. STEARNS.  I thank my colleague.  Mr. Corey. 
	DR. COREY.  I just have one question for Mr. Whitfield.  
Are you suggesting that we control the breeding of horses? 
	MR. WHITFIELD.  If you are going to make the argument that 
we have too many unwanted horses.  Now, 12 years ago, 329,000 
horses, approximately, were slaughtered in America and now we are 
down to around 85,000 and I haven't read anything, I haven't seen 
any scientific studies or anything else about more unwanted horses 
than can be taken care of.  So if we have gone from 329 to 85, 
I don't buy the argument.  Going from 85 to zero, the whole country 
would be covered up with horses that cannot be taken care of. 
	MR. STEARNS.  Mr. Corey, I don't know if you can win with 
Members of Congress here because we usually get the last word in 
so let me just close here and just say I am very appreciative that 
we had the opportunity to have this hearing.  I know folks on both 
sides wanted to have the opportunity to have the full facts out and 
I think we have done that, so with that, the subcommittee is 
adjourned. 
	[Whereupon, at 4:56 p.m., the subcommittee was adjourned.] 

1 United States. Cong. House. 109th Congress, 1st Session. Roll Call 
Vote 233.  H.AMDT. 236 to H.R. 2744 - Agriculture, Rural Development, 
Food and Drug Administration, and Related Agencies Appropriations 
Act, 2006 [Amdt. introduced in the U.S. House; 8 June 2005]. 
2 United States. Cong. Senate. 109th Congress, 1st Session. Roll 
Call Vote 237.  S.AMDT. 1753 to H.R. 2744 - Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations Act, 2006 [Amdt. introduced in the U.S. House; 
9 September 2005]. 
3 Section 798.  Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Act, 2006, 
Pub. L. no. 109-97. (2005). 
4 Section 6.  Horse Protection Act.  15 U.S.C.  1821 1831 
5 Survey conducted on May 4-6, 2003 by Mason-Dixon Polling & Research 
for Blue Horse Charities. 
6 Survey conducted by Voter/Consumer Research on behalf of the 
National Horse Protection Coalition in Oct. '05 
7 Survey conducted by McLaughlin & Associates on behalf of the 
National Horse Protection Coalition. 
8 U.S. Horse Slaughter Statistics.  USDA's National Agricultural 
Statistics Service. Online. 
<http://www.saplonline.org/horses_stats.htm> 
9 Declaration of Paula Bacon.  Plaintiffs' Exhibit 9.  Civ. No. 
02-0265 (CKK).  The Humane Society of the United States, et al. 
vs. Mike Johanns et al. 
10 Ibid. 
11 2000 Report of the AVMA Panel on Euthanasia.  JAVMA, Vol. 218, 
No. 5, March 1, 2001. 
12 Ibid. 
13 American Horse Defense Fund.  Alternatives to Auction and 
Slaughter: A guide for Equine Owners. 2005 
14 USDA, Animal and Inspection Service Publication. "Take Care of 
Our Horses - Commercial Transportation of Equines to Slaughter." 
15 Ibid. 


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
